<html>
<title> - NATO: CHICAGO AND BEYOND</title>
<body><pre>[Senate Hearing 112-601]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-601

 
                        NATO: CHICAGO AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 10, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
76-688                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="197e6976597a6c6a6d717c7569377a767437">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Binnendijk, Dr. Hans, vice president for research and applied 
  learning, National Defense University, Washington, DC..........    47
    Prepared statement...........................................    50
Brzezinski, Ian, senior fellow, the Atlantic Council; principle, 
  the Brzezinski Group, Washington, DC...........................    39
    Prepared statement...........................................    42
Gordon, Hon. Philip H., Assistant Secretary of State for European 
  and Eurasian Affairs, U.S. Department of State, Washington, DC.     3
    Prepared statement...........................................     6
    Response to a question submitted for the record by Senator 
      James M. Inhofe............................................    65
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    65
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Kupchan, Dr. Charles A., professor, Georgetown University; 
  Whitney Shepardson senior fellow, Council of Foreign Relations, 
  Washington, DC.................................................    33
    Prepared statement...........................................    36
Shaheen, Hon. Jeanne Shaheen, U.S. Senator from New Hampshire, 
  prepared statement.............................................    32
Townsend, James J., Jr., Deputy Assistant Secretary of Defense 
  for European and NATO Policy, U.S. Department of Defense, 
  Washington, DC.................................................    10
    Prepared statement...........................................    11
    Responses to questions submitted for the record by Senator 
      Richard G. Lugar...........................................    66
    Response to a question submitted for the record by Senator 
      Tom Udall..................................................    69
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    69

                                 (iii)

  


                        NATO: CHICAGO AND BEYOND

                              ----------                              


                         THURSDAY, MAY 10, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Cardin, Shaheen, Udall, Corker, 
Risch, and Lee.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Thank you all very much for being here this morning. I 
apologize if we are starting a moment or two late.
    By way of process, I have a conflict at about 10:30, about 
10:25. Senator Shaheen, who is the chairman of the European 
Affairs Subcommittee, will chair the hearing from that point 
forward. And I appreciate everybody's understanding of that.
    Yesterday, the committee had the opportunity to have a very 
healthy and broad discussion with Secretary General Rasmussen, 
and he laid out for us the general expectations of the summit 
and the road forward as we continue to define NATO's new 
parameters.
    This is our fourth hearing on NATO since 2009 and that's no 
accident. I think all the members of the committee share the 
belief that the alliance remains vital to American security and 
its effectiveness as an institution deserves our continued 
focus and attention.
    But needless to say, that focus has changed. Europe has 
changed. The world has changed. And later this month when the 
allies meet in Chicago to discuss its future in Afghanistan and 
elsewhere, a lot of that redefining will be on the table.
    So this summit is about how do you make NATO stronger and 
how do we learn from our shared experiences. In my judgment, 
NATO is--and I think this is a shared judgment--a fundamental 
element of our national security and its organization demands 
critical analysis in order to meet the evolving threats of our 
national security.
    One thing is pretty clear about NATO. It has already 
confounded its skeptics. From Bosnia to Kosovo, from 
Afghanistan to Libya, the alliance has demonstrated an ability 
to adapt to the post-cold-war security environment. Obviously, 
we have had our challenges in both Afghanistan and Libya, but 
we have learned from them.
    The signing of the Strategic Partnership Agreement by 
President Obama last week signaled the gradual transition from 
a war-fighting posture to a supportive role, and NATO's 
commitment to the people of Libya in the past year has shown 
that the alliance, properly leveraged, is still a very highly 
responsive, capable, and legitimate tool when it really 
matters.
    I do not want to spend too much time on the full agenda in 
which the members are engaged, including strengthening 
partnerships with countries and organizations around the globe, 
defending against terrorism and cyber threats, and deploying 
defenses against the real missile threats that the alliance 
faces. Each will get, I am sure, some further attention in the 
course of the hearing today.
    But let me just make a couple of broader points. First, on 
Afghanistan and then second, on meeting our security needs in 
the age of austerity.
    Recently, just literally a day before the President arrived 
in Afghanistan, I was there for 2 days for discussions with 
Ambassador Crocker and the head of the United States forces, 
General Allen. I met with President Karzai, his Cabinet 
members, and with Jan Kubis, the head of the U.N. mission in 
Afghanistan. I also visited with civil society members, with 
potential Presidential candidates and parties. To a person, 
everyone emphatically stated that the completion of this 
agreement is something of a game-changer. And over the years 
that I have traveled to Afghanistan and the region, I think 
about 18 times since 9/11 events, I have had many conversations 
with people at all different levels there in the high points 
and the low points of the conflict, and I think I can 
confidently say that I have never sensed quite a collective 
sense of direction or sigh of relief as a consequence of that 
agreement.
    But I will say definitively--and I said this to Jan Kubis 
and to President Karzai--that in the end our gains are going to 
mean nothing if we lose sight of three major challenges that 
remain.
    One is the continued challenge of governance, the challenge 
of corruption within the government process and the delivery of 
services. That is paramount.
    Two is the question of the continued danger of a sanctuary 
war being prosecuted against the forces there. I am a veteran 
of a sanctuary war, and I know how insidious it can be. And I 
personally think it is simply unacceptable to have a zone of 
immunity for acts of war against armed forces and against the 
collective community that is trying to accomplish what it is 
trying to accomplish. That means Pakistan has to become more 
assertive and more cooperative, and we may have to resort to 
other kinds of self-help depending on what they decide to do.
    And the final point that I think everything hangs on--and 
again, I underscored this as powerfully as I could and having 
been involved in sort of trying to dig our way out of the 
problems of 2009's election. We must prepare now for the 
election process, not later, but now. It is imperative that the 
Afghan Government, through an independent election commission, 
put out the rules of the road for that election. The lists have 
to be prepared. The registration has to take place. There has 
to be openness, transparency, accountability. Free and fair 
elections are mandatory to any chance to go forward after 2014 
with any possibility of success.
    So those three things leap out at the NATO challenge as we 
go forward here.
    And finally, the second point. The alliance can only endure 
if there is a shared sacrifice and a shared commitment to the 
common purpose. We talked yesterday with Secretary General 
Rasmussen about this. The failure of some countries to muster 
their 2-percent contributions and the expectations going 
forward really raise serious questions still as we define the 
road ahead. So we need to work with our European friends. We 
all understand this is a time of austerity. It is a time of 
austerity for everybody. But we are going to have to set 
priorities. We are going to have to decide what is really 
important and what is perhaps less important. And while we all 
understand that military budgets may not be inviolable with 
respect to the austerity, certain priorities have to stand out, 
and I believe the mutuality of this defense is one of those and 
we need to make that real.
    So we have to be clear that even before the financial 
crisis, NATO was seriously underfunded. And as we emerge from 
the financial crisis, we have all got to commit the resources 
necessary for the core security interests.
    But I just say in the end I am delighted to have the panels 
that we have here today. We could not have a better group of 
experts of varying views to share our thinking about this 
important topic. And on the first panel, we have Dr. Philip 
Gordon, the Assistant Secretary of State for European and 
Eurasian Affairs; James Townsend, the Deputy Assistant 
Secretary of Defense for European and NATO Policy. And on the 
second panel, we are joined by Dr. Charles Kupchan, professor 
of international affairs at Georgetown University and the 
Whitney Shepardson senior fellow at the Council on Foreign 
Relations; and Ian Brzezinski, senior fellow at the Atlantic 
Council and principal of the Brzezinski Group; and Dr. Hans 
Binnendijk, vice president for Research and Applied Learning at 
the National Defense University. So we are very grateful to all 
of you today for taking time to be here and look forward to 
your testimony.
    The Chairman. And Senator Corker, I recognize you.
    Senator Corker. Go ahead.
    The Chairman. Gentlemen, we look forward to your testimony. 
Thank you.

  STATEMENT OF HON. PHILIP H. GORDON, ASSISTANT SECRETARY OF 
  STATE FOR EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Dr. Gordon. Thank you, Chairman Kerry, and to other members 
of the committee for inviting us here to testify on the NATO 
summit, which the United States is proud to be hosting in 
Chicago on May 20 and 21.
    With your permission, Senator, I would like to submit my 
full statement for the record and just briefly summarize my 
comments here.
    The Chairman. We appreciate that, and without objection, 
the full statement will be in the record.
    Dr. Gordon. Thank you.
    I want to say I appreciate the committee's support for this 
summit, as well as its sustained recognition of the 
significance of this alliance to transatlantic security. This 
Chicago summit will be the first NATO summit on American soil 
in 13 years and the first ever outside of Washington. In 
addition to the opportunity to showcase one of our Nation's 
great cities, our hosting of the summit in Chicago is a 
tangible symbol of the importance of NATO to the United States. 
It is also an opportunity to underscore to the American people 
the continued value of this alliance to security challenges we 
face today.
    At NATO's last summit in Lisbon nearly 18 months ago, the 
allies unveiled a new strategic concept that defines NATO's 
focus in the 21st century. Building on the decisions taken in 
Lisbon, the allies have three objectives for the Chicago 
summit: Afghanistan, capabilities, and partnerships. And if I 
might, I would like to just say a few words about each.
    On Afghanistan, the ISAF coalition has made significant 
progress in preventing that country from serving as a safe 
haven for terrorists and ensuring that Afghans are able to 
provide for their own security. These are both necessary 
conditions to fulfill the President's goal to disrupt, 
dismantle, and defeat al-Qaeda.
    Last week, as the chairman acknowledged, the United States 
demonstrated its commitment to the long-term stability and 
security of Afghanistan when President Obama and President 
Karzai signed the Strategic Partnership Agreement. And again, I 
appreciated hearing Chairman Kerry's assessment and look 
forward to discussing Afghanistan further.
    At Chicago where Afghanistan is concerned, the United 
States anticipates three deliverables in particular: an 
agreement on an interim milestone in 2013 when ISAF's mission 
will shift from combat to support for the Afghan National 
Security Forces, the ANSF; second, an agreement on the size, 
cost, and sustainment of the ANSF beyond 2014; and finally, a 
roadmap for NATO's post-2014 role in Afghanistan.
    Regarding capabilities, NATO's ability to deploy an 
effective fighting force in the field makes the alliance 
unique. However, its capacity to deter and respond to security 
challenges will only be as successful as its forces are able, 
effective, interoperable, and modern.
    In the current era of fiscal austerity, NATO can still 
maintain a strong defense, but doing so requires innovation, 
creativity, and effectiveness. The United States is modernizing 
its presence in Europe at the same time that our NATO allies 
and NATO as an institution are engaged in similar steps. This 
is a clear opportunity--you might even say necessity--for our 
European allies to take on greater responsibilities. The United 
States continues to strongly urge those allies to meet the 2-
percent benchmark for defense spending and to contribute 
politically, financially, and operationally to the strength of 
the alliance. In addition to the total level of defense 
spending, we should also focus on how these limited resources 
are allocated and for what priorities.
    NATO has made progress toward pooling more national 
resources, which is exemplified through the capabilities 
package that the United States anticipates that leaders will 
endorse in Chicago. This package for Chicago includes missile 
defense, the alliance ground surveillance program, and Baltic 
air policing. Our allies are furthermore expected to endorse 
the Deterrence and Defense Posture Review, the DDPR. The DDPR 
will identify the appropriate mix of nuclear, conventional, and 
missile defense capabilities that NATO needs to meet 21st 
century security challenges, as well as reaffirm NATO's 
commitment to making consensus decisions on alliance posture 
issues.
    Finally, the Chicago summit will highlight NATO's success 
in working with a growing number of partners around the world. 
Effective partnerships allow the alliance to extend its reach, 
act with greater legitimacy, share burdens, and benefit from 
the capabilities of others. Our allies will not take decisions 
on further enlargement of NATO in Chicago, but they will, 
nonetheless, send a clear, positive message to aspirant 
countries in support of their membership goals. The United 
States has been clear that NATO's door remains open to European 
democracies that are willing and able to assume the 
responsibilities and obligations of membership. Bosnia and 
Herzegovina, Macedonia, Montenegro, and Georgia are all working 
closely with allies to meet NATO membership criteria.
    Let me just very briefly talk specifically about two 
aspirants that I know are of particular interest to this 
committee: Macedonia and Georgia.
    Macedonia has fulfilled key criteria required of NATO 
members and has contributed to regional and global security. 
The United States fully supports the U.N. process, led by 
Ambassador Nimetz. We also engage regularly with both Greece 
and Macedonia to urge them to find a mutually acceptable 
solution to the name dispute which will fulfill the decision 
taken at the NATO summit in Bucharest and extend a membership 
offer to Macedonia.
    With regard to Georgia, U.S. security assistance and 
military engagement support the country's defense reform, train 
and equip Georgian troops for participation in ISAF operations, 
and advance its NATO interoperability. In January, President 
Obama and President Saakashvili agreed to enhance this 
cooperation to advance Georgia's military modernization, 
defense reform, and self-defense capabilities. U.S. assistance 
programs provide additional support to ongoing democratic and 
economic reform efforts in Georgia, a critical part of 
Georgia's Euro-Atlantic aspirations where they have made 
important strides. U.S. support for Georgia's territorial 
integrity within its internationally recognized borders remains 
steadfast and our nonrecognition of separatist regions of 
Abkhazia and South Ossetia will not change.
    Finally, let me address NATO's relationship with Russia: 
2012 marks the 15th anniversary of the NATO-Russia Founding Act 
and the 10th anniversary of the NATO-Russia Council; 
anniversaries that we commemorated at a NATO-Russia Foreign 
Ministers meeting in Brussels last month. The NRC is founded on 
our commitment to cooperate in areas of mutual interest and 
address issues of disagreement. The best example of cooperation 
is our joint efforts in Afghanistan where Russia's transit 
support has been critical to the mission's success.
    At the same time, NATO continues to seek cooperation with 
Russia on missile defense in order to enhance our individual 
capabilities to counter this threat. While we strive for 
cooperation, we have also been frank in our discussions with 
Russia that we will continue to develop and deploy our missile 
defenses irrespective of the status of missile defense 
cooperation with Russia. Let me be clear. NATO is not a threat 
to Russia, nor is Russia a threat to NATO.
    It is no secret that there are issues on which the allies 
and Russia differ. Russia has been critical of NATO's operation 
in Libya. We also disagree fundamentally over the situation in 
Georgia. Since 2008, NATO has strongly supported Georgia's 
sovereignty and territorial integrity and has continued to urge 
Russia to meet its commitments with respect to Georgia.
    In conclusion, the three summit priorities that I just 
outlined demonstrate how far NATO has evolved since its 
founding six decades ago. The reasons for its continued success 
are clear. The alliance has over the last 63 years proven to be 
an adaptable, durable, and cost-effective provider of security. 
When President Obama welcomes his counterparts to Chicago in 
just over a week, the United States will be prepared to work 
with our allies and partners to ensure that the alliance 
remains vibrant and capable for many more years to come.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Dr. Gordon follows:]

  Prepared Statement of Assistant Secretary of State Philip H. Gordon

    Chairman Kerry, Ranking Member Lugar, and members of the committee, 
thank you for inviting me here today to discuss the NATO summit, which 
the United States is proud to be hosting in Chicago on May 20-21. I 
appreciate the committee's support for this meeting, as well as its 
sustained recognition of the significance of this alliance to 
transatlantic security. This will be the first NATO summit on American 
soil in 13 years and the first ever outside of Washington. In addition 
to the opportunity to showcase one of our Nation's great cities, our 
hosting of the summit is a tangible symbol of the importance of NATO to 
the United States. It is also an opportunity to underscore to the 
American people the continued value of the alliance to the security 
challenges we face today.
    Indeed, NATO is vital to U.S. security. More than ever, the 
alliance is the mechanism through which the U.S. confronts diverse and 
difficult threats to our security together with like-minded states who 
share our fundamental values of democracy, human rights, and rule of 
law. Our experiences in the cold war, in the Balkans and now in 
Afghanistan prove that our core interests are better protected by 
working together than by seeking to respond to threats alone as 
individual nations.
    At NATO's last summit in Lisbon nearly 18 months ago, allies 
unveiled a new Strategic Concept that defines NATO's focus in the 21st 
century. Former Secretary of State, Madeleine Albright, was appointed 
by NATO Secretary General Rasmussen to develop the basis for the 
Strategic Concept and consulted with this committee during that 
process. First and foremost, NATO remains committed to the article 5 
principle of collective defense. It is worth recalling that the first 
and only time in the history of the alliance that article 5 was invoked 
was after terrorists attacked the United States on September 11, 2001. 
The very next day NATO invoked article 5 in recognition of the 
principle that an attack against the U.S. represented an attack against 
all.
    In addition to being a collective security alliance, NATO is also a 
cooperative security organization. Unlike an ad hoc coalition, NATO can 
respond rapidly and achieve its military goals by sharing burdens. In 
particular, NATO benefits from integrated structures and uses common 
funding to develop common capabilities.
    It is in this context that allies and partners will be meeting in 
Chicago next month. Building on the decisions taken in Lisbon, the 
President has three objectives for the Chicago summit. The centerpiece 
will be the announcement of the next phase of transition in Afghanistan 
and a reaffirmation of NATO's enduring commitment to the Afghan people. 
Second, we will join allies in a robust discussion of our most critical 
defense capability requirements in order to ensure that the security 
that NATO provides is both comprehensive and cost effective. And 
finally, we must continue our efforts to develop NATO's role as a 
global hub for security partnerships.
    Afghanistan: On Afghanistan, the International Security Assistance 
Force (ISAF) coalition--comprised of 90,000 U.S. troops serving 
alongside 36,000 troops from NATO allies and 5,300 from partner 
countries--has made significant progress in preventing the country from 
serving as a safe haven for terrorists and ensuring that Afghans are 
able to provide for their own security, both of which are necessary 
conditions to fulfill the President's goal to disrupt, dismantle, and 
defeat al-Qaeda. At Chicago, the U.S. anticipates three deliverables: 
an agreement on an interim milestone in 2013 when ISAF's mission will 
shift from combat to support for the Afghan National Security Forces 
(ANSF); an agreement on the size, cost, and sustainment of the ANSF 
beyond 2014; and a roadmap for NATO's post-2014 role in Afghanistan.
    At the NATO summit in Lisbon, allies, ISAF partners and the Afghan 
Government agreed upon a transition strategy that would result in the 
Afghan Government assuming full responsibility for security across the 
country by the end of 2014. This strategy is on track, as approximately 
50 percent of the population lives in areas where Afghan forces are 
taking the lead. As transition progresses, the role of ISAF forces will 
evolve. In Chicago, leaders will establish a milestone in 2013 when 
ISAF's mission will shift from combat to support as the ANSF becomes 
more responsible for security.Throughout the transition period, ISAF 
forces--including American forces--will continue to be fully combat 
ready and will conduct combat operations as required. The United 
States, allies and partners remain fully committed to this Lisbon 
framework, as well as to the principle of ``in together, out 
together.''
    Leaders will also agree upon a plan for the future sustainment of 
the ANSF, which has been endorsed by the international community and 
the Government of Afghanistan and reflects what we believe will be 
necessary to keep Afghan security in Afghan hands. It is our goal that 
the international community will pledge 1 billion euro annually toward 
supporting the ANSF beyond 2014. We know this is not an easy pledge, 
particularly with some European governments facing difficult budget 
decisions as they work to recover from the economic crisis. Already, 
the British have stepped forward with a substantial commitment; we 
welcome early pledges from Estonia, Latvia, and Luxembourg, as well. We 
are engaged in active diplomacy to encourage contributions. Secretary 
Clinton and Secretary Panetta were in Brussels last month for a series 
of NATO meetings and emphasized the importance of ANSF funding in every 
forum and in their bilateral meetings. We have also welcomed 
complementary efforts to encourage ANSF funding, such as the Danish-led 
Coalition of Committed Contributors initiative, which 23 nations have 
signed onto--including the United States.
    Finally, the summit will make clear that NATO will not abandon 
Afghanistan after the ISAF mission concludes. In Chicago, the alliance 
will reaffirm its enduring commitment beyond 2014 and define a new 
phase of cooperation with Afghanistan. Last week, President Obama and 
President Karzai signed the Strategic Partnership Agreement, which 
demonstrates U.S. commitment to the long-term stability and security of 
Afghanistan.
    Capabilities: Turning to capabilities, NATO's ability to deploy an 
effective fighting force in the field makes the alliance unique. 
However, its capacity to deter and respond to security challenges will 
only be as successful as its forces are able, effective, interoperable, 
and modern. Last year's military operation in Libya showed that the 
requirements for a strong, flexible, and deployable force remain vital. 
New threats require capable, flexible, and immediately available 
forces. Even when major operations in the field have ended, it is 
essential for the alliance to continue to exercise, plan, and maintain 
its forces.
    In the current era of fiscal austerity, NATO can still maintain a 
strong defense, but doing so requires innovation, creativity, and 
efficiencies. The United States is modernizing its presence in Europe 
at the same time that our NATO allies, and NATO as an institution, are 
engaged in similar steps. This is a clear opportunity for our European 
allies to take on greater responsibility. The U.S. continues to 
encourage allies to meet the 2-percent benchmark for defense spending 
and to contribute politically, financially, and operationally to the 
strength and security of the alliance. However, it is important not 
only to focus on the total level of defense spending by allies but also 
to consider how these limited resources are allocated and for what 
priorities.
    NATO has made progress toward pooling more national resources, 
including through the defense capabilities package that the U.S. 
anticipates leaders will endorse in Chicago. Two key elements of this 
package will be the NATO Secretary General's ``smart defense'' 
initiative, which encourages allies to prioritize core capabilities in 
the face of defense cuts, cooperate on enhancing collective 
capabilities, and specialize according to national strengths, and his 
``connected forces'' initiative, which aims to increase allied 
interoperability. The package will also track progress on acquiring the 
capabilities that leaders identified in Lisbon as NATO's most pressing 
needs. The alliance's record in the last 18 months has been impressive 
and includes several flagship capabilities programs. Let me cite three 
examples:

  <bullet> At the Lisbon summit, NATO allies agreed to develop a NATO 
        missile defense capability to provide protection for all NATO 
        European territory, populations, and forces. The United States 
        is committed to doing its part by deploying all four phases of 
        the European Phased Adaptive Approach; in fact, the first phase 
        is already operational. Poland, Romania, Spain, and Turkey have 
        agreed to host critical elements. We would welcome additional 
        allied contributions. NATO remains equally committed to 
        pursuing practical missile defense cooperation with Russia, 
        which would enhance protection for all of us.
  <bullet> A second key capability is intelligence, surveillance, and 
        reconnaissance (ISR)--the systems that provide NATO commanders 
        with a comprehensive picture of the situation on the ground. 
        Allies contributed more combat power in Libya than in previous 
        operations (around 85 percent of all air-to-ground strike 
        missions in Libya were conducted by European pilots, as 
        compared to about 15 percent in the Kosovo air campaign in 
        1999). However, Libya demonstrated considerable shortfalls in 
        European ISR capabilities as the U.S. provided one quarter of 
        the ISR sorties, nearly half of the ISR aircraft, and the vast 
        majority of analytical capability. This past February, NATO 
        Defense Ministers agreed to fund the Alliance Ground 
        Surveillance (AGS) program. The five drones that comprise this 
        system will provide NATO with crucial information, including 
        identifying potential threats, monitoring developing situations 
        such as humanitarian crises, and distinguishing possible 
        targets for air strikes.
  <bullet> A third initiative is Baltic Air Policing. The 2004 
        enlargement of NATO forced the alliance to examine burden-
        sharing among allied militaries, as well as modernization 
        programs that benefit the alliance as a whole. In the Baltic 
        States, for example, air policing is seen as a national defense 
        imperative by three countries without national air forces. In 
        February, NATO allies agreed to the continuous presence of 
        fighters for NATO Air Policing of Baltic airspace. This helps 
        assure the security of allies in a way that is cost effective, 
        allowing them to invest resources into other important NATO 
        operations such as Afghanistan. For their part, the Baltic 
        States are working to increase their financial support for this 
        valuable programs.

    In addition, the Deterrence and Defense Posture Review (DDPR)--
which allies will endorse in Chicago--will reaffirm NATO's 
determination to maintain modern, flexible, credible capabilities that 
are tailored to meet 21st century security challenges. The DDPR will 
identify the appropriate mix of nuclear, conventional, and missile 
defense capabilities that NATO needs to meet these challenges, as well 
as reaffirm NATO's commitment to making consensus decisions on alliance 
posture issues. The DDPR will outline the priorities that NATO needs to 
address, and the actions we need to take, to ensure that we have the 
capabilities needed to fulfill the three core missions identified in 
the new strategic concept, namely: collective defense, crisis 
management, and cooperative security.
    Partnerships: Finally, the Chicago summit will highlight NATO's 
success in working with a growing number of partners around the world. 
Effective partnerships allow the alliance to extend its reach, act with 
greater legitimacy, share burdens, and benefit from the capabilities of 
others. Non-NATO partners deploy troops, invest significant financial 
resources, host exercises, and provide training. In Afghanistan, for 
example, 22 non-NATO countries are working alongside the 28 nations of 
NATO. Some partners (such as Austria, Finland, Georgia, Jordan, New 
Zealand, and Sweden) contribute to NATO's efforts to train national 
forces to prepare them for NATO missions. Partners (including 
Australia, Finland, Japan, Korea, Sweden, Switzerland, and the UAE) 
also give financial support to either the Afghan National Army Trust 
Fund or the Afghanistan Peace and Reintegration Program. Furthermore, 
partners participate in discussions on wide-ranging security issues 
from counterterrorism to cyber security.
    In turn, NATO has worked to give partners a voice in decisions for 
NATO-led operations in which they participate, opened alliance training 
activities to partners, and developed flexible meeting formats to 
ensure effective cooperation. Allies want the Chicago summit to 
showcase the value of our partners, especially those who provide 
significant political, financial, or operational support to the 
alliance. All these countries have come to recognize that NATO is a hub 
for building security, as well as a forum for dialogue and for bringing 
countries together for collective action. In light of the dramatic 
events of the Arab Spring and NATO's success in Libya, we envision a 
particular focus on further engagement with partners in the wider 
Middle East and North Africa region.
    NATO membership has been of great interest to this committee since 
the first post-cold-war enlargement of the alliance. Allies will not 
take decisions on further enlargement of NATO in Chicago, but they will 
nonetheless send a clear, positive message to aspirant countries in 
support of their membership goals. The U.S. has been clear that NATO's 
door remains open to European democracies that are willing and able to 
assume the responsibilities and obligations of membership. Bosnia and 
Herzegovina, Macedonia, Montenegro, and Georgia are all working closely 
with allies to meet NATO membership criteria.
    Macedonia has fulfilled key criteria required of NATO members and 
has contributed to regional and global security. The United States 
fully supports the U.N. process, led by Ambassador Nimetz, and 
regularly engages with both Greece and Macedonia to urge them to find a 
mutually acceptable solution to the name dispute in order to fulfill 
the decision taken at the NATO summit in Bucharest and extend a 
membership offer to Macedonia.
    The United States is assisting Montenegrin reform efforts by taking 
steps to embed a Defense Advisor in the Ministry of Defense. We are 
encouraging other allies to consider similar capacity-building support. 
The recent agreement in Bosnia and Herzegovina on registering defense 
properties is a significant step forward toward fulfilling the 
conditions laid out at the NATO Foreign Ministers meeting in Tallinn in 
April 2010. NATO should spare no effort in assisting the Bosnian 
Government's implementation of this decision, which would allow them to 
submit their first Annual National Program this fall.
    With regard to Georgia, U.S. security assistance and military 
engagement support the country's defense reforms, train and equip 
Georgian troops for participation in ISAF operations, and advance its 
NATO interoperability. In January, President Obama and President 
Saakashvili agreed to enhance this cooperation to advance Georgian 
military modernization, defense reform, and self defense capabilities. 
U.S. assistance programs provide additional support to ongoing 
democratic and economic reform efforts in Georgia, a critical part of 
Georgia's Euro-Atlantic aspirations, where they have made important 
strides. U.S. support for Georgia's territorial integrity within its 
internationally recognized borders remains steadfast, and our 
nonrecognition of the separatist regions of Abkhazia and South Ossetia 
will not change.
    Finally, let me say a word about NATO's relationship with Russia. 
2012 marks the 15th anniversary of the NATO-Russia Founding Act and the 
10th anniversary of the NATO-Russia Council. The 1997 Founding Act 
expressed NATO and Russia's common commitment to end rivalry and build 
mutual and cooperative security arrangements. It also provided 
reassurance that NATO's open door to new members would not undermine 
Russia's security. Five years after signing this act, our leaders met 
in Rome to develop an expanded framework for our partnership, the NATO-
Russia Council (NRC), in order to have a forum for discussing the full 
range of shared security concerns. We commemorated these anniversaries 
at a NATO-Russia Foreign Ministers meeting last month in Brussels.
    NATO-Russia relations cannot be defined by any single issue. 
Indeed, the NRC is founded on our commitment to cooperate in areas of 
mutual interest and address issues of disagreement. The best example of 
cooperation is our joint efforts in Afghanistan. Russia's transit 
support for NATO allies and our ISAF partners has been critical to the 
mission's success. For the U.S. alone, more than 42,000 containers of 
cargo have transited Russia under NRC arrangements, providing materiel 
for U.S. troops and our ISAF partners. Since 2006, NATO allies and 
Russia have worked together to provide counternarcotics training to 
more than 2,000 law enforcement officers from Afghanistan, Central 
Asia, and Pakistan. In addition, the NRC Helicopter Maintenance Trust 
Fund helps address the challenges of keeping the Afghan Air Force's 
helicopter fleet operation-ready. Beyond Afghanistan, NATO continues 
practical security cooperation with Russia in key areas such as 
counterterrorism and counterpiracy.
    At the same time, NATO continues to seek cooperation with Russia on 
missile defense. By working together, we can enhance our individual 
capabilities to counter the ballistic missile threat. We can also show 
firsthand that NATO's missile defense efforts are not a threat to 
Russia. In late March, the NRC held its first theater missile defense 
exercises since 2008, an important step. While we strive for 
cooperation, we have also been frank in our discussions with Russia 
that we will continue to develop and deploy our missile defenses 
irrespective of the status of missile defense cooperation with Russia. 
Let me be clear: NATO is not a threat to Russia, nor is Russia a threat 
to NATO.
    It is no secret that there are issues on which the allies and 
Russia differ. Russia has been critical of NATO's operation in Libya. 
We also disagree fundamentally over the situation in Georgia. Since 
2008, NATO has strongly supported Georgia's sovereignty and territorial 
integrity and has continued to urge Russia to meet its commitments with 
respect to Georgia.
    As we look to Chicago, these three summit priorities--defining the 
next phase of the transition in Afghanistan, outlining a vision for 
addressing 21st century challenges in a period of austerity, and 
expanding our partnerships--show just how much NATO has evolved since 
its founding six decades ago. The reasons for the alliance's continued 
success are clear: NATO has, over the last 63 years, proven to be an 
adaptable, durable, and cost-effective provider of security. President 
Obama made this point at the NATO summit in Strasbourg-Kehl: ``We 
cannot be content to merely celebrate the achievements of the 20th 
century, or enjoy the comforts of the 21st century; we must learn from 
the past to build on its success. We must renew our institutions, our 
alliances. We must seek the solutions to the challenges of this young 
century.'' In Chicago, the United States will work with its allies and 
partners to ensure that the alliance remains vibrant and capable for 
many more years to come. With that, I look forward to your questions.

    The Chairman. Thank you, Mr. Secretary. We appreciate it.
    Secretary Townsend.

STATEMENT OF JAMES J. TOWNSEND, JR., DEPUTY ASSISTANT SECRETARY 
  OF DEFENSE FOR EUROPEAN AND NATO POLICY, U.S. DEPARTMENT OF 
                    DEFENSE, WASHINGTON, DC

    Mr. Townsend. Chairman Kerry and members of the committee, 
thank you for inviting me here today to discuss the NATO summit 
which the United States will host in Chicago in May. I will 
describe for the committee what we hope to achieve at the 
summit from the defense point of view and its relevance for 
U.S. national security. I particularly look forward to hearing 
the committee's views on the summit and the priorities you have 
for its outcomes.
    I would like to summarize my statement, Mr. Chairman, and 
submit the full statement for the record.
    The Chairman. Without objection.
    Mr. Townsend. NATO heads of state and government come 
together at a summit every few years not only to approve 
important pieces of alliance business, but also to renew at the 
highest level the commitment allies have made to one another in 
the North Atlantic Treaty. This commitment to come to one 
another's defense, as expressed in article 5 of the treaty, is 
a solemn one that has only been invoked once, after the United 
States was attacked on September 11, 2001.
    This commitment was critical during the cold war to help 
deter the Soviet Union and the Warsaw Pact from attacking the 
United States and our allies. Even with the end of the cold 
war, this article 5 commitment remains the core of the 
alliance. NATO serves as the organizing framework to ensure 
that we have allies willing and able to fight alongside us in 
conflict and provides an integrated military structure that 
puts the military teeth behind alliance political decisions to 
take action. In addition to ensuring the interoperability of 
our allies, NATO serves as a hub and an integrator of a network 
of global security partners.
    The NATO air and maritime operation in Libya illustrates 
this point. The operation began as a coalition of the willing 
involving the United States, the United Kingdom, and France. 
However, when NATO answered the U.N.'s call to protect the 
Libyan people, it was able to take on the mission and execute 
it successfully. Had NATO not been there or had NATO been too 
weak an institution to take on such an operation, the coalition 
would have had to carry on alone.
    Keeping NATO strong both politically and militarily is 
critical to ensure NATO is ready when it is needed. This has 
been true for the past 20 years when the turbulence of the 
international system has demanded that NATO respond nearly 
continuously to crises throughout the globe. Today, for 
example, NATO forces are in Afghanistan, in the Balkans, 
countering pirates in the waters off of Somalia, and have just 
concluded operations in Libya. Looking out into the future, 
challenges to the United States and our allies can come from 
ballistic missile proliferation, cyber attack, terrorism, 
weapons of mass destruction, as well as from just the 
instability that we can see happening as turmoil takes place as 
nations wrestle to set up their forms of government. We must be 
ready to meet emerging threats. We would prefer to meet these 
challenges together with allies and not alone.
    So the strategic context for the summit is what I have just 
described, and for our work at NATO every day, this is what we 
have in mind. How can we keep NATO and the allies ready and 
able to meet the challenges of today and in the future? This is 
especially complex today as the European economic crisis 
compels allies to cut defense spending and force structure in 
order to reduce their debt and decrease government spending.
    Allies, too, have different views and priorities regarding 
perceptions of the threat and the traditions of their own 
military forces. Not every ally sees the world and their role 
in it the way we do. But one thing we all agree on is that we 
need the alliance to be unified and strong. Allies look to the 
United States to lead the way in keeping NATO strong, capable, 
and credible.
    That is where we come to the summit in Chicago. At Chicago, 
heads of state and government will agree or approve work that 
we committed to at the last summit at Lisbon 18 months ago. At 
Chicago, this work will focus on three areas: an agreement on a 
strategic plan for Afghanistan, military capabilities, and NATO 
partnerships.
    The United States has three summit objectives. No. 1 is 
charting a clear path for the completion of transition and 
reaffirming NATO's commitment to the long-term security of 
Afghanistan. The second objective, maintaining NATO's core 
defense capabilities during this period of austerity and 
building a force ready for future challenges. And finally, 
deepening the engagement of NATO's partner nations in alliance 
operations and activities.
    Chairman, I would like to conclude my summary here, and I 
welcome your questions and look forward to a good discussion.
    [The prepared statement of Mr. Townsend follows:]

      Prepared Statement of Deputy Assistant Secretary of Defense
                             James Townsend

    Chairman Kerry, Ranking Member Lugar and Members of the Committee, 
thank you for inviting me here today to discuss the NATO summit which 
the United States will host in Chicago in May. I will describe for the 
committee what we hope to achieve at the summit from the Defense point 
of view and its relevance for U.S. national security. I particularly 
look forward to hearing the committee's views on the summit and the 
priorities you have for its outcomes.
    NATO heads of state and government come together at a summit every 
few years not only to approve important pieces of alliance business, 
but also to renew at the highest level the commitment allies have made 
to one another in the North Atlantic Treaty. This commitment to come to 
one another's defense as expressed in article 5 of the treaty is a 
solemn one that has only been invoked once--after the United States was 
attacked on September 11, 2001.
    This commitment was critical during the cold war to help deter the 
Soviet Union and the Warsaw Pact from attacking the United States and 
our allies. Even with the end of the cold war, this article 5 
commitment remains the core of the alliance. NATO serves as the 
organizing framework to ensure that we have allies willing and able to 
fight alongside us in conflict, and provides an integrated military 
structure that puts the military teeth behind alliance political 
decisions to take action. In addition to ensuring the interoperability 
of our allies, NATO serves as a hub and integrator of a network of 
global security partners.
    The NATO air and maritime operation in Libya illustrates this 
point. The operation began as a coalition of the willing involving the 
United States, the United Kingdom, and France. However, when NATO 
answered the U.N.'s call to protect the Libyan people, it was able to 
take on the mission and execute it successfully. Had NATO not been 
there, or had NATO been too weak an institution to take on such an 
operation, the coalition would have had to carry on alone.
    Keeping NATO strong both politically and militarily is critical to 
ensuring NATO is ready when it is needed. This has been true for the 
past 20 years, when the turbulence of the international system has 
demanded that NATO respond nearly continuously to crises throughout the 
globe. Today, for example, NATO forces are in Afghanistan, in the 
Balkans, countering pirates in the waters off Somalia, and have 
concluded operations in Libya. Looking out into the future, challenges 
to the United States and our allies can come from ballistic missile 
proliferation, cyber attack, terrorism, weapons of mass destruction, as 
well as from the instability we see in North Africa, the Middle East, 
and elsewhere. We must be ready to meet emerging threats, and we would 
prefer to meet these challenges together with allies, and not alone.
    So the strategic context for the summit, and for our work at NATO 
every day, is how can we keep NATO and the allies ready and able to 
meet the challenges of today and in the future? This is especially 
complex today as the European economic crisis compels allies to cut 
defense spending and force structure in order to reduce their debt and 
decrease government spending.
    Allies too have different views and priorities regarding 
perceptions of the threat and the traditions of their own military 
forces. Not every ally sees the world and their role in it the way we 
do. But one thing we all agree on is that we need the alliance to be 
unified and strong. Allies look to the United States to lead the way in 
keeping NATO strong, capable, and credible.
    That is where we come to the summit. At Chicago, heads of state and 
government will agree or approve work that we committed to at the last 
summit at Lisbon 18 months ago.
    At Chicago this work will focus on three areas: an agreement on a 
strategic plan for Afghanistan, military capabilities, and NATO 
partnerships. The United States has three summit objectives:

  <bullet> Charting a clear path for the completion of transition and 
        reaffirming NATO's commitment to the long-term security of 
        Afghanistan;
  <bullet> Maintaining NATO's core defense capabilities during this 
        period of austerity and building a force ready for future 
        challenges; and,
  <bullet> Deepening the engagement of NATO's partner nations in 
        alliance operations and activities.

    Afghanistan. While the past few months have been tumultuous in 
Afghanistan, U.S. forces, and those of our allies and ISAF partners, 
have shown deep resolve and dedication to the transition strategy laid 
out at the 2010 NATO summit in Lisbon. ISAF troops continue to perform 
exceptionally well, particularly in the process of training and 
partnering with the Afghan National Security Forces, in our effort to 
ensure that the Afghans are ready to assume full responsibility for 
security in Afghanistan by the end of 2014. While ISAF troops will 
stand ready to conduct combat operations as required right up until the 
end of 2014, the fact is that Afghan forces are growing ever stronger 
and more professional. This was clearly demonstrated a few weeks ago 
when ANSF troops successfully repelled enemy attacks in and around 
Kabul.
    Our strategy is working. What we do from now until the end of 
2014--whether on the ground in Afghanistan, back here in Washington, or 
in Chicago next month--must build responsibly on what ISAF has 
accomplished to date. Our efforts must safeguard NATO's primary 
objective in Afghanistan: to disrupt, dismantle, and defeat al-Qaeda 
and ensure Afghanistan never again serves as a safe-haven for 
terrorists. I have no doubt that our resolve will be tested in the 
coming months, but I also have no doubt that the U.S. and our ISAF 
partners will remain focused on our Lisbon commitments. The Strategic 
Partnership Agreement that President Obama and President Karzai signed 
just days ago, provides a clear demonstration of our commitment to the 
long-term stability and security of Afghanistan.
    The upcoming NATO summit presents us with an important opportunity 
to send a unified message that we are on track to achieve our Lisbon 
goals. We view the Chicago summit as a critical milestone in our effort 
in Afghanistan, as leaders come together to determine the next phase of 
transition and the future of our support for Afghanistan and its 
security forces. All of these steps will help define how we can 
responsibly conclude the war in Afghanistan while achieving our 
objectives and building a long-term partnership with the Afghan people.
    Alliance Military Capabilities. One of the greatest challenges that 
NATO faces today is the need to maintain critical combat capabilities 
during this period of economic austerity, as defense investment 
decisions made now will affect the availability of defense capabilities 
5 to 10 years from now.
    To help nations under financial pressure keep up their military 
strength and build for the future, NATO is putting together a 
capabilities package for approval at Chicago that provides an 
organizing framework to advance a range of capability initiatives, both 
old and new, to get us through the next 10 years with our capabilities 
intact and our forces strong. It protects a core of capabilities from 
further cuts and provides tools to help nations acquire military 
capabilities more affordably.
    The major elements of the capabilities package are as follows:

  <bullet> Smart Defense: Introduced by NATO Secretary General 
        Rasmussen, Smart
         Defense is a concept by which NATO members can enhance 
        security capabilities more efficiently through greater 
        multinational coordination, collaboration, and coherence. The 
        U.S. supports the Smart Defense approach, and will participate 
        in many of the multinational initiatives, but Smart Defense 
        must not be used as a means to justify further cuts to allies' 
        defense budgets. There can be no substitute for nations 
        providing adequate resources and investment in their own 
        domestic and our collective security. In addition to applying 
        resources most efficiently in an austere fiscal environment, 
        Smart Defense should also ensure investments are made in the 
        right capabilities when economic conditions improve.
  <bullet> Missile Defense. In Lisbon, NATO allies took the 
        unprecedented step of declaring that NATO would develop a 
        territorial ballistic missile defense capability, taking on 
        this critical mission in the face of the real and emerging 
        ballistic missile threat to NATO European territories and 
        populations. Since then, we have worked closely with our NATO 
        allies to turn this ambition into a real capability. In 
        Chicago, we expect to further that goal by taking steps to 
        advance the implementation of our missile defense system.
  <bullet> Alliance Ground Surveillance (AGS). At the 2010 NATO Lisbon 
        summit, heads of state and government identified AGS as one of 
        the alliance's top 10 critical capabilities. Recent operations 
        in Libya highlighted alliance shortfalls in surveillance and 
        reconnaissance. The Alliance Ground Surveillance system will 
        provide alliance members with a significantly enhanced ability 
        to conduct intelligence, surveillance, and reconnaissance 
        operations and all of the associated tasks.
  <bullet> Training. I would like to highlight the improvements in 
        training that I believe will be critical to implementing the 
        Chicago capabilities package. This commitment is reflected in 
        the changes the United States is making to its force posture in 
        Europe. The NATO Response Force will continue to be the engine 
        for transformation within the alliance. Only through a robust 
        exercise program can we develop and validate new doctrine, 
        provide visible assurance of alliance commitment to collective 
        security, and institutionalize the interoperability we have 
        developed over the past 10 years in places like Afghanistan, 
        Kosovo, and Libya. The United States is refining plans to 
        rotate U.S.-based ground units to Europe twice during each NATO 
        Response Force cycle to participate in NATO Response Force 
        training and exercises. In addition, these units will be 
        available to participate in full-spectrum training with 
        individual allies as well as multinational formations.
  <bullet> Baltic Air Policing. In the Baltic Region the United States 
        is a key contributor to NATO's Baltic Air Policing Mission, 
        which deploys fighter aircraft that are ready to launch at a 
        moment's notice. The United States joined with all 27 other 
        NATO allies in February to ensure a continuing presence of 
        fighters for NATO Air Policing of Baltic skies. NATO Air 
        Policing helps assure the security of Estonia, Latvia, and 
        Lithuania in a way that is cost effective, allowing them to 
        focus resources on other critical NATO priorities. We 
        anticipate that for their part, the Baltic nations will 
        increase their Host Nation Support for nations that deploy 
        fighter aircraft. This mission demonstrates our commitment to 
        the collective defense of all NATO members and is also a superb 
        example of defense burden-sharing through Smart Defense.

    This capabilities package provides the ways and means to ensure 
alliance forces are capable and effective. While tools such as Smart 
Defense will help us achieve these goals, all allies must maintain a 
base consisting of essential operational capabilities. These core 
capabilities must be protected from further cuts to ensure that we will 
have the forces we need over the next 10 years and that we have a sure 
foundation upon which to build NATO Forces in 2020 and beyond. One of 
the ways they will reaffirm NATO's determination to maintain modern, 
flexible, credible capabilities is by approving the Deterrence and 
Defense Posture Review which will identify the appropriate mix of 
nuclear, conventional, and missile defense capabilities NATO needs to 
meet today's challenges and tomorrow's emerging threats.
    Partnerships. NATO is working more closely than ever with non-NATO 
partners to address global challenges. We saw the value of our 
partnerships in Libya, when our European partners as well as countries 
in the Middle East and North Africa helped the alliance to protect the 
Libyan people, and we continue to benefit from our partners' 
contributions in Afghanistan, with 22 countries standing shoulder to 
shoulder with NATO. In Chicago we look to broaden and deepen our 
network of partnerships worldwide.
    This summit is an opportunity to carry forward the critical work 
our alliance is conduction. At Chicago, we will underscore NATO's 
accomplishments in Afghanistan, Libya, and the Balkans--successes 
delivered despite financial crisis. But as we confront current 
challenges, we must also invest in the future. NATO relies on 
individual allies for the bulk of the capabilities needed for future 
operations, but we must find a way to ensure NATO will be able to 
maintain critical capabilities in this period of austerity. We can 
ensure the greatness of this alliance into the next decade in spite of 
fiscal and security challenges; but we must invest the extra effort to 
work collectively and to support those institutions that facilitate our 
multinational cooperation.

    The Chairman. Well, thanks very much, Secretary Townsend. 
We will have that, I am sure.
    Let me ask you quickly, if I can, before I turn the gavel 
over. Secretary Gordon, first of all, what is the reaction of 
the Europeans generally to the Obama administration's decision 
to take two of the four combat brigades, Army brigades, out of 
Europe? And what is the impact? I mean, how is that going to 
affect----
    Dr. Gordon. No, I appreciate the opportunity to address 
that because I think we have been quite successful in 
explaining what is behind that thinking. I was actually in 
Berlin, Lithuania, and Copenhagen the week we announced it and 
had the opportunity to engage extensively and to explain the 
thinking behind it.
    It is a misunderstanding to even think about it in terms of 
a withdrawal from Europe. That was the initial concern, that 
people would be imagining that somehow we were reducing our 
presence in Europe. The fact is those brigade combat teams that 
you are referring to have been fighting in southwest Asia for 
the past decade. The issue that the Defense Department was 
addressing in rethinking our force presence in Europe was after 
this decade of heavy presence, spending hundreds of billions of 
dollars and hundreds of thousands of troops in Iraq and 
Afghanistan, what was the right posture moving forward, 
especially at a time of fiscal constraint. And we have had the 
opportunity to explain this thinking to our European allies, 
that we remain absolutely committed to Europe and to article 5. 
And moving forward, even after those brigade combat teams do 
not return to their original homes in Germany, Europe will have 
at least as many U.S. forces as it has had for the past decade, 
during which we believe that article 5 has been credible and we 
have absolutely had an ability to defend Europe.
    We have also--and the Pentagon is working this out as we 
speak--taken the decision to ensure that elements of those 
brigade combat teams rotate through Europe to ensure the 
critical partnership function that they performed while they 
were there.
    So whereas there may have been some initial concern that 
the headline of withdrawing troops in Europe would dominate, we 
think that by actually explaining what is behind this thinking 
and reiterating our commitment to Europe which, by the way, 
should not be--I will end with this--reduced to the number of 
brigade combat teams in Europe. Over the 3 years of the Obama 
administration, we have done a number of other things to 
modernize and reiterate our commitment to Europe, including 
deploying missile defense, which will mean an American 
presence--including troops, people--in Romania and Poland. We 
are going to have the radar in Turkey. We are rotating Aegis 
cruisers which will home port in Spain. So there is actually a 
whole web of new American presence in Europe. We have moved 
forward on an aviation detachment in Poland. We have done some 
other things with special forces in the U.K. and elsewhere. So 
we have also tried to remind them that America's commitment to 
Europe and America's presence in Europe should not be reduced 
to the number of brigade combat teams.
    The Chairman. Can you give me a quick take--because I have 
one other question I want to ask--on President-elect Hollande's 
promise to withdraw our combat forces by the end of this year 
out of Afghanistan and the impact of that on the entire 
collective effort?
    Dr. Gordon. Absolutely. As you know, one of the things we 
were most successful in doing at the NATO summit in Lisbon was 
getting everyone on the same page for the 2014 timetable. Our 
core principle has been ``in together, out together.'' And at 
Lisbon, the alliance as a whole, ISAF as a whole, agreed that 
combat troops would remain performing their mission, being 
successful through the end of 2014, after which they would be 
gone.
    Candidate Francois Hollande took the position that French 
troops should be out sooner than that by the end of 2012, and 
this is obviously something we will look forward to discussing 
with the President once he is sworn in. In fact, I leave for 
Paris this afternoon to carry on this conversation, which has 
already begun. We have been in touch with them, as you would 
expect, in recent days and weeks. The French assure us that 
they are committed to our common success in Afghanistan, and I 
am sure we will find a way forward that ensures that common 
success.
    All I can do is speak to our own view, which is that this 
principle of ``in together, out together'' remains critical, 
and we should also not lose sight of the fact, which I think is 
quite an accomplishment for the President and his leadership of 
this alliance, that every single member of ISAF has stuck to 
that. And there have not been the withdrawals, notwithstanding 
the economic crisis that we know is painful, notwithstanding 
the domestic political pressures. Every member of ISAF is on 
board for maintaining that commitment to the end of 2014.
    The Chairman. Well, those will be interesting discussions, 
obviously. I was just sitting here thinking how you have the 
toughest job of all having to travel to these difficult 
capitals of London and Brussels and Paris and so forth.
    Dr. Gordon. I made clear to Secretary----
    The Chairman. You do not have to comment. [Laughter.]
    Dr. Gordon. I started to say I made clear to Secretary 
Clinton that I am ready to spend as much time as necessary in 
Paris in the coming weeks. That is the least I can do.
    The Chairman. Fair enough.
    Final question just quickly. Almost a year ago now, 
Secretary Gates made a very strong statement to the alliance in 
which he lamented, ``that many of the allies are unwilling to 
devote the necessary resources or make the necessary changes to 
be serious and capable partners in their own defense.'' Where 
does the administration stand with respect to that statement 
today, and what can we hope for?
    Dr. Gordon. Mr. Chairman, as I underscored in my statement, 
we continue to urge our European partners to uphold their 
responsibilities in the areas of defense, including the common 
pledge of 2-percent spending on defense. It is a reality that 
the trend of European defense spending is poor, and in the long 
run, if it is not sustained, the alliance will not be able to 
do what we have so successfully done for so many years and 
decades, including most recently in Libya where, 
notwithstanding the real constraints that we face, the European 
allies were able to step up. They flew more than 85 percent of 
the strike missions in Libya. They made a critically important 
contribution. In Afghanistan, they have sustained nearly 40,000 
troops as part of ISAF for almost a decade. In these and other 
cases, we want more and need more, but we should not overlook 
the fact that they are making critically important 
contributions. We are constantly urging them to make the 
investments necessary so that that will be true in 5 years from 
now, just as it is true today.
    Last thing. We understand the constraints. That is why one 
of the deliverables for Chicago that both Jim and I have 
emphasized is this question of capabilities and smart defense. 
Even if we sustain levels, we have to do it better, more 
efficiently, and we have some particular projects that we would 
be happy to talk about that will actually show the alliance 
moving forward in pooling and sharing and spending more wisely 
with the limited resources that are available.
    The Chairman. Well, I appreciate it. There are obviously 
some followups to that. And, Secretary Townsend, I am sure you 
have a point of view on it. So we will leave the record open 
for a week after this and we will try not to burden you with 
too much, but there may be some things we want to do to fill it 
out.
    I will now recognize Senator Corker, and I will turn the 
gavel over to Senator Shaheen. Thank you.
    Senator Corker. Thank you, Mr. Chairman.
    And thank you both for your testimony.
    You know, this issue of the 2-percent GDP commitment that 
is not being honored is something that has been talked about 
for a long time. Secretary Albright was in maybe 2 years ago 
talking about the same thing. Secretary Gates has been in 
talking about the same thing and certainly did so in Europe. 
And we talked yesterday with the Secretary General about this 
same issue, and it continues to be, well, we are urging. I do 
think it is a huge problem, and this trend has been continuing 
for a long time. We understand Europe is under stress right 
now.
    But what set of ingredients do you think exist or what is 
it that we are doing? You know, we spent last year a little bit 
over 5 percent of GDP here on defense, and I am glad that we 
did. I know it is dropping to the high 4s in this next year. 
And certainly I think we should make sure we invest 
appropriately in that regard. But as we continue to do what we 
are doing, we almost become the provider of security services, 
and they more and more are becoming the consumer of security 
services, and there does not seem to be anything that is really 
changing that dynamic. I know there have been commitments in 
Afghanistan, and on a per capita basis, many of the countries 
have actually had more casualties than us and we honor that.
    But from the standpoint of year-in/year-out investment in 
modernization and defense forces, it is just not happening. And 
we have been talking this same line since I have been here. I 
have been here 5 years now and nothing has changed. As a matter 
of fact, it is moving in the other direction. There are only 
three countries today, us, the U.K., and believe it or not, 
Greece, of the entire alliance that is investing 2 percent. A 
lot of people are saying Greece's investment is not being done 
wisely or at least that is what we heard yesterday.
    But I just wonder if there is anything that you would tell 
us that other than urging, anything that is going to really 
change that dynamic and cause this to be a true alliance and 
not one of us again providing security services and them being 
the consumers.
    Dr. Gordon. Again, I will start and Jim may want to jump in 
on this.
    First of all, Senator, we agree with that assessment, and 
that is why, as I say, we have been clear in making similar 
comments to our European allies about how critical this is.
    I would again recall Libya as an example of doing more than 
urging, where we faced a grave humanitarian crisis, the 
situation of a dictator using violence against his own people, 
European allies coming to us and telling how important it was 
for us to act, and the Arab League calling for intervention as 
well. We went to the Europeans in that case and said we agree. 
Action needs to be taken. We took the lead, got a U.N. Security 
Council resolution, and said we are prepared to do what only we 
can do.
    Senator Corker. I appreciate and honor that too. But you 
know, to build an appropriate defense mechanism as a group of 
countries, it takes year-in/year-out, year-in/year-out 
investment. I mean, just as we see right now with sequestration 
here, I mean, the Pentagon is already beginning to be concerned 
about the future because their horizon is not just in a month, 
but it is over a long period of time. And I think what we are 
seeing in Europe is over a long period of time a very downward 
trajectory.
    And so I honor what happened in Libya, but I am still not 
seeing anything whatsoever that is changing the trend to move 
it back up to, by the way, what is a commitment. I mean, this 
is not like a goal. A 2-percent investment of GDP is an 
absolute commitment by the NATO allies. It is not being 
honored. And so what I am concerned about is the long-run 
trajectory and that is what we are not seeing. And I am just 
wondering again what set of ingredients is going to change 
that, especially with the economic times we are dealing with.
    Dr. Gordon. Once again, Senator, I agree with that 
assessment.
    The point I was going to make about Libya is not just in 
the short term but actually addresses the longer term point 
which was to say in that case, we said we will provide our 
unique capabilities, but we expect you to be able to play a 
major role yourselves. And by insisting on that, we got them to 
do it in that case and are now able to say, well, there is the 
example. If you do not continue to invest in the advanced 
fighter planes and precision-guided munitions and the 
intelligence assets, then you will not be able to do this in 
the future and you cannot expect the United States to do it for 
you. You know, only they can make those decisions. But that is 
what they are hearing from us.
    And we also believe, as I referred to our capabilities 
deliverables for Chicago, there are a lot of inefficiencies in 
the alliance when it comes to defense spending. There are 
redundancies and people are not doing it, if I might, smartly 
enough. And just to take one example, the agreement by NATO 
countries to build this allied ground surveillance system where 
13 of them will come together and buy five drones--built by an 
American company, by the way--to be able to share all of this 
with the entire alliance is the sort of thing they need to be 
investing in. Unless they are going to have enough money for 
all of them to buy individual drones, which is not realistic, 
this is the sort of thing that they can do with less money to 
actually provide a capability for everybody. So we are trying 
to do that as well.
    Senator Corker. Well, thank you. And I am glad we are on 
the same page here.
    Let me ask another question. This commitment to 
Afghanistan. The last I checked--and I am a little dated on 
this. To provide enough resources for them just to maintain the 
security forces that we have trained up with them, I think it 
is about $9 billion a year, if I remember correctly. You all 
might correct me. I think the budget authority last time I 
checked in Afghanistan--and again I am a little dated--was 
around $1.5 billion-$2 billion. So there is a huge gap. And 
that is for the entire government. OK?
    What is the entire security tab and what kind of 
commitments? Because this is something that is coming up like 
right now. This is not a trajectory. These are commitments we 
need to make. What is the exact gap, and when do we expect from 
our NATO allies to have those real pledges coming forth to fill 
that gap?
    Dr. Gordon. We will have to get you the exact numbers on 
where we are right now. I can talk a little bit about----
    Senator Corker. I think I meant the order of magnitude.
    Dr. Gordon. I mean, what we are focused on where this is 
concerned for Chicago, obviously, is that this number needs to 
go down. I think your order of magnitude is about right on 
where we are and have been for the past couple of years. None 
of us want to keep spending that amount years into the future, 
and that is why we are focused on how to leave something 
sustainable in our wake. Once Afghans are fully in charge of 
their security, we want it to work, but we know we are going to 
have to help. And the plan that we are looking at for Chicago 
would involve the international community putting in around $4 
billion a year to maintain the Afghan National Security Forces 
for up to a decade. Now, the Afghans themselves have already 
pledged $500 million a year of their own money toward that goal 
for 3 years, and that amount should rise year by year after 
that. And Secretary Gates challenged the rest of ISAF to come 
up with a billion euros per year, so about $1.3 billion of that 
$4.1 billion total. And we have been working very hard at the 
highest levels of our Government to get the rest of the 
international community to deliver on that pledge so that if we 
get to that point, of the $4.1 billion, the Afghans will be 
doing $\1/2\ billion, the other members of ISAF would be doing 
at least $1.3 billion. That would bring our numbers down, 
obviously, considerably by a factor of 5 or 6 or more.
    Senator Corker. And you think you may get those commitments 
in Chicago. Is that what you are saying? Or is that going to 
take a much longer period of time?
    Dr. Gordon. We are looking to get as solid a political 
commitment from as many countries as possible, and I think it 
is fair to say we are making good progress toward that goal.
    Senator Corker. Well, thank you for your work.
    And, Madam Chairman, thank you.
    Senator Shaheen [presiding]. Senator Cardin.
    Senator Cardin. Madam Chair, thank you very much.
    Let me thank our witnesses.
    Secretary Gordon, I want to follow up on a point that I 
talked to Secretary General Rasmussen about yesterday, and that 
is the Chicago summit will not be an enlargement summit. And I 
got the Secretary General's view on how we deal with the 
aspirant nations that one day we hope will be part of NATO.
    And I want to start off with my concern. It has been that 
ability or desire to join either the European Union or NATO 
that has been a motivating factor to accelerate democratic 
reforms in many countries of Europe. And we have seen that work 
very successfully.
    I think there must be some disappointment that the summit 
will not be an enlargement summit. Montenegro and Macedonia 
were very close to moving forward on their plans. We have the 
issues with Bosnia where they have made some significant 
progress and have not quite met the target dates, but they are 
moving forward in a very positive way. Georgia has also made 
substantial progress, and I understand they may not have 
reached the plateau for formal acceptance. But I think the 
signal that is being sent is that we are slowing down the 
formal expansion of NATO for many reasons and many legitimate 
reasons. On a parallel path, the EU has been very slow now on 
expansion because of the economic problems of Europe.
    So I guess I would like to get the administration's view as 
to how we continue to keep the momentum moving toward 
democratic reform and ultimate membership in NATO in countries 
that we have been very actively engaged, the four I mentioned, 
plus others.
    Dr. Gordon. Thank you, Senator.
    The first point is I absolutely agree that historically 
NATO enlargement has been good for NATO, good for Europe, and 
good for those countries. As you said, it has contributed to 
democracy in Europe and stability and has been absolutely the 
right policy, and administrations of different stripes have all 
been strongly supportive of it. We completely agree with that.
    I think we have been saying--and this phrase that you heard 
with Rasmussen, ``not an enlargement summit''--we have been 
saying, OK, it is not an enlargement summit, but it is also not 
a summit that should be backing away from enlargement. It so 
happens that there is not a country ready to be included in the 
alliance at this summit with a consensus behind it. So in that 
sense, it is not an enlargement summit. But we want to be clear 
that this does not mean that we are not focused on enlargement 
or as supportive as ever of the open door policy.
    One of the ways we are going to signal that is Secretary 
Clinton will participate in a meeting of NATO Foreign Ministers 
with the four aspirant countries to specifically acknowledge 
them, note that the door remains open, and talk to them about 
the process going forward. And we hope and expect that the 
communique will also signal our strong support for enlargement 
in general and the processes of these four aspirants in 
particular.
    The only reason that none are joining at the summit--I 
think you would also agree that every case needs to be treated 
separately and we should have high standards and important 
criteria for joining the alliance. And we continue to work in 
different ways with each of the four countries you mentioned. I 
would be happy to talk in more detail about where we are with 
each. But our bottom line point is no one should see this 
summit as somehow the end of enlargement or some different 
priority. We remain committed to the open door.
    Senator Cardin. And I accept that and I agree with you. 
Each of the four countries is truly unique, and I understand 
the hurdles that each of the four countries still has 
remaining. I really do.
    I think, though, that it is very important the signal that 
is given. The types of reforms that are being carried out, not 
just in these four countries but others who would like to 
become one day candidates for a plan for entering NATO are not 
necessarily popular locally, the types of commitments to their 
defense, the types of commitments to their constitutional 
change for authority, the types of democratic reforms that we 
see, the types of controls necessary for security. Those types 
of issues are not always the most popular domestically in those 
countries. But they are able to do it because they see a path 
toward integration, and if that path looks like it is going to 
be a long haul, seeing in the recent European elections that 
populaces do not always go for the responsible route--and so I 
think it is very important that the message come from the 
United States clearly.
    I am pleased Secretary Clinton will be talking to the four 
aspirant countries. But we have to be very clear that we do 
want integration and we do see the path that will lead to that 
and that there are reforms that need to be pursued and although 
we are not ready at this summit, we do anticipate there will be 
enlargement and we do encourage countries to seek membership in 
Europe and membership in NATO.
    Dr. Gordon. We agree with that for the very reasons you 
state, and it is our goal and commitment to make sure that the 
summit sends a positive signal in that direction. I will be 
honest. Not every member of NATO is enthusiastic about the 
enlargement process, and sometimes it takes some persuading to 
make sure that that positive signal gets sent. But it is 
certainly this administration's view and we appreciate the 
support of this committee for that goal.
    Senator Cardin. And we have seen that at prior summits, the 
exact points that you have raised. I know there are concerns 
about other countries in Europe and their view about NATO 
enlargement. We are all aware of all those different issues. 
And that is why I think it is particularly important for U.S. 
leadership to be pretty focused and clear in Chicago.
    Thank you, Madam Chair.
    Senator Shaheen. Senator Risch.
    Senator Risch. Thank you, Madam Chairman.
    And, gentlemen, thank you for coming.
    As you probably know, this committee met with the Secretary 
General yesterday and we had a spirited discussion along the 
lines that Senator Cardin raised on enlargement. And I would 
like to associate myself with his remarks. I think all of us 
have the same concerns that he does and want to make certain 
that the communication is clear that wanting to join is one 
thing. A strong commitment to the requirements for joining is 
another issue that certainly needs to be underscored.
    Let me say that, Secretary Gordon, you correctly 
identified, I think, the issues that this committee is 
interested in, and I want to talk about just one of those 
briefly and that is the Georgia situation. It is a concern to a 
lot of us. In your remarks, you have talked about the stressing 
that you did to the Russians about meeting their commitments as 
far as Georgia is concerned. And you touched on it kind of 
lightly, and I do not mean that derogatorily. It is almost as 
if the international community understands the commitments that 
the Russians have made regarding Georgia, but no one really 
expects them to meet those commitments. As I kind of read 
between the lines with what you were saying, it was almost a 
reiteration of that. And it is unfortunate.
    But give me your thoughts on whether Russia is going to 
meet its commitments. I mean, they made very strong 
commitments--or excuse me--not strong commitments--clear 
commitments as to what they were and what they were not going 
to do to the French. And the one that I am most interested in 
is the obligation to vacate occupied territories. It is just 
not right. The Russians said that they would meet the 
commitment to vacate. They have not done that. And from what I 
can tell, nobody really expects them to do that. What are your 
thoughts on that regard?
    Dr. Gordon. Thank you, Senator. I will not pretend it is 
easy to find a way to get Russia to meet those commitments. We 
completely agree with your assessment that Russia is currently 
in violation of the cease-fire agreements that were reached in 
August and September 2008. They had six points, and one of them 
was for Russian troops to go back to where they were prior to 
the start of the conflict, and those troops are not currently 
back to where they were prior to the start of the conflict. We 
believe, therefore, like you that Russia is in violation of 
those commitments. And we have been clear and Secretary Clinton 
has referred to Russia's occupation of Georgia. This is not 
meant to be provocative, but to simply describe what we believe 
to be the case which is Russia having military forces within 
the territorial boundaries of an internationally recognized 
country.
    We have been very active in preventing any further 
recognitions of Abkhazia and South Ossetia, which is of course 
what Russia did. I think there are maybe three other countries 
in the world that have done so, and every single other member 
of the international community has refused to do so. In that 
sense, we believe we have denied Russia any legitimization that 
they have tried to have over South Ossetia and Abkhazia.
    We have also maintained not just rhetorical support for 
Georgia's sovereignty and territorial integrity but genuine 
support for the country of Georgia. This was most recently 
manifested in the visit that President Saakashvili paid to 
President Obama in the Oval Office where we committed to 
strengthening the economic relationship, which is hugely 
important to Georgia and its success as a country, and the 
defense relationship.
    And I will take the opportunity to express appreciation for 
the contributions Georgia has made in Afghanistan where they 
are one of the leading troop contributors certainly per capita. 
And we are working to strengthen that defense relationship as 
well.
    Senator Risch. And I think we have all done likewise in 
expressing appreciation.
    But I have to tell you it is disheartening to sit here and 
watch this sort of thing where a commitment is made like this, 
and it is just handled cavalierly by the international 
community. Nobody does anything about it. It is disheartening, 
to say the least.
    Mr. Townsend, I am going to follow up on comments that 
Senator Corker made. And if you feel comfortable in answering 
these, fine; if not, we can go back to Mr. Gordon. But it has 
to do with the sustainability of the ANSF forces.
    You know, those of us who deal with this regularly, when 
you put a pencil to this, it just does not work. I know 
Secretary Gordon has said--in fact, I think he listed as the 
No. 1 priority for the Chicago meeting was to chart a clear 
path forward for security forces in Afghanistan for 
sustainability. And I understand you want the money that you 
want from the Europeans and from others, but when you look at 
what it costs to maintain the ANSF and you compare it to the 
GDP of the country, even if you include the drug profits that 
they make, it just does not work.
    So what are your thoughts on that? How do you get there? 
How do you get some confidence in being able to do this when 
the numbers just do not work?
    Mr. Townsend. Thank you, Senator. The pencil work you 
describe is, I am sure, being done on the Hill. It is being 
done by the administration as well I know. But my Department, 
as well as the Department of State--we are working those 
numbers as well. At NATO, too, with allies, with the Afghan 
Government. There are a lot of pencils going about trying to 
determine, as we chart the way forward between now and 2014 and 
post-2014. Whether you are at NATO and you are looking at what 
the NATO presence could be, whether you are looking at the 
United States side of it on a bilateral basis, the Afghan side, 
what we have to figure first is what do we think we are going 
to need in terms of the ANSF to do the job after 2014. What 
needs to be some of the factors we look at?
    And I think one of the major factors driving the size of 
the ANSF, which is, of course, part of what drives the number, 
will be conditions on the ground, the type of job the ANSF will 
face after 2014, what will the Taliban look like. These are all 
right now unknown factors. We feel that we have got a pretty 
good feeling for what we think could happen, but so much 
depends on how much we are able to degrade the Taliban and so 
that presents less of a threat to Afghanistan and less of a 
threat to the ANSF. That certainly impacts the size.
    We know, as Senator Kerry talked about, there is a very 
important election coming up in 2014. What would be the 
requirements there in terms of security and making sure that 
that election goes off without a security threat?
    So the pencils are moving and we are still in the middle of 
that work. At Chicago, NATO is going to produce its strategic 
plan for Afghanistan where it will be trying to deal with these 
numbers and describe what the NATO presence is going to look 
like. As you know, we just signed also the U.S. Strategic 
Partnership Agreement with the Afghans. And so we are right now 
putting down on paper the structure of what we think we are 
going to be doing. That will impact what the ANSF will look 
like, and that in turn will have the cost figure there.
    And so we know we have got a tall job ahead, but we know 
too that we have got to make sure that the Afghans have what we 
think they are going to need to do the job and we are in the 
middle of doing that now.
    Senator Risch. Well, thank you. I appreciate that.
    I have to say that I think everybody has got a long ways to 
go before the comfort level of a lot of people up here is met. 
We are very nervous about this and have a difficult time 
bringing the two ends together with the amount of money that we 
are talking about and particularly under the present economic 
circumstances of this country, the European countries, and 
clearly the Afghans themselves.
    My time is up. I would like to hear from you, Mr. Gordon. 
Maybe we will get another round here. But thank you very much, 
Madam Chair.
    Senator Shaheen. Thank you, Senator Risch.
    I want to get into some of the specifics of the upcoming 
summit, but before I do that, I want to ask you about some news 
that broke this morning around the decision in Russia that 
newly inaugurated President Putin is not going to come to the 
G8 summit next week. And I wonder what we think about this 
decision by Mr. Putin, if that comes as a surprise, and more 
generally, how is his return to the Presidency going to affect 
NATO-Russian relations?
    Secretary Gordon.
    Dr. Gordon. Thank you. I am happy to address both the 
narrower question of the G8 summit and the broader one about 
United States-Russia relations.
    President Putin called President Obama yesterday to have an 
exchange on the anniversary of Victory Day but more 
specifically to let him know that he looked forward to 
continuing the relationship. It is the first time they have 
spoken since he was inaugurated. Given Putin's responsibilities 
in Moscow, having just been inaugurated, of trying to put a 
Cabinet together, he felt it was important to stay there and 
instead would send former President--now Prime Minister--
Medvedev to the G8 summit and instead suggested that the two 
Presidents meet at the next G20 meeting, which is some 5 weeks 
from today. So that is that. And the President will look 
forward to seeing Prime Minister Medvedev at the G8 and he will 
look forward to seeing President Putin at the G20.
    In terms of the broader relationship, as you know, we have 
been very proud of what we have been able to accomplish with 
Russia over the past 3 years on the very straightforward basis 
that we have a lot of interests in common. And where we have 
some significant differences--and I was just talking about one 
with regard to Georgia--the President felt it was in our 
national interest to pursue those areas of cooperation where we 
could, while agreeing to disagree and standing for our 
principles elsewhere. And, as you know, we have done that. The 
New START treaty agreement on transit in Afghanistan, the 123 
civil nuclear agreement, Russian support for Security Council 
resolutions on Iran, most recently Russia's agreement to join 
the WTO which included a bilateral economic treaty with 
Georgia, all of this we think is in our interests and is the 
basis for cooperation with Russia.
    And so your question is how does that continue with 
President Putin. We will see. I can only speak from our end 
that we are determined to pursue the same practical policy we 
have all along in our own national interest. We will look for 
areas of cooperation with Russia. Nobody can predict the 
future. What we can say, however, is that President Putin, then 
Prime Minister Putin, was around for every agreement that I 
just described, and we managed to agree then. So there is no 
reason to believe that, even with those two gentlemen in 
different jobs, we will not be successful in continuing to 
reach practical areas of agreement when they are mutual.
    Senator Shaheen. So we really think he is just busy and 
there is no underlying ulterior motive here.
    Dr. Gordon. I think only the Russian Government can--we 
take at face value what----
    Senator Shaheen. That was a rhetorical question. 
[Laughter.]
    Stepping back a little bit from the specifics of the 
upcoming Chicago summit, I want to talk about what we see as a 
NATO member, the messages is that people should take away from 
Chicago. Last month I had the opportunity to host with the 
Atlantic Council an event around the upcoming summit. Secretary 
Albright and former Senator Warner were there. And it was very 
well attended. There was a lot of interest in it.
    And I think the summit comes at a very important time as we 
look at what has happened with NATO, what is happening in 
Europe right now. There have, in some quarters, been a 
suggestion that we should pull back from our commitments to 
NATO, that the same is true in Europe, as we look at the 
declining defense budgets, which people have raised here today. 
And I actually think that would be a mistake if we look at the 
successes of NATO, and you both talked about those very 
eloquently in your opening remarks. This is a 60-year-old 
alliance. It has been the most successful one in modern history 
anyway. You talked about the success in Libya. We still 
represent three of the top four defense spending countries in 
the world. And we have, after a decade of fighting in 
Afghanistan, the most experienced fighting force that we have 
seen again in modern history. Enlargement has been good for 
Europe.
    So in view of where the alliance is now, in view of some of 
the criticisms and questions that have been raised about its 
ongoing potency to deal with the challenges we face in the 
world today, what is the message that you all would like to see 
coming out of the Chicago summit about NATO and about our role 
in NATO? I would like to ask actually both of you if you could 
address that.
    Dr. Gordon. Well, Madam Chairman, I could not agree more 
with your analysis and could not disagree more with the notion 
that maybe it is time to move on. And as you say, beyond the 
particulars on Afghanistan in capabilities, I think the overall 
message is that it is simply in the national security interests 
of the United States to strengthen our partnerships with these 
key allies. Whatever the drawbacks and deficiencies in defense 
spending or different points of view we may have on some 
international questions, it is clearly in our interest to face 
the daunting challenges we face around the world with a 
standing alliance of countries who broadly share our values and 
interests.
    And I just think that the case for doing that in some ways 
is greater than ever before, given the fiscal situation that we 
are all in. If you just take any of the most recent examples--
doing Afghanistan is challenging enough--imagine trying to do 
it without this alliance, without the contributions of our 
partners, without an integrated military command structure and 
a tradition of militaries that cooperate with each other, and 
some common pooled assets like the AWACs and soon allied ground 
surveillance. It just does not make sense. Again, broadly 
speaking, European partners are those with which we manage 
global problems whether it is in the Balkans, in Libya, in 
Afghanistan, or--not in a military sense, but our Iran 
negotiations and so many other questions. So I think it is just 
absolutely the case that it is in our interest to do this.
    Again, Libya is another very recent example. I do not think 
anybody would have imagined us doing a military operation in 
Libya, if you look back a couple of years ago, but to have a 
command and control system that is practiced and interoperable 
forces and a political body in Brussels because, you know, you 
cannot just whip these things up at the snap of a finger. You 
have to have these standing institutions and structures. So I 
think that is the broad message of cooperation we would like to 
see go out.
    Senator Shaheen. Thank you.
    Mr. Townsend, would you like to add to that?
    Mr. Townsend. Senator, thank you very much. I agree with 
everything that Assistant Secretary Gordon said.
    And just a personal reflection, I have worked in the 
Department of Defense since the early 1980s in various guises, 
as well as at the Atlantic Council. And what I have seen over 
time and when I answer this question to groups of Americans, 
you know, when a crisis happens, going back so many years, the 
telephones ring in Europe. They do not ring other places in 
terms of Washington calling our allies, calling the NATO 
Secretary General. That is where the phone rings in those early 
days as we grapple with what to do. And it is something that is 
precious and it is something that we have not always had.
    And if you look back in history, whether to the 1930s and 
watched how we as nations tried to organize ourselves to deal 
with problems--the problems of those days are different than 
problems today. But we have with NATO an organizing entity to 
help us quickly come together just on a political basis at 28 
around a table and try to sort out what do we need to do. We 
are able to go to the U.N. with these nations with us and get 
U.N. assistance. The U.N. Security Council takes on these 
issues. And then when politically we all decide on a course of 
action, you have at NATO on the military side the integrated 
military structure that actually helps us to organize ourselves 
militarily and take action pretty quickly.
    And Assistant Secretary Gordon mentioned Libya. And I use 
Libya as well as an illustration on how we were able to come 
together politically, work with the United Nations, work with 
the international community, not just with our European allies 
but broadly, and then take a course of action. And it is a 
great test case of the theory.
    But I will also say in closing that we have to always work 
at it. There will always be critics, and we need the critics 
because we need to understand where we are failing here and 
there, the lessons learned coming out of Libya, the defense 
spending, the capabilities. And I have worked for years with 
this trying to keep moving forward and keep the alliance 
strong. We will never reach 100 percent in terms of fixing all 
the problems and getting it exactly right, but we have to keep 
trying. And what I know Assistant Secretary Gordon and I, who 
have worked for many years on this together--we want to hand 
off to our successors an alliance that is continuing to move 
forward and continuing to look for ways to get better.
    And a lot of what the Chicago summit is and the 
capabilities package particularly are ways in which we can try 
to address the defense spending issues, the way we can address 
trying to spend money with a priority. Some of the Senators in 
their statements have talked about prioritizing in this era of 
austerity how we spend money. That is what we are going to be 
trying to do in Chicago. And every summit, as it comes around, 
takes us another step toward addressing these issues and 
becoming an even stronger alliance.
    Senator Shaheen. Thank you both very much.
    Senator Lee.
    Senator Lee. Thank you, Madam Chair.
    And thanks to both of you for joining us.
    I would like to start with Mr. Gordon. Do you anticipate 
that over the next 10 days we might see any softening of 
Turkey's objection to Israel's participation in the upcoming 
summit?
    Dr. Gordon. I think there is some misconception about this 
issue that I actually appreciate the opportunity to clarify.
    NATO had not envisaged inviting Israel to the Chicago 
summit. Israel is an important partner of NATO. It is certainly 
an important ally of the United States. It is a member of the 
Mediterranean Dialogue, one of NATO's manifold partnership 
arrangements. But the Chicago summit was never going to have a 
meeting of every single one of those partnerships simply as a 
matter of logistics and time. So there was no meeting of the 
Mediterranean Dialogue 
or particular invitation to Israel for Turkey to block. And I 
have 
seen news reports and speculation about this, but that is just 
not accurate.
    What is accurate, as you know very well, is that the 
Turkey-Israel relationship is fraught, which we deeply regret 
because one of the more positive aspects of the Middle East is 
that there was deep cooperation between those two countries. 
And we have invested an awful lot of diplomacy in overcoming 
that, and we regret that partnership activities at NATO with 
Israel are not proceeding because of Turkish objections. And we 
have been very clear about that, that no country should bring 
bilateral disputes into the alliance. So as a broad matter, it 
is something we are very focused on advancing. As a specific 
matter for the NATO summit, it is not really an issue.
    Senator Lee. OK. So would you say that the relationship 
between Turkey and Israel does not bode well for the 
partnership, such as it is, between Israel and NATO?
    Dr. Gordon. That is right. And as I say, NATO has a history 
of partnership activities with lots of countries throughout the 
Mediterranean Arab world. We see it as a package. As I said, 
first of all, we do not accept that countries should bring any 
bilateral dispute into the alliance, and we do not accept that 
countries can pick and choose in blocking partnership 
activities. So our view is if an ally--and as you know, NATO 
operates by consensus. If an ally is going to block partnership 
with one country, then we are not going to accept partnership--
--
    Senator Lee. Partnerships generally.
    Dr. Gordon [continuing]. Generally. And that is where we 
are now because we are not going to allow sort of 
discrimination against a particular ally.
    Senator Lee. Right, right. But Turkey's actions here sort 
of jeopardize that understanding. Right? They are challenging 
that assumption, that assertion.
    Dr. Gordon. Well, not the assertion that it is all or 
nothing. We, the United States, because again everything is by 
consensus, will not allow certain countries to be blocked and 
others to go ahead with their participation.
    Senator Lee. But Turkey is, nonetheless, objecting to any 
partnership activities that involve Israel.
    Dr. Gordon. Correct.
    Senator Lee. Through the Mediterranean partnership or 
otherwise.
    Dr. Gordon. Correct.
    Senator Lee. What are the administration's plans with 
regard to possible funding of Afghan security forces at their 
peak of 350,000 troops beyond 2014? What can you tell us about 
that?
    Dr. Gordon. Well, as I think you know, you are right that 
the peak ANSF will be around 330,000-350,000 troops. But then 
in the longer term, we believe a sustainable goal will be 
considerably less than that, closer to 230,000, because our 
principal guiding thinking about this all along is that ANSF 
need to be sufficient to do the mission but also sustainable, 
which is to say affordable, over the long term. And that is 
where we think this remains to be decided. It is one of the 
issues to be discussed among allies in Chicago and work 
continues to be done, but we do not envisage that that 350,000 
peak will be sustained necessarily over the next decade.
    We also acknowledge--and this is partly a further response 
to Senator Risch's questions earlier--that the Afghans cannot 
do this by themselves. The international community is going to 
have to step up and play a major role probably for the next 
decade in ensuring that ANSF are sustainable. But it is also 
important to remember that whatever that costs the 
international community, it will be far less than we have been 
paying every year for the past decade.
    Senator Lee. OK. Thank you.
    Mr. Townsend, French President-elect Francois Hollande has 
indicated that he would like to withdraw all French combat 
forces from Afghanistan by the end of 2012. What do you think 
the odds are that that will actually occur?
    Mr. Townsend. Senator, I am not a betting man, so 
establishing odds is going to be difficult. But we have been in 
touch with the Hollande team as they begin to take the reins of 
power. They are not there yet obviously. The inauguration has 
got to come. I know Assistant Secretary Gordon just a few 
minutes ago told the committee that he will be going to Paris I 
think this afternoon to talk to the team.
    Their shadow Defense Minister, if you will, Messr. Le 
Drian, came by about a month or 2 ago, and I spoke with him a 
bit and listened to what he had to say.
    I think they face the situation that many politicians face 
after an election. They are now going to be faced with 
governance. They are going to be faced with a summit where a 
lot of work has been done by the allies to try to make sure 
that the way ahead is something that we are all unified on. And 
of course, we are going to be making a declaration at the 
summit on Afghanistan. There will also be the NATO strategic 
plan for Afghanistan that will be agreed there. So there has 
been a lot of work done. And so the new French Government, as 
it takes the reins of power once Hollande is inaugurated, they 
are going to be stepping into an already flowing stream. And so 
we are looking forward to talking to them and explaining this 
to them as they get ready to take that big step.
    Speaking personally, I would expect and I would hope that 
they would understand, as they take the reins of power in 
France, that in the NATO context they will be one of 28 nations 
that is coming together around the plan for 2014 and afterward. 
France has played a very important role in the development of 
this plan, a very important role in Afghanistan. And so they 
will be taking on, as they take the reins of power, a very big 
responsibility to join with us and to go forward in an alliance 
that wants to make sure that there will be an enduring presence 
after 2014, that the alliance will do its bit in helping the 
Afghan ANSF and the Afghan Government stand up and take on its 
role as a nation. And I am sure that the discussions that 
Assistant Secretary Gordon will have will be along those lines.
    Senator Lee. Thanks to both of you.
    Madam Chair, I see my time has expired.
    Senator Shaheen. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair. Thank you for doing 
this today.
    As all of you are aware, the United States has about 90,000 
troops currently in the combat mission there in Afghanistan. 
And I think they have done an outstanding job in terms of the 
mission that we have entrusted to them, and I think they have 
largely accomplished their mission. I mean, Osama bin Laden is 
dead. The Taliban is no longer in power. Terrorists no longer 
have a safe haven in Afghanistan. And that is why I was really 
encouraged when Secretary Panetta stated that we could bring 
home our combat troops as early as 2013: ``Hopefully by mid to 
the latter part of 2013, we will be able to make a transition 
from a combat role to a training, advice, and assist role.''
    Could you update me on his hope and where we are on that?
I mean, I interpreted at the time when he said that that he was 
really moving in that direction, but I have not heard anything 
else and I am wondering. Mr. Townsend, maybe you could start on 
where we are because I think there are a growing number of 
Americans who ask the question, Why are we in these villages 
and basically policing villages when we have been there for 10 
years? Why are the Afghans not doing that?
    And it just seems to me that Secretary Panetta hit it on 
the head when he said we need to move our combat forces out of 
that combat role and do everything we can to have the Afghans 
out there in the front taking the lead, moving forward to bear 
the major part of responsibility. And I hope that that is what 
we are pushing for.
    And I also hope that the Chicago summit, when folks come 
together, that they listen to these kinds of issues and maybe 
reconsider the 2014 date that they have. But please, go ahead.
    Mr. Townsend. Thank you, Senator. And I appreciate that 
question. That is certainly where we are working toward right 
now is this transition.
    Twenty fourteen, of course, has been the date that came 
from the Lisbon summit as an important date, both to the 
alliance and to President Karzai, where we will see that the 
Afghans taking the lead for security and taking on the front 
end of the combat missions from 2014 out.
    But what is important now, what has been underway that 
Secretary Panetta was talking about was this transition from 
the United States and other allies being in the lead for a lot 
of the combat missions to that transitioning to the Afghans. 
That is underway, and the date of 2013 that has been discussed 
we look on as a milestone date along the road to 2014.
    Twenty thirteen is important because in terms of this 
transition, this is where the ANSF will be in the security lead 
for most of Afghanistan by that time. Already here in 2012, the 
Afghan forces, the ANSF, are taking on the lead in much of 
Afghanistan. Twenty thirteen will see, I think, pretty much the 
completion of that. Now, it has got to be facts on the ground 
and certainly the Afghan Government and the ISAF commander and 
the allies are working on this. But right now, if you talk to 
General Allen and some of the commanders, we have been pretty 
impressed with the work of the ANSF, that they are certainly up 
to the task of taking the lead in terms of combat, and that we 
are going to see this transition that you mentioned and that 
Secretary Panetta mentioned in terms of allied forces, U.S. 
forces, transitioning from combat to this advise and assist and 
letting the Afghans take this lead in terms of combat. And that 
is what we are seeing. In a great extent, 2013 is going to be a 
landmark year for that.
    And we have seen over the past couple months security 
incidents have happened such as in Kabul. The ANSF have done 
the right thing. They have stepped up, and we have been very 
impressed with their performance. So a lot of what I can hear 
from you in terms of your aspirations of what you want to see 
in terms of transition is occurring.
    And while, as we go from 2013 to 2014, we will be primarily 
in this assist role, we will be ready to take on combat should 
that happen, but I think what we are seeing, though, is that 
the ANSF is going to be up to the task and we will be largely 
doing this assisting and this training up to 2014.
    Senator Udall. Well, it seems to me that before you have 
this firm date, whenever we set it, of getting out of 
Afghanistan in terms of combat troops, not the counterterrorism 
role and all the assists and the other things that we clearly 
need to continue, that you need to really test out whether they 
are up to it. And they need to be there in the front doing the 
job and us just be in an assist role to make sure that we test 
their capabilities. And I think that is what Secretary Panetta 
was hitting on in terms of that we have been there so long, we 
need to try to do everything we can to get them out and be 
doing the major responsibility for security, and we are really 
only in an advise and assist role.
    And I just hope we are not headed for a situation where we 
are going to keep pushing our date down the line. We need them 
to take responsibility. If they cannot do it, we need a really 
tough, firm assessment of what is going on and a reassessment 
of what is going on.
    Mr. Gordon, I do not know whether you were going to comment 
or not. You made some notes there. But I thought that was 
primarily a question for Mr. Townsend, but I am happy to hear 
from you too.
    Dr. Gordon. No. I would just endorse what Jim Townsend 
said. I hear what you are saying and that is precisely the 
point of the milestone, after which our role will be primarily 
training, advising, and assisting. But we also have to be clear 
and honest. We cannot promise that from some date in 2013 there 
will be no combat in Afghanistan. Obviously, that would be 
ideal. But we need to make sure we succeed as well. So from the 
milestone we will primarily train, advise, and assist, and by 
the end of 2014, combat troops are out and Afghans are fully in 
charge. And the purpose in many ways of the discussions in 
Chicago will be to get everyone on the same page for exactly 
that concept: the milestone, the transition at the end of 2014, 
and how we make sure we succeed after 2014.
    Senator Udall. Well, my guess is that in Chicago there is 
going to be a big push to try to do what Secretary Panetta was 
talking about. I think many of our NATO partners, as in 
France--you are going to go talk to them, but I think they just 
see this, that we have waited too long in terms of having an 
Afghan lead. I mean, I have heard the Europeans talking about 
this for 8 years. I mean, they have talked about this should be 
Afghan-led, security should be Afghan-led. And I think they are 
getting very impatient.
    I know that you all cannot make a commitment publicly and 
say this is what we are going to discuss at the meeting in 
Chicago because that would be the big headline in everything. 
But I hope that there is very serious discussion about this 
transition and how quickly we can do it and how we make sure 
that this is an Afghan-led security operation.
    Sorry to run over, Madam Chair, but I really appreciate 
you.
    Senator Shaheen. Thank you very much, Senator Udall.
    In the interests of time because we have another panel, I 
think we should go ahead and move on unless either Senator 
Udall--Senator Lee is leaving. So unless you have further 
questions, I am going to move on to the second panel.
    Senator Udall. I am ready for the second panel.
    Senator Shaheen. Good.
    Senator Udall. Thank you both.
    Senator Shaheen. I have a lot more questions, but I will 
reserve those. So let me thank you both very much. Have a good 
trip to Paris, Under Secretary Gordon.
    While we are transitioning the panels in and out, I will 
take a moment to introduce the second panel. Senator Kerry did 
that a little bit. But let me point out that each of the next 
three experts has extensive experience working throughout 
Government and in the private sector on Europe and NATO issues, 
and we are very pleased to have them join us today.
    First is Dr. Charles Kupchan who is the Whitney Shepardson 
Senior Fellow at the Council on Foreign Relations and a 
professor of international affairs in the Walsh School of 
Foreign Service and Government at Georgetown University.
    Second is Ian Brzezinski who is a senior fellow in the 
International Security Program at the Atlantic Council and a 
member of the council's Strategic Advisors Group. He also leads 
the Brzezinski Group.
    Finally is Dr. Hans Binnendijk who is currently the vice 
president for research at the National Defense University and 
the Theodore Roosevelt Chair in National Security Policy at the 
university.
    Thank you all very much for being here.
    Let me just point out I have a statement that I am going to 
submit for the record and ask Dr. Kupchan if he would like to 
begin.
    [The prepared statement of Senator Shaheen follows:]

               Prepared Statement of Hon. Jeanne Shaheen,
                    U.S. Senator From New Hampshire

    The Senate Foreign Relations Committee meets today to examine the 
North Atlantic Treaty Organization, which will convene in Chicago just 
10 days from now to discuss the alliance's current and future 
trajectory. We have two impressive panels of witnesses here to help us 
better understand the difficult issues facing NATO and its members.
    This year's NATO summit could not come at a more important time. In 
Washington and in the capitals of nearly all NATO member nations, 
Western leaders are wrestling with unprecedented challenges: fiscal 
crises that have forced unwelcome austerity measures, declining defense 
budgets, less-than-robust economic growth, and even a return to 
recession in some European countries. At the same time, global security 
demands are rapidly evolving and becoming more and more complex.
    In the face of these difficult and growing challenges, there may be 
a tendency to question ourselves, to pull back or to lower our goals 
and expectations. I think this is exactly the wrong time to question 
the very principles that have guided this alliance to be the 
successful, dominant force that it is today.
    The message out of the Chicago summit this month needs to be that 
the United States and its NATO allies will continue to be a dominant 
force for good in 
the world--just as we have been over the last 60 years. We should 
emphasize 
that NATO is ready to adapt to 21st century threats, to address our 
shortfalls and to make the tough choices necessary to meet the next 
generation of security challenges.
    A successful summit will need to see progress on a number of 
critical issues facing the alliance today.
    The first is Afghanistan, where we are seeking to shift from a 
combat-focused role to one of training, advising, and assisting the 
Afghan forces as they take the lead for the security of their country. 
Last week, President Obama signed the U.S.-Afghan Strategic Partnership 
Agreement, providing a 10-year commitment to our Afghan partners after 
the transfer of security responsibility in 2014. At the summit, we 
should seek buy-in and support from our NATO allies while working 
closely with alliance members--and our Afghan partners--to identify 
realistic, sustainable troop numbers and financial commitments.
    The second is NATO's ``Smart Defense'' initiative, which has been 
touted as an effort to prioritize defense projects and pool and share 
resources at a time of increasingly strained budgets. I welcome the 
effort to ensure the maximum possible return on investment of our 
limited defense dollars, and NATO can build on successful initiatives 
like the Baltic Air Policing mission and the Strategic Air Lift 
Capability program. However, it is important that ``Smart Defense'' 
does not become an excuse for further underinvestment in much-needed 
defense spending by our allies.
    The lack of burden-sharing will remain an important issue that must 
be addressed in Chicago. Just a few NATO countries are spending at or 
above 2 percent of their GDP, the level of commitment required of all 
alliance members. While the United States spends over 4 percent of its 
GDP on defense, Europe as a whole spends only 1.6 percent, and many of 
those individual countries spend less than 
1 percent. The United States spends three times more than the other 27 
allies combined.
    The NATO Strategic Concept--agreed to at the Lisbon summit 2 years 
ago--outlined the capabilities needed to deter and defend against 
future threats to the alliance. In Chicago, ``Smart Defense'' should be 
utilized to begin to meet all of those capabilities and to make real 
commitments of resources toward that effort.
    Finally, at the summit, we must maintain our focus on the 
alliance's ``open door'' policy. NATO enlargement has been one of the 
great successes of the alliance over the last two decades, bringing in 
critical allies in Eastern Europe and the Baltics, which have rapidly 
transformed themselves from security consumers to security 
contributors. Poland and Romania will soon host critical missile 
defense sites. Estonia may be one of only a few NATO members to 
actually reach its defense spending requirements. And most of the newer 
members have also made significant troop commitments to the fight in 
Afghanistan.
    Despite the success, enlargement has begun to demonstrate signs of 
strain, due to both geographic location and political realities. At the 
Chicago summit, no new members are expected to join the alliance; 
however, that does not mean NATO's ``open door'' is off the agenda. 
There are currently four aspirant nations that are interested in 
pursuing membership, including Georgia, Bosnia and Herzegovina, 
Montenegro and Macedonia. It will be important for NATO to maintain the 
credibility of our ``open door'' by identifying a clear path to NATO 
membership for deserving countries.
    The summit in Chicago comes at a crucial time for the U.S. and our 
allies, and these are just three of many important issues that should 
be discussed. In a world where the security focus is shifting toward 
Asia and military budgets are shrinking, now is the time for NATO to 
redefine its role as a preeminent force for peace and stability.
    Despite our difficulties, NATO has arguably been the most 
successful modern military alliance in history. Our deep ties were born 
out of World War II, where victory as a truly joint force was unlike 
anything that had ever been seen before. At the height of the cold war, 
our alliance deterred the very real threat of a nuclear devastation 
brought on by two global superpowers bent on conflict. It is an 
alliance that helped tear down the Berlin Wall and dismantle the 
Communist empire.And, it has moved us ever closer to a Europe that is 
``whole, free, and at peace.''
    Today, even in the face of austerity, our alliance is an unrivaled 
military force. NATO has three of the top four defense spending 
countries in the world and represents nearly two-thirds of worldwide 
military expenditures. Due to nearly a decade of fighting in 
Afghanistan, NATO members have some of the most experienced, battle-
tested warriors in a generation. NATO acted when no other force in the 
world had the capacity or the will to avert genocide in the Balkans or 
prevent a civilian massacre in Libya, ultimately bringing an end to 
brutal dictatorial regimes in both places.
    Do we have our problems? Absolutely. We need to take an honest, 
critical account of our shortfalls and inadequacies. Libya exposed some 
glaring capability gaps. Our open door policy has begun to show some 
strain and limits. At times, we struggle to find consensus on the role 
NATO should play in the world, and we have serious questions about 
equality and burden-sharing.
    Past success does not guarantee future relevance. Any alliance that 
wishes to remain relevant to a rapidly changing world must adapt and 
respond to new realities. As such, we come to Chicago at a critical 
turning point. NATO needs to define its role in a world where the focus 
is shifting toward the Asia-Pacific. And it needs to do so in a time of 
shrinking budgets.
    The outcome there will help determine whether we will remain the 
undisputed leader of a free society in this century. Chicago should be 
a chance to remind the world--and perhaps convince a new generation of 
Americans--that the United States and its NATO allies continue to wield 
unprecedented influence and are actively shaping our world for the 
better.

  STATEMENT OF DR. CHARLES A. KUPCHAN, PROFESSOR, GEORGETOWN 
   UNIVERSITY; WHITNEY SHEPARDSON SENIOR FELLOW, COUNCIL ON 
               FOREIGN RELATIONS, WASHINGTON, DC

    Dr. Kupchan. Thank you very much, Madam Chair. It is a 
privilege to have the opportunity to have a conversation with 
the committee today. I will simply summarize my written 
testimony and would like to ask that it be submitted for the 
record.
    I think the upcoming summit in Chicago represents a moment 
for stocktaking, in the sense that we have been through two 
decades of post-cold-war NATO, and I think the alliance has 
fared much better than many of us had expected in the sense 
that most alliances disappear when the threat that gave birth 
to them disappears. But here we are in 2012 and not only is 
NATO still in existence, but it has troops in Kosovo, in 
Afghanistan, just fought a war in Libya, and has partnerships 
around the world. So clearly the alliance is a going concern.
    I also think that despite the ups and downs of 
transatlantic relations over the last 20 years, we can 
relatively confidently say that the United States and Europe 
remain each other's best partners and that when the American 
President or a European leader looks out at the world and says 
who do I call when there is a problem out there, the answer is 
the person on the other side of the Atlantic. My judgment is 
that that is not going to change anytime soon, and that is 
partly because of the affinity of interest and common values 
but it is also because there are not other options. And even 
though there are rising powers in the world, I think we still 
count on our European allies and can rely on our European 
allies more than we can count on others.
    At the same time, I think it is clear that we are at the 
cusp of a major transition, a historic transition in the global 
landscape in which the community of nations that NATO 
represents is losing the primacy that it has enjoyed for the 
last 200 years. If you look at the share of global product 
represented by NATO--and I would include Japan in that 
calculation because they have been part of the Western world 
since World War II--we have gone from roughly 70 percent of 
global product to 50 percent, and we are now headed toward 40 
percent. And that says to me that the big security questions of 
the day are about how we are going to manage that transition. 
The big challenges to American security moving forward are not 
within the Atlantic community but outside the Atlantic 
community.
    And as a consequence, the relevance of this alliance to us 
and to our European allies--but I think more to us because we 
are a global power--will be what is NATO doing in this wider 
world. How is NATO keeping the United States safe as the global 
distribution of power shifts in the years and decades ahead? I 
would like to offer a few comments on that broad subject of 
NATO in the wider world.
    First, I think it is important to keep in mind that NATO 
represents the primary institutional infrastructure of the 
West. It keeps us together as a meaningful political community. 
That is particularly important when some of the emerging powers 
around us do not share our values and do not share our 
interests. I think one of the grand strategic questions of our 
time is how can we preserve the rules-based system that the 
United States and the Europeans have together built since World 
War II as the circle widens, as more players have seats at the 
table. This is not a conversation that is front and center on 
NATO's agenda, but I think it has to be moving forward because 
the West, if it comes together, coheres, and generates a plan 
for managing this transition, it will withstand the test of 
time. If the United States and Europe go their separate ways in 
figuring out how to preserve a rules-based system, then I fear 
that the next 20-30 years will be a very bumpy period in 
international history.
    The second point in this respect is that I think that NATO 
needs to establish itself as a global security hub. That in my 
mind does not mean that NATO should go global. I think a global 
NATO would be a bridge too far. It would be a step that would 
burden the alliance with political requests and material 
requests that it would be unable to sustain. And in that 
respect, I think we should be sober and cautious about thinking 
of NATO as the military alliance of last resort for missions 
moving forward.
    Yes, NATO went into Afghanistan. Yes, the allies will 
hopefully leave together. Yes, NATO just finished a mission in 
Libya that was reasonably successful. But I think the take-away 
from Afghanistan and Libya should be sobriety, not gearing up 
for the next NATO deployment. The Afghan mission has been 
somewhat successful, but not a smashing success. Most of the 
allies are chafing at the bit to get out--as you were just 
saying, Senator--and I think that it will be a long time coming 
before NATO engages in the same kind of operation that it 
engaged in in Afghanistan.
    Libya--I think the success is more conclusive, but many of 
the conditions that were present in Libya are not being 
replicated elsewhere, particularly in Syria: a U.N.-backed 
legal authority, the approval of the Arab world, the degree to 
which Libya was close to reservoirs of European power and 
therefore easy for the Europeans to do--even though they still 
relied heavily on United States support.
    In that regard, I think some of the most important NATO 
programs moving forward will not be the deployment of force 
even though, surely, there will be some of that. Instead, some 
of the most effective initiatives will be the broad array of 
global programs, including the NATO partnerships, the 
Mediterranean Dialogue, the Istanbul Cooperation Initiative, 
the support for the African Union, and the training mission in 
Iraq, which has already concluded. I think in many respects, 
NATO has to help other regions do for themselves what NATO has 
done for the Atlantic community: deepen integration, understand 
what it means to work together, and gradually build the 
solidarity that preserves regional peace.
    Two final comments. One concerns a subject we have already 
discussed this morning. If NATO is to be a global hub and to 
serve as the institutional core of the West during this period 
of transition, I think it requires a European pillar that 
stands up to the plate. And this issue is more pressing today 
than it has ever been before. We have had debates about burden-
sharing since NATO was born. But during the cold war, that 
debate only went so far because the Europeans were quite 
confident that we were there to stay and that if something went 
wrong, the United States would show up at the party.
    I think right now we are seeing a world where the Europeans 
know that they need to do more. The U.S. pivot to Asia and the 
drawdown in Europe are not only justified and inevitable, but 
they also put a fire to the feet of the Europeans about the 
need to do more to balance the alliance.
    I am skeptical that the Europeans will spend more on 
defense. In fact, I would go as far as to say they are going to 
be spending less, and that is because for the foreseeable 
future, they are going to be worried about bailing out Greece, 
how to deal with their debt, and how to save the eurozone and 
perhaps even the European Union. That picture says to me that 
we should be pressing them not so much about spending, because 
I think that is running into a brick wall, but on rationalizing 
how they spend, on getting more bang for the buck, on getting 
them to pool their resources. That aggregation in my mind is 
the best way to get Europe to become more capable. This 
approach, in many respects, would also involve much closer 
links between NATO and the European Union.
    Finally, I think that it would be remiss for me not to make 
the following point, which is not going to be on the summit 
agenda in Chicago, but I think should be in the back of our 
minds in any case. And that is, from the very beginning of the 
Atlantic partnership, our strength abroad has depended upon our 
strength at home, our economy, our political solvency. What I 
am most worried about today, as I testify before the committee, 
is not whether we get NATO enlargement right. It is not when 
and how we get out of Afghanistan. It is the degree to which we 
are now stumbling--the West collectively--in terms of our 
economies stuck in neutral, the European Union pulling apart, 
experiencing a renationalization of the sort that we have not 
seen since World War II, and our own political system here 
going through a very rough patch.
    So my final thought would be it is impossible to think 
about, talk about, and imagine NATO's future without doing the 
hard work of getting our own houses in order because in the end 
of the day NATO will only be as strong as its individual Member 
States. We have a lot of work to do on that front.
    Thank you very much.
    [The prepared statement of Dr. Kupchan follows:]

                Prepared Statement of Charles A. Kupchan

    NATO has demonstrated impressive resilience and solidarity since 
the cold war's end. Indeed, it has defied history; alliances usually 
disband when the collective threat that brought them into being 
disappears. Instead, NATO has not only survived, but markedly expanded 
its membership and undertaken major missions in the Balkans, 
Afghanistan, and Libya. As the cold war came to a close, few observers 
could have predicted that NATO, 20 years later, would be in the midst 
of an extended operation in Afghanistan while simultaneously carrying 
out a successful air campaign to topple the Libyan Government.
    The durability of NATO stems from the reality that the United 
States and Europe remain one another's best partner. To be sure, 
differing perspectives and priorities regularly test transatlantic 
solidarity. But teamwork between the United States and Europe remains 
vital to addressing most international challenges. As President Obama 
affirmed prior to the 2010 NATO summit in Lisbon, ``our relationship 
with our European allies and partners is the cornerstone of our 
engagement with the world, and a catalyst for global cooperation. With 
no other region does the United States have such a close alignment of 
values, interests, capabilities, and goals.''
    NATO's endurance beyond the cold war's end makes clear that it is 
much more than a military alliance. NATO is perhaps the primary 
institution responsible for preserving the coherence and effectiveness 
of the West as a community of shared values and interests. That 
function, reinforced by transatlantic cooperation in a multiplicity of 
other forms, will only grow more important over time as the primacy 
long enjoyed by the Atlantic democracies gives way to a redistribution 
of global power.
    Its impressive track record notwithstanding, the 2012 NATO summit 
in Chicago represents a moment that demands strategic ambition and 
vision, not complacency. As many parts of the developing world continue 
to experience economic and political awakenings, NATO must serve as an 
anchor of liberal values and democratic institution and as a key venue 
for managing a global landscape in transition. Most emerging security 
challenges lie well beyond alliance territory, making NATO's ability to 
serve as a global security hub and to contribute to stability in other 
regions fundamental to its future relevance.
    The missions in Afghanistan and Libya represent important steps in 
this direction, but they also reveal the profound political and 
operational difficulties confronting the prospect of a ``global NATO.'' 
Accordingly, even as the alliance invests in its capacities for 
military intervention, it should recognize that one of its key 
contributions to security ``out of area'' will be facilitating regional 
integration and building regional capacity. NATO's ability to serve as 
a global security hub also depends on addressing the issue of burden-
sharing; Europe must strengthen its own ability to project power if it 
is to remain an attractive partner for the United States. Finally, NATO 
members must be mindful of the reality that purpose and strength abroad 
require purpose and strength at home. Ultimately, the welfare and 
efficacy of the Western alliance depends upon restoring economic and 
political solvency on both sides of the Atlantic.

                        NATO IN THE WIDER WORLD

    During the cold war, the West (including Japan) collectively 
accounted for roughly 75 percent of global economic output. Today, it 
accounts for about 50 percent, and that share will decline steadily as 
emerging economies continue to enjoy impressive rates of growth. 
Goldman Sachs expects the collective GDP of the top four developing 
countries--Brazil, China, India, and Russia--to match that of the G7 
countries within about two decades. This ongoing shift in wealth is 
already affecting military expenditures. For the first time in the 
modern era, Asia now spends more on defense than Europe.
    The international system is headed into uncharted waters; Western 
nations need a common strategy to address this tectonic shift in the 
global landscape. The 21st century will hardly be the first time that 
multiple centers of power embraced quite different models of governance 
and commerce: during the 17th century, for example, the Holy Roman 
Empire, Ottoman Empire, Mughal Empire, Qing Dynasty, and Tokugawa 
Shogunate each ran its affairs according to its own distinct rules and 
culture. But these powers were largely self-contained; they rarely 
interacted with each other and thus had no need to agree on a set of 
common rules to guide their relations.
    This century, in contrast, will mark the first time in history in 
which multiple versions of order and modernity coexist in an 
interconnected world; no longer will the West anchor globalization. 
Multiple power centers, and the competing political and economic 
systems they represent, will vie on a more level playing field. 
Effective global governance will require forging common ground amid an 
equalizing distribution of power and rising ideological diversity.
    NATO is by no means the only available venue for coordinating 
Western efforts to manage this transition, but its political and 
military institutions and its time-tested mechanisms for building 
consensus among the Atlantic democracies are tremendous assets. The 
fact that almost 20 leaders of non-NATO countries plan to attend the 
Chicago summit attests to the alliance's growing reach. As the European 
Union deepens its collective character and its new foreign policy 
institutions, teamwork between NATO and the EU can guide the West's 
engagement with the wider world. The top priority is forging a united 
front on countering emerging threats and on making the adaptations to 
international institutions and rules needed to preserve cooperative 
stability amid global change.
    Although it is impossible to predict where the next NATO mission 
might take place, the alliance will surely continue to play a direct 
role in addressing security challenges well beyond its borders. At the 
same time, the idea of a ``global NATO'' is a bridge too far. Trying to 
turn the alliance into an all-purpose vehicle of choice for military 
operations around the world would likely lead to its demise, not 
revitalization. In many parts of the world, a NATO-led mission might 
lack legitimacy among local parties, compromising its chances of 
success. Efforts to turn NATO into a global alliance would also saddle 
it with unsustainable burdens and insurmountable political divides.
    The missions in Afghanistan and Libya amply demonstrated the 
readiness of NATO to take on missions well beyond alliance territory. 
NATO also maintains ongoing operations in Kosovo, off the Horn of 
Africa (Operation Ocean Shield), and in the Mediterranean (Operation 
Active Endeavour). But such missions may well prove to be more the 
exception than the rule. In Afghanistan, NATO members have demonstrated 
impressive solidarity. The mission, however, has not been an 
unqualified success and member governments now face strong domestic 
pressures to bring the operation to an end. It is doubtful that NATO 
would countenance a similar mission for a long time to come. In Libya, 
NATO was more successful in meeting its objectives, and Europeans 
demonstrated their ability to take the lead (although not without 
significant U.S. participation). But the Libya operation does not 
represent a model for the future. Many aspects of the intervention in 
Libya would be difficult to replicate, including strong support in the 
Arab world and approval by the U.N. Security Council. Due to Libya's 
proximity to European air bases, European members of NATO were able to 
carry out missions that would be much more difficult in theaters 
farther afield. The impediments to military intervention in Syria are a 
case in point.
    NATO should of course keep its integrated military structure in 
fine working order; unforeseen missions can emerge with little warning, 
often requiring urgent action. But some of NATO's most important and 
effective contributions to global security are likely to come in the 
form of capacity-building rather than war-fighting. In this regard, 
NATO should aim to do for other regions what it has done for the 
Atlantic community: advance the cause of security and peace through 
political/military integration and building regional capability. Put 
differently, NATO should help other regions help themselves through 
training, assistance, exercises, and exchanges. Some of most important 
security institutions of the 21st century are likely to be regional 
ones--such as the Gulf Cooperation Council, the African Union, the 
Association of Southeast Asia States, and the Union of South American 
Nations. NATO should be investing in the efficacy of these regional 
bodies.
    In pursuit of this objective, NATO should intensify and expand the 
numerous programs it already maintains to advance these goals, 
including:

  <bullet> Euro-Atlantic Partnership Council and Partnership for Peace: 
        engages 22 European partner countries in multilateral and 
        bilateral relations with NATO.
  <bullet> Mediterranean Dialogue: engages Algeria, Egypt, Israel, 
        Jordan, Mauritania, Morocco, and Tunisia in NATO activities.
  <bullet> Istanbul Cooperation Initiative: provides training and 
        exchanges with Bahrain, Qatar, Kuwait, and the United Arab 
        Emirates.
  <bullet> NATO Partners: engages non-NATO members in NATO operations, 
        including Australia, Japan, South Korea, New Zealand, Pakistan, 
        Iraq, Afghanistan, and Mongolia.
  <bullet> Support for African Union: provides NATO assistance to the 
        AU mission in Somalia and to AU peacekeeping capacity.
  <bullet> Training Mission in Iraq (2004-2011): trained Iraq's armed 
        forces.

    As NATO deepens its engagement in areas beyond its territorial 
boundaries, it should address potential changes to its decisionmaking 
procedures to ensure its effectiveness. In the absence of the unifying 
threat posed by the Soviet Union, NATO solidarity is more difficult to 
sustain--as made clear by the inequitable division of labor in 
Afghanistan and the decisions by roughly half of NATO's members to 
abstain from participation in the Libya mission. To ensure that 
divergent perspectives do not become a source of paralysis, the 
alliance should consider moving away from a consensus-based approach to 
decisionmaking. Options such as the formation of coalitions of the 
willing and the use of constructive abstentions--members opt out of 
rather than block joint action--could provide NATO the greater 
flexibility it needs. New decisionmaking procedures would also provide 
the opportunity for more input from non-NATO members that participate 
in alliance operations.

                          THE EUROPEAN PILLAR

    Inequitable-burden sharing has strained transatlantic relations 
even in good economic times. Europe's military shortfalls have become 
even more problematic amid the global downturn. The United States is 
scaling back its own defense spending, making Washington more sensitive 
to the readiness of its partners to shoulder defense responsibilities. 
Nonetheless, America's European allies are slashing, not augmenting, 
their own defense expenditures; they now spend about 1.5 percent of 
their GDPs on defense, compared with over 4 percent in the United 
States. In addition, NATO's new missions depend heavily upon types of 
capability--lift, targeting, intelligence, surveillance, and 
reconnaissance--that highlight Europe's military shortcomings. It is 
this reality that prompted former Secretary of Defense Robert Gates to 
worry that NATO's future could be ``dim if not dismal.'' Put simply, 
Europe will be of declining strategic relevance to the United States if 
its ability to shoulder international responsibilities continues to 
decline.
    In light of the economic problems plaguing Europe, increases in 
defense spending are not likely for the foreseeable future. 
Accordingly, the only realistic course for strengthening the European 
pillar of NATO is for European nations to do a much better job of 
aggregating their political will and resources. America's European 
allies need to allocate defense resources more effectively and take 
advantage of the institutional changes effected by the Lisbon Treaty to 
forge a more common and collective security policy. Europe would be not 
only investing in its own security, but also strengthening the 
integrity of the Atlantic link.
    The integration of Europe has admittedly arrived at a fragile 
moment. The eurozone crisis has led to a renationalization of political 
life that is fragmenting Europe's landscape. But there are also 
developments on the positive side of the ledger. France's reintegration 
into NATO's military structure advances the prospect for better 
cooperation between the EU and NATO. It is conceivable, if not likely, 
that a ``core'' Europe--an inner grouping that provides for more 
centralized and purposeful governance--could emerge from the ongoing 
fiscal crisis. The deeper integration and oversight reflected in the 
fiscal pact could be replicated in the security realm. In addition, 
precisely because austerity is cutting into resource availability, it 
is leading to new collective synergies--such as conventional and 
nuclear cooperation between Britain and France. Finally, the drawdown 
of U.S. troop levels in Europe and the prospect of a ``pivot'' to Asia 
should help convince Europeans that ``free-riding in perpetuity'' is 
not an option.
    Building a more capable European pillar is primarily up to 
Europeans: they must increase their deployable military and civilian 
assets and ensure that the more capable institutions launched by the 
Lisbon Treaty are not offset by the renationalization of European 
politics. But the United States can help by making clear its 
unequivocal support for a strong Europe and engaging the EU at the 
collective level as its institutions mature.

                        STRENGTH STARTS AT HOME

    Many analysts have fretted over the past two decades about the 
prospects for NATO's survival in the post-cold-war era. Their anxiety 
has so far proved unnecessary; the alliance is alive and well. However, 
most analysts failed to foresee what today may well be the greatest 
threat to NATO's future--the economic and political malaise plaguing 
both sides of the Atlantic. The West has entered a prolonged period of 
sluggish economic growth, political polarization, and self-doubt, 
producing a crisis of democratic governance. It cannot be accidental 
that the United States and Europe (as well as Japan) are simultaneously 
passing through a period of unprecedented economic duress and political 
discontent. Globalization, by reallocating wealth and making less 
effective the policy levers that democratic states have at their 
disposal, is producing a widening gap between what electorates are 
asking of their governments and what those governments are able to 
deliver.
    At issue is not merely the availability of resources for defense, 
but the political vitality of the West. The West's strength abroad has 
always depended upon its economic health and political purpose at home. 
The political awakening in the Middle East and the continuing rise of 
illiberal powers make all the more urgent the task of revitalizing the 
Western model of free commerce and democratic governance. Backstopped 
by NATO and the broader network of ties that bind North America and 
Europe to each other, the West needs to ensure that it has the economic 
and political wherewithal to anchor the ongoing shift in the 
international system.
    The NATO summit in Chicago is not the place for discussion of how 
to stabilize the eurozone or breathe new life into the European 
project. Nor is it the appropriate venue for debate about restoring 
Western economies to full health and rebuilding popular confidence in 
democratic institutions.
    Nonetheless, NATO is in the midst of charting its new course for 
the 21st century. Any serious consideration of the future of the 
alliance must urgently address how to restore the West's economic and 
political vitality. Strength starts at home; in the end, NATO can only 
be as strong and resilient as its individual members.

    Senator Shaheen. Thank you.
    Mr. Brzezinski. Can I just get you to get a little closer 
to the mic so we can hear better?

   STATEMENT OF IAN BRZEZINSKI, SENIOR FELLOW, THE ATLANTIC 
    COUNCIL; PRINCIPAL, THE BRZEZINSKI GROUP, WASHINGTON, DC

    Mr. Brzezinski. As a former Senate staffer, who served this 
committee and prior to that, the late Senator William V. Roth, 
it is a real pleasure to return to these halls. It makes me 
recall the strong, bipartisan leadership that this committee 
brought to the efforts to extend NATO membership to the 
democracies of Central Europe. Those were historic decisions. 
They strengthened the alliance. They strengthened transatlantic 
security.
    The Chicago summit is going to be important in large part 
because of the context in which it takes place. That context 
includes a war in Afghanistan from which both the United States 
and Europe appear to be disengaging; economic crises on both 
sides of the Atlantic; diminishing or atrophying European 
defense capabilities; NATO's qualified success in Libya, one 
that nonetheless raised questions about U.S. commitment to NATO 
and highlighted European defense shortfalls; and of course, the 
recent U.S. defense guidance that features a pivot to Asia and 
initiates another reduction of American forces stationed in 
Europe.
    Some have asserted that this should be an implementation 
summit that focuses on the alliance's military operation in 
Afghanistan and reviews NATO's progress under its new Strategic 
Concept. In light of our context, that would be insufficient. 
That would reinforce a sense of NATO's growing irrelevance and 
further a process of transatlantic decoupling.
    Senator Shaheen, you asked what should be the one central 
message from the Chicago summit. In my view, if the Chicago 
summit is to have one overarching purpose, it should be to 
provide a credible reaffirmation of the transatlantic bargain, 
one in which the United States demonstrates real commitment to 
Europe's regional security interests and our European allies 
demonstrate they are ready to stand with the United States to 
address global challenges to transatlantic security.
    Toward that end, the United States should pursue five 
priorities at the Chicago summit.
    First and foremost, the President must credibly reaffirm 
Europe's centrality in U.S. global strategy. The drifting apart 
of the two continents has many causes, but they include a 
United States transatlantic agenda whose dominant elements 
recently have been: a vaguely defined reset of relations with 
Russia; the new defense guidance; and, a proposed missile 
defense architecture that still remains conditional. The 
decision to further reduce United States forces stationed in 
Europe occurs in the context of an increasingly assertive 
Russian foreign policy. Just last week, Russia's chief of the 
general staff threatened to launch preemptive strikes against 
proposed missile defense sites in Central Europe.
    Washington should remove the conditionality that still 
hangs over U.S. missile defense plans for Europe. That 
conditionality not only undercuts European confidence in the 
U.S. commitment to build those sites, it certainly incentivizes 
Kremlin opposition.
    The U.S. military drawdown will also make it important to 
ensure that the remaining forces in Europe are fully equipped 
and funded, and equally important, careful consideration has to 
be given how in the future the United States and Europe will 
sustain their military interoperability. The way we fight war--
the way the United States fights wars--has become so 
technologically complex. It is now much more difficult, 
challenging, and time-consuming to maintain interoperability 
with other allied forces. It is not yet clear how 
interoperability will be sustained as the United States further 
reduces its forces in Europe. Continued ambiguity on this issue 
communicates disinterest not just in the regional security 
concerns of our allies but also in their role as potential 
partners in out-of-area operations.
    Second, the Chicago summit should be used to reanimate the 
vision of a Europe whole, free, and secure as a guiding 
priority of the alliance, and the United States should be 
leading this effort. A Europe that is undivided, whole, and 
free would be a more stable and secure continent, one thereby 
better able to address global concerns in partnership with the 
United States.
    Imagine Europe today if it did not integrate Poland, the 
Baltics, Romania, and Bulgaria into NATO. Would the EU have 
extended membership to all of them? Would Russia and Poland be 
on a path today toward more normalized relations?
    To revitalize the process of NATO enlargement, the alliance 
can, and should, at the Chicago summit declare its intent to 
issue invitations no later than the next summit to qualified 
candidates. It should underscore the urgency of resolving 
Macedonia's dispute with Greece over the former's name, the 
last remaining impediment to its accession to the alliance. It 
should assert that Georgia's path to NATO can be through the 
existing NATO-Georgia Commission; and, it should applaud 
Montenegro's significant progress under the membership action 
plan.
    Third, the alliance must chart its way forward in this era 
of financial austerity. Resource constraints are a double-edged 
sword. They can halt multinational cooperation and generate 
division, and indeed, we see a little bit of that today as the 
Central Europeans watch aghast as Germany, France, and Italy 
sell military equipment to Russia in their efforts to sustain 
their respective national defense industries.
    Allow me to commend Senator Lugar and the Congressional 
Research Service for their recently published study examining 
these sales. I hope this report will prompt the alliance to 
take action on this potentially divisive issue.
    Austerity can also be leveraged to drive forward needed 
prioritization, innovation, and collaboration. I am glad the 
alliance plans to roll out Force 2020, a set of long-term 
capability goals, but I hope it will give equal, if not 
greater, emphasis to near-term, multinational projects that 
address existing shortfalls. Such projects as shared logistics 
hubs and pooled buys of platforms are urgently needed. Because 
they can be accomplished in the near term, these are projects 
that will also be more credible to NATO publics than promises 
regarding the distant future.
    Fourth, the summit should be used to expand and deepen the 
partnerships the alliance has developed around the world. 
Sweden, Australia, and New Zealand, Korea, Jordan, UAE, Qatar, 
Morocco, and other non-NATO members have made important 
contributions to ISAF, the Libya mission, and other alliance 
operations. In addition to military capability, they bring 
diplomatic leverage, as well as needed insight and intelligence 
regarding their respective localities and regions.
    NATO should expand the Partnership for Peace so that it is 
open to all who qualify regardless of geography. Those who 
contribute more militarily should have the opportunity to be 
certified as NATO-interoperable. Those certified could then be 
allowed to participate perhaps in a tiered fashion in different 
NATO programs, be it NATO exercises, the integrated command 
structure, centers of excellence, and civilian agencies.
    And finally, of course, NATO at Chicago needs to 
demonstrate unambiguous determination to sustain a stable 
Afghanistan. I hope NATO will be able to commit to a strategic 
partnership with Kabul that will endure well beyond 2014. The 
recently signed United States-Afghanistan agreement is an 
important step but, even if it is fleshed out robustly, will 
likely be insufficient to ensure success in Afghanistan in the 
absence of a long-term transatlantic commitment.
    Strong leadership has always been a prerequisite for NATO's 
vibrancy and success. Likewise, Europe's ability and 
willingness to contribute the military forces and political 
capital necessary to address regional and global concerns are 
equally essential. It is neither in Europe's nor the United 
States interest to allow the transatlantic bargain that has 
done so well over the last decade to drift into irrelevance. If 
the Chicago summit credibly reaffirms that bargain, it will 
serve as an important if not inspiring benchmark of American 
commitment and European ambition regarding the transatlantic 
alliance.
    Thank you for the opportunity to share my views.
    [The prepared statement of Mr. Brzezinski follows:]

              Prepared Statement of Dr. Ian J. Brzezinski

    Chairman Kerry, Ranking Member Lugar, members of the committee, I 
am honored to speak at your hearing on the upcoming meeting of NATO 
heads of state in Chicago on May 20.
    As a former Senate staffer, who served this committee and prior to 
that the late Senator, William V. Roth, it is a real pleasure to return 
to these Halls. It makes me recall the strong, bipartisan leadership 
this committee brought to the effort to extend NATO membership to the 
democracies of Central Europe. Those were historic decisions. They 
strengthened the alliance and transatlantic security.
    The Chicago summit will be important in large part because of the 
context in which it takes place. That context includes:

  <bullet> A war in Afghanistan from which both the United States and 
        Europe appear to be disengaging;
  <bullet> Economic crises on both sides of the Atlantic that have 
        atrophied European defense capabilities;
  <bullet> A qualified success in Libya that nonetheless raised 
        questions about U.S. commitment to NATO and highlighted 
        European defense shortfalls; and,
  <bullet> The new U.S. defense guidance that features a pivot to Asia 
        and reduction in American forces stationed in Europe.

    Some have asserted that the NATO meeting in Chicago should be an 
``implementation summit'' that focuses on Afghanistan and reviews 
alliance progress under its new Strategic Concept promulgated in 2010. 
In the light of the above, that will be insufficient. That would 
reinforce a sense of NATO's growing irrelevance and further a process 
of transatlantic decoupling.
    If the Chicago summit is to have one principal, overarching 
purpose, it should be to provide credible reaffirmation of the 
Transatlantic Bargain--one in which the United States demonstrates 
commitment to Europe's regional security interests and our European 
allies demonstrate that they stand ready to address global challenges 
to transatlantic security.

                     WHY IS NATO RELEVANT TO TODAY?

    Today, the transatlantic community lacks consensus over how to 
address the unprecedented dilemmas inherent in global connectivity and 
interdependence. Advances in transportation and the ongoing revolution 
in communications have facilitated the spread of prosperity, respect 
for human rights, democratic principles of governance, among other 
positive attributes of modernity. However, these benefits have also 
been accompanied by challenges, including transnational threats, 
sociopolitical upheavals, and a decentralization of global power.

    Transnational Threats: Among the most urgent of these threats has 
been the proliferation of technologies pertaining to weapons of mass 
destruction, missiles and other means than can be used to terrorize, if 
not severely damage, societies. These threats have been accompanied by 
the emergence of powerful and sometimes dangerous nonstate actors, the 
latter including criminal and terrorist organizations whose ideological 
and operational reach span across continents.

    The Global Political Awakening: The revolution in communications, 
including global television, the Internet, and cell phones, now links 
previously isolated populations, exposing them to each other's 
economies and cultures, politics, standards of living and ideologies. 
The result has been recent events in Iran, Tunisia, Egypt, Bahrain, 
Iran, and Russia--referred to as a ``global political awakening'' by 
Zbigniew Brzezinski [full disclosure--he is my father \1\] and it is a 
a double-edged sword.
    It can bring down dictators, end corrupt autocracies, and create 
opportunities for democracy, reform, and accountability in government. 
It can also be an impatient force, one prone to violence especially 
when it is driven primarily by sentiments that flow from inequity and 
injustice. As demonstrated in Russia and the Middle East, this 
political awakening often generates social upheaval in the absence of 
leadership, a clear platform or ideology. In these cases, especially if 
events take a destructive turn, this upheaval can leave societies 
vulnerable to organized groups intent on leveraging dangerous 
ideologies.

    The Rise of the Rest and the Dispersal of Power: What some have 
called the third strategic revolution involves a profound shift in the 
global balance of power.\2\ If 1991 marked a brief unipolar moment 
featuring a globally preeminent United States, globalization has 
contributed to the emergence of a more complex constellation of actors 
with global reach and ambitions. These include China, India, Brazil, 
Russia, and could well include others in the future.
    The implications of these three separate but related dynamics for 
the transatlantic community are both urgent and profound. Today's world 
is one where the United States, even in collusion with Europe, is no 
longer as predominant as it was in the past. The rise of new powers has 
resulted in a dispersion of global power away from the West and to 
other regions of world.
    The emergence of new powers with regional, if not global, 
aspirations is often accompanied by territorial claims, historic 
grudges, and economic demands that can drive geopolitical tension, 
competition, and collision. These increase the likelihood of regional 
conflicts. They make consensual decisionmaking more difficult, and they 
yield a world that is more volatile and unpredictable.
    Managing this new global order and its proclivity to uncertainty, 
if not violence, is the defining challenge of our time. Its effective 
management will require:

  <bullet> Economic resources that can be readily mobilized to foster 
        economic development, if not to stave off, economic crisis 
        consequent to upheavals;
  <bullet> Military capabilities that are expeditious and can be 
        readily integrated with civilian efforts, including those 
        fostering economic and political development;
  <bullet> Political legitimacy that is optimized through multilateral 
        versus unilateral action.

    It is due to these requirements that the transatlantic community 
and its key institutions, the North Atlantic Treaty Organization (NATO) 
and the European Union (EU), have grown in importance. Indeed, due to 
the growing complexity and turbulence of the post-cold-war era, the 
democracies of North America and Europe need each other more rather 
than less. Their respective ability to shape the world order is diluted 
by divergence and strengthened through collective action.
    The transatlantic community brings to the table powerful capacities 
in each of these three dimensions. Europe and North America constitute 
the world's most important economic partnership, and that will remain 
the case for the foreseeable future. Today, the EU and U.S. account for 
54 percent of world gross domestic product (GDP). In 2010, the U.S. 
generated $15 trillion in GDP, the EU $16 trillion. (China in contrast 
produced $6 trillion in GDP and today lacks partnerships akin to that 
between the United States and Europe.\3\)
    Second, the cornerstone of the transatlantic community, NATO, 
remains history's most successful multinational military alliance. It 
is unmatched in its ability to generate and sustain interoperability 
among military forces, an increasingly challenging requirement in 
battlefields where operations are ever more technologically complex and 
whose technologies evolve ever more rapidly. In this regard, the value 
of NATO has been vividly demonstrated by coalition operations in 
Afghanistan, Iraq, and Libya.
    Third, members of transatlantic community, particularly the newest 
members of NATO and the EU, offer experience useful to societies in 
North Africa and the Middle East transitioning from authoritarian to 
more democratically accountable systems of governance buttressed by 
market-based economies.
    Fourth, the transatlantic community presents a collective of 
likeminded democracies--and herein lies a vision for its role in the 
global order of today and tomorrow. It can serve as the core of a 
geographically and culturally expanding community of democracies that 
act collectively to promote freedom, stability, and security around the 
globe.
    In a world where power is more dispersed, only by operating in 
concert will the nations of Europe and North America be able to tap 
this potential in the effort to manage the complex volatility 
consequent to the challenges posed by transnational threats, 
sociopolitical upheavals, and a shifting global balance of power.

                 REVITALIZING THE TRANSATLANTIC BARGAIN

    Herein, lies the challenge before President Obama and his NATO 
counterparts when they meet in Chicago on May 20. In order for that 
potential to be tapped, the transatlantic bargain that sustained the 
alliance during the first decade of the cold war must be revitalized. 
Toward that end the United States should pursue five objectives in 
Chicago if this summit is to be remembered as moment of transatlantic 
renewal rather than transatlantic disengagement.
    First, the President must credibly reaffirm Europe's centrality in 
U.S. global strategy. The drifting apart of the two continents has many 
causes, but they include a U.S. transatlantic agenda whose dominant 
elements recently have been a vaguely defined reset of relations with 
Russia, a defense guidance that articulates a pivot to Asia, and 
reductions of combat capability deployed in Europe.
    This has left many with the impression that America views Europe as 
increasingly irrelevant to U.S. interests in the world at large. The 
force reduction decisions generate questions about America's commitment 
to NATO's article 5 responsibilities. The decision to withdraw two of 
the four Brigade Combat teams deployed in Europe contradicts the 2010 
posture statement to Congress of the U.S. Commander of EUCOM, Admiral 
James Stavrides who stated: ``Without the four Brigade Combat Teams and 
one tactical intermediate headquarters capability, European Command 
assumes risk in its capability to conduct steady-state security 
cooperation, shaping, and contingency missions. Deterrence and 
reassurance are at increased risk.''
    The fact that U.S. drawdowns in Europe occur in the context of an 
increasingly assertive Russian foreign policy, rising Russian defense 
expenditures, and increased Russian military deployments along the 
country's western frontiers only adds to a sense of regional 
consternation. The belligerent tone of Russian policy was recently 
underscored by the Chief of the General Staff of the Armed Forces of 
Russia, General Nikolai Makarov, who threatened to launch preemptive 
strikes against missile defense sites the U.S. plans to build in 
Central Europe.
    The United States should remove the conditionality it has placed 
over those missile defense sites. That conditionality not only 
undercuts European confidence in the U.S. commitment to the European 
Phased Adaptive Approach, it encourages and incentivizes the Kremlin's 
opposition to its implementation.
    U.S. military reductions in Europe will make it even more important 
to ensure that those elements remaining are fully equipped and funded. 
Additionally, careful consideration needs to be given to how the U.S. 
and Europe will sustain interoperability between their military forces. 
American units stationed in Europe are highly effective, low cost force 
multipliers. They facilitate training, planning, and relationships 
essential for U.S. and European forces to fight together effectively in 
Europe and elsewhere.
    Recognizing this, the Obama administration promised to increase 
rotational deployments to Europe. But, it will be challenging for a 
unit that rotates to Europe for 6 to 8 weeks a year to match the 
engagement a unit permanently stationed there has with its European 
counterparts.
    The administration has yet to communicate when and what units will 
execute those exercise rotations. It would be appropriate and 
reassuring to NATO allies to have that training schedule articulated by 
the time of the Chicago summit. Continued ambiguity on this issue 
communicates disinterest not just in Europe's regional security, but 
also in Europe's role as a military partner in out of area operations.
    Second, the Chicago summit should be used to reanimate the vision 
of a Europe whole, free, and secure as a guiding priority for the 
transatlantic relationship. This vision has been largely sidelined 
since the 2008 NATO summit in Bucharest. While it may be too late to 
generate the consensus necessary for new invitations at Chicago, the 
summit should nonetheless leverage the process of enlargement forward, 
particularly concerning the candidacies of Macedonia, Montenegro, and 
Georgia.
    NATO enlargement has strengthened the transatlantic community by 
integrating nations into community of free-market democracies committed 
to each other's security. A Europe that is undivided, whole, and free 
would be a more stable and secure continent and one better able to 
address global concerns in partnership with the United States.
    Imagine a Europe today that did not integrate Poland, the Baltics 
and Romania, Bulgaria, into NATO? Would the EU have integrated these 
countries? Would Russia and Poland be on the path today toward 
normalized relations?
    Abandoning this vision would have strategic consequences. It would 
undercut those in aspirant countries--and for that matter Kiev--who 
seek a future for their countries in the transatlantic community. It 
would reinforce those in the Kremlin nostalgic for a sphere of 
influence over Russia's periphery vice those who see value in normal, 
cooperative relations with neighboring democracies.
    To revitalize the process of NATO enlargement at the Chicago 
summit, NATO heads of state can and should:

  <bullet> Declare its intent to issue invitations to qualified 
        aspirants no later than the next summit;
  <bullet> Underscore the urgency of resolving Macedonia dispute with 
        Greece over the former's name, the last remaining obstacle to 
        Skopje' accession to the alliance;
  <bullet> Assert that Georgia's path to NATO can be through the NATO-
        Georgia Commission; and,
  <bullet> Applaud Montenegro's significant progress under the 
        Alliance's Membership Action Plan.

    The Chicago summit presents the alliance an opportunity to make 
clear that its ``open door policy'' is neither a passive phrase nor an 
empty slogan. The open door policy needs to be both a guiding vision 
that extends to all Europe's democracies and an active, forward-moving 
process central the alliance's security strategy.
    Third, the alliance must chart its way forward in an era of 
financial austerity. The Chicago summit occurs in the midst of a 
prolonged economic crisis on both sides of the alliance, but in Europe 
it has exacerbated an endemic problem of eroding European military 
capabilities. A study by the Center for Strategic and International 
Studies (CSIS) recently found that total defense spending for 37 
European countries had declined by an average of 1.8 percent annually 
between 2001 an 2009, from total of 251B Euros to 218B. Today, only two 
European NATO members spend 2 percent of GDP or more on defense.
    The qualified success of NATO forces in Libya last year highlighted 
this crisis in underinvestment in European military capabilities. 
During Operation UNIFIED PROTECTOR, European allies ran short of 
precision-guided munitions and found themselves dependent upon U.S. 
intelligence, surveillance, and reconnaissance capabilities and 
refueling planes, among other critical assets.
    Resource constraints are a double-edged sword. They can halt 
multinational cooperation, undermine capabilities and generate division 
within the alliance. We see this today as Central Europeans watch 
aghast as German, French, and Italian firms sell military equipment to 
Russia in their effort to sustain their respective defense industries.
    Austerity can also be leveraged to drive forward needed 
prioritization, innovation, and collaboration. Toward this end, NATO 
Headquarters and Allied Command Transformation are driving forward a 
capabilities package at the summit consisting of a Smart Defense 
Initiative intended to foster pooling and sharing of resources, a 
Connected Forces Initiative to improve training and exercises and Force 
2020, a long-term plan defining the forces the alliance should be able 
to bring to the battlefield at the end of this decade.
    The alliance's capability shortfalls are real and urgent today. 
NATO has worked diligently to foster Smart Defense initiatives in areas 
of logistics and sustainment, force protection, training, intelligence, 
surveillance and reconnaissance, and combat operations. The summit's 
capability emphasis should focus on these projects to which allies can 
sign up today and deliver in the near term.
    Capability development need not always be revolutionary and 
dramatic. In an age of austerity, the focus should be on the practical 
and attainable. Such projects are not only needed for operational 
purposes, they are more credible to NATO publics than promises 
concerning the distant future.
    Fourth, the Chicago summit should be used to expand and deepen the 
partnerships the alliance has developed around the world. The 
globalized and increasingly hybrid character of today's challenges make 
it important for the alliance to expand and deepen its relationships 
with nongovernmental organizations and nonmember states around the 
globe. They have been of great value to NATO's efforts in Afghanistan, 
Libya, and elsewhere. They include the military and financial 
contributions of Sweden, Australia, New Zealand, Korea, Jordan, the 
UAE, Qatar and Morocco, among others.
    Partner contributions bring more than military forces. They can 
also serve vital political purposes and provide invaluable insight and 
intelligence specific to the cultural, historical, political, and 
geographic realities of their respective localities, be it the Greater 
Middle East, Asia, or Africa.
    NATO should expand the Partnership for Peace so that is open to all 
who qualify and who seek to participate regardless of geography. It 
should be tiered to reflect the degree of engagement and integration 
sought by member states. Those who make regular and significant 
contributions to NATO operations--such as Sweden, for example--should 
be eligible for a process that certifies them as interoperable with 
NATO forces. That certification should make them eligible for specified 
NATO programs, including: exercises; training; the integrated command 
structure; civilian agencies; centers of excellence; and, 
decisionmaking structures overseeing operations in which their forces 
are employed.
    Global partnerships are an absolute requirement for an alliance 
that has to be engaged around the world. They constitute one important 
means by which the transatlantic community, as a whole, can ``pivot'' 
from the challenges of the past to those of today and tomorrow.
    Finally, NATO must demonstrate unambiguous determination to sustain 
a stable Afghanistan. At its last summit in Lisbon in November 2010, 
the alliance and the Afghan Government agreed to a transition strategy 
intended to shift to Kabul full responsibility for security across all 
of Afghanistan. At Chicago, NATO aims to map out a strategic 
partnership with Afghanistan that will endure well beyond 2014. The 
U.S.-Afghanistan Strategic Partnership, even if it is fleshed out 
robustly, will likely be insufficient to ensure success in Afghanistan 
in the absence of a long-term transatlantic commitment to the Afghan 
people.
    Failure in Afghanistan would present its own negative regional 
consequences. It would also be a serious blow to the credibility of the 
alliance and, thus, to the commitment of its member states who have 
sacrificed much largely out of resolute solidarity with the United 
States.

                               CONCLUSION

    Strong U.S. leadership has always been a prerequisite for NATO's 
vibrancy and success. Likewise, Europe's ability to contribute the 
military forces and political capital necessary to address both 
regional and global concerns are equally essential to the alliance's 
relevance. It is neither in Europe's nor the United States interest to 
allow the Transatlantic Bargain to drift into irrelevance.
    The Chicago summit presents the United States an opportunity to 
contribute to the revitalization of the Transatlantic Bargain:

  <bullet> Through robust military engagement with Europe, the United 
        States would reinforce the credibility of its commitment to the 
        North Atlantic Treaty and sustain, if not improve, the ability 
        of European and U.S. forces to operate together within and 
        beyond the North Atlantic area.
  <bullet> By leading the effort to fulfill the vision of a unified, 
        undivided Europe, the United States would drive forward a 
        process that strengthens Europe's stability and security and 
        thereby reaffirm the centrality of Europe in America's global 
        strategy.
  <bullet> By ensuring that the Alliances' Smart Defense initiatives 
        feature not just long-term vision but also practical near term 
        initiatives, the U.S. will help NATO address urgent shortfalls 
        and in a manner credible to its increasingly skeptical publics.
  <bullet> By leveraging the potential offered by a network of NATO 
        global partnerships, the United States and Europe can play a 
        more effective role together addressing the global challenges 
        that already define this century.

    In these ways, the Chicago summit can emerge as an important, if 
not inspiring, benchmark of American commitment and European ambition 
regarding the Transatlantic Alliance.

----------------
End Notes

    1. Brzezinski, Zbignew, ``Strategic Vision: America and the Crisis 
of Global Power.'' Basic Books, 2012. This work also influenced the 
section on the dispersal of global power.
    2. For insight into the emerging global balance of power and its 
ramifications see: Brzezinski, Zbigniew, ``Strategic Vision'' and 
Zakaria, Fareed, ``The Post American World: 2.O.'' W.W. Norton & 
Company, 2011.
    3. For an insightful annual survey of the EU-U.S. trade 
relationship, see Daniel Hamilton and Joseph P. Quinlan (eds.), ``The 
Transatlantic Economy 2012,'' Center for Transatlantic Relations, Johns 
Hopkins University, 2012.

    Senator Shaheen. Thank you very much.
    Let me just point out that you mentioned the report that 
was done that Senator Lugar had requested on the recent sales 
of military equipment. I would just like to point out we will 
be submitting that for the record. So thank you for raising 
that.

[Editor's note.--The submitted report mentioned above was too 
voluminous to include in the printed hearing. It will be 
maintained in the permanent record of the committee.]

    Senator Shaheen. Dr. Binnendij.

 STATEMENT OF DR. HANS BINNENDIJK, VICE PRESIDENT FOR RESEARCH 
AND APPLIED LEARNING, NATIONAL DEFENSE UNIVERSITY, WASHINGTON, 
                               DC

    Dr. Binnendijk. Madam Chairman, Senator Udall, let me also 
say that it is a great pleasure to be back testifying before 
this committee. I spent nearly a decade of my life in those 
seats back there serving this committee on both sides of the 
aisle. And I was just recalling that my first boss up here was 
Hubert Humphrey after he left the Vice Presidency. So I am sort 
of dating myself.
    I wanted to make just a few very general comments about the 
summit and then focus in on what I was asked to talk about, 
which is military and defense capabilities. And I might ask 
that my full statement be placed in the record and I will just 
ad lib a little bit if I might.
    First, let me say that if you look at past summits, they 
often tend to be turning points in the direction of the 
alliance. If you look back to the Rome and London summits, it 
was really turning the alliance from a cold-war organization to 
one that would endure for other missions. Madrid was about 
enlargement, really a change in the alliance. Prague was about 
military transformation of the alliance. Lisbon was a new 
strategic concept and a new direction for the alliance 
politically.
    So the question is what will be the focus of the Chicago 
summit? And I think the headline will certainly be Afghanistan, 
Senator Udall, and the kinds of questions that you were 
focusing on. It will be about how do you transition, how do you 
keep the ``in together/out together'' formula, and what is the 
formula for the post-2014 period.
    But I think the other two elements of the summit, both 
capabilities and partnerships, are also very important. Dr. 
Kupchan talked a bit about partnerships. I think this is 
extremely important because the alliance basically will not 
fight by itself anymore. Wherever it goes in out-of-area 
operations, it is going to have partners, and it needs to have 
capable partners.
    I do not see this particular summit basket as being full at 
this point. I think more work needs to be done. I think there 
are real opportunities to make our partners interoperable, to 
certify that, to give them better consultation arrangements, 
and I think a bit of work could still be done between now and 
Chicago on that.
    But let me turn my attention to military capabilities 
because that is what I was asked to talk about. I want to raise 
four problems, and I will argue that the summit will take 
positive steps in each case to begin to alleviate those 
problems.
    The first problem has been addressed already in some depth. 
That is the collapse of European defense spending. A little 
over a decade ago, the United States spent about half of total 
NATO defense spending. Right now, it is about 69 percent. The 
United States today spends about 4.8 percent of its GDP on 
defense. The alliance average now is about 1.6 and falling. 
That 2-percent figure that we talk about--there is only a 
handful of European allies who spend that much. And that 
creates problems.
    Personnel costs have remained about the same for European 
militaries. They are funding operations out of their current 
budgets while we fund them out of supplementals. So what does 
that mean? It means that their investment accounts and their 
procurement accounts are being hurt very badly. That is about 
the future. So they are cutting into their future defense 
capabilities.
    Their cuts are not being coordinated with NATO or really 
with many others. These are national decisions and that has to 
change.
    We have done an assessment at NDU about the impact of this, 
and we have seen what you might call horizontal cuts initially 
where you are cutting across the force, and that tends to 
hollow out. It tends to make the forces less ready, less 
sustainable. And now they are moving to vertical cuts where 
they are taking entire chunks of capability out of the force. 
You see this with the Dutch in armor. You see it with the 
Danish in submarines. You see it with the British and their 
carrier capabilities. So this is a problem for the future.
    Now, the summit I think will take some steps in the right 
direction. I think we are going to see some kind of a 
commitment out of the summit to identify the core capabilities 
that the alliance needs and to try to protect that core and to 
also create kind of an aspirational view of where we should be 
going, and that would be called NATO Force 2020. I think the 
summit will continue the Lisbon capabilities commitment and the 
work that was done there, and it will continue the command 
structure reform.
    What will be new here is what Secretary Rasmussen has 
called ``smart defense.'' That is really about pooling and 
sharing. Somebody referred to it as ``let us go buy together.'' 
That is not a bad start. There will be about 20 projects or so 
that will be put on the table at Chicago to demonstrate that 
smart defense will have some meat on the bones.
    And then there will be what is called a connected force 
initiative. The danger here is that the military 
interoperability between the United States and our European 
allies is very important and very fragile. We have good 
interoperability now because of combined operations in 
Afghanistan and Libya, but ISAF will end so we need to start 
thinking now about how to continue to maintain that 
interoperability. There will be an initiative at the summit to 
try to do that.
    I think more needs to be done to deal with this problem. We 
need to put smart defense on steroids. My view is that as 
things get worse, we are going to have to have a much higher 
degree of role specialization within the alliance. Clusters of 
allies will need to become responsible for certain missions. 
This means allies will have to be able to trust their fellow 
allies. If they are going to concentrate on a certain 
capability, a certain role or mission, they are going to have 
to trust allies. That trust is not there yet. So we have to 
build that trust and move in that direction.
    I think our own EUCOM command needs to become much more of 
an interoperability command. EUCOM has been sort of a lily pad 
where we move U.S. troops to forward areas of operations: 
Afghanistan, Iraq in the past. That has to change. EUCOM has to 
be about maintaining the interoperability of our forces. And as 
I said, we need to do much more with our partners.
    The second problem is missile defense. You know the story 
here: The Iranian threat is building; Russia is trying to limit 
the European Phased-Adaptive Approach and to get as much of a 
veto over its future as they can.
    I think missile defense is a success story for the summit. 
There is a consensus in the alliance that we need to move 
forward with missile defense, and that is a really solid 
consensus and it is a good thing. We will be able to announce 
at the summit that there will be an interim capability for 
missile defense. If you look at both the technical and the 
political achievements here over the last couple of years, they 
are great. We have deployed a missile defense radar in Turkey. 
We will be deploying missile interceptors in Romania and 
Poland. We will be home-porting Aegis destroyers in Rota, 
Spain. We have got agreement on a command and control system 
for the alliance called ALT BMD. And the Dutch and others will 
be building up their sea borne radar capability. So there is a 
whole long list of things that the allies have done to build on 
this consensus, and I think that is good news.
    The problem in all of this, of course, is that we cannot 
get the Russians to cooperate. I think they are concerned about 
countries in their so-called ``near abroad'' that are 
participating in this, and they are concerned about where phase 
III and phase IV of the EPAA will go. Will it represent some 
threat to their deterrent capability? The United States has 
gone out of our way to assure them that it will not undermine 
their deterrent capability.
    I do think it is important for us continue to try 
cooperation with the Russians, and this is very important. It 
is standing in the way of other things. But we should not cross 
redlines and I do not think we will. So far, the Obama 
administration in my view has been very successful in putting 
forward good ideas to the Russians but not crossing those 
redlines.
    The third problem has to do with nuclear deterrence. I was 
asked to say a few words about the Deterrence and Defense 
Posture Review. This is really about nuclear deterrence in 
Europe. We have perhaps a few hundred U.S. nuclear weapons that 
are forward-deployed in Europe, and as we know, the Germans and 
others have been putting pressure on the system to reduce those 
numbers.
    The Strategic Concept that came out of the Lisbon summit 
designed a very nice formula for this. It said that the 
alliance will remain a nuclear alliance as long as there are 
nuclear weapons, but we will try to create the conditions for 
further reductions; there would be no unilateral action, and 
that the aim of all of this should be to create greater 
transparency for Russian substrategic systems and to get these 
Russian systems relocated out of Europe. I think that is a good 
formula.
    What happened subsequently is that there was additional 
pressure to try to change that Lisbon formula, and I think that 
was what was behind the Deterrence and Defense Posture Review. 
To its credit, I think the administration has been able to work 
with that Deterrence and Defense Posture Review. And it has not 
been made public yet, but I believe the conclusion of that 
review is that the current mix is sound. And that is an 
important conclusion to obtain.
    The fourth problem is--and Ian mentioned this--reassurance 
on article 5. I was privileged to work with Secretary Albright 
on NATO's new Strategic Concept. I was one of her advisors to 
the group of experts. This article 5 reassurance problem was 
probably the single most important issue that we tackled. And 
out of our work and in the new NATO Strategic Concept there is 
a very clear statement about the importance of article 5.
    What has happened subsequently is that both European 
defense cuts and also Russian intimidation has led to some 
opening up of that question again. Is reassurance really what 
we said it would be at Lisbon with regard to article 5?
    I think a number of things have happened since then that 
should give comfort to our eastern allies. One is that we now 
have new plans to deal with problems, threats from that part of 
the world, and we will be exercising those plans; for example, 
Steadfast Jazz is coming up next year. Baltic air policing will 
be continued at least through 2018 and probably beyond. The 
NATO Response Force, which Ian and I worked on many years ago, 
will be revitalized and refocused on article 5. The United 
States has F-16 training programs in Poland and will retain a 
base in Romania. So this is just a few examples of the steps 
that we have taken as a nation and as an alliance to reassure 
our eastern allies that article 5 remains vital. There is more 
that can be done, but I think those are important first steps.
    So I have laid out these four problems, and my argument is 
that at the summit and within NATO, we are taking steps to deal 
with all those problems. That does not mean they go away as 
problems, but steps are taken to deal with them.
    Thank you, ma'am.
    [The prepared statement of Dr. Binnendijk follows:]

               Prepared Statement of Dr. Hans Binnendijk

    It is a great pleasure for me to appear before this committee 
again. I spent nearly a decade working on the staff of this committee. 
NATO is focused on the Chicago summit. Past summits have marked major 
turning points in NATO's direction. For example the Prague summit will 
be remembered for transforming NATO's military capability, and the 
Lisbon summit will be remembered for shifting the alliance's political 
focus with a new Strategic Concept. This summit will not mark a major 
turning point in NATO's direction. Instead it will be a celebration of 
renewed NATO cohesion. At the center of the summit will be an agreement 
on NATO's ongoing commitment to Afghanistan.
    The second key item on the summit agenda behind Afghanistan is the 
Alliance's military posture. That is what I would like to discuss with 
the committee today. Let me divide my testimony into three parts and 
discuss in turn: (1) NATO's conventional capabilities, (2) European 
missile defense, and (3) NATO nuclear deterrence and the Deterrence and 
Defense Posture Review. My general conclusion is that while there are 
difficult challenges in all three areas, the alliance is postured to 
make progress in all three areas at the Chicago summit.

                   CONVENTIONAL DEFENSE CAPABILITIES

The Economics of European Defense Spending
    The impacts of economic austerity since 2008 on European defense 
spending and forces have been significant and are far from over. The 
situation is especially acute because the recent downturn began from an 
already low level of defense investment.
    At the end of the cold war European NATO members were spending an 
average of 2.7 percent of GDP on defense (in constant 2010 dollars). 
Soon thereafter budgets declined precipitously as European public 
sentiment forced a ``peace dividend'' from which Europe has yet to 
recover. In 2001 NATO's European members spent an average of 1.9 
percent of GDP on defense. This aggregated to $279.8 billion, compared 
to the U.S. defense budget of 3 percent of GDP, or $385 billion. These 
figures equate to 41 percent and 57 percent of total NATO defense 
spending for European NATO members and for the United States 
respectively.
    In 2011, the latest data available, NATO's European members 
averaged just 1.6 percent of GDP or $282.9 billion spent on defense 
while the United States spent 4.8 percent of GDP or $685.6 billion on 
defense. These figures equate to 69 percent and 28 percent of total 
NATO defense spending for European NATO members and the United States 
respectively. (In both 2001 and 2011, Canada provides the other 
approximate 2-3 percent spending to round up to 100 percent of NATO 
spending.) The near term future is not bright: today 11 European 
countries both within and outside of the eurozone are officially in 
recession for a second time in 4 years.
    European capabilities have contracted over this long period of flat 
or lower spending for two reasons. First, personnel costs have remained 
relatively fixed even as overall troop strength has declined. Second, 
unlike the United States, Europeans fund operations such as Kosovo and 
Afghanistan out of annual budgets without supplemental funding. The 
only relief is to shrink defense investment accounts even as the costs 
of new systems increase.
    Overall European defense spending in NATO is also less efficient 
for the obvious reason that spending is disaggregated across 26 
separate national military structures and defense bureaucracies. Added 
to these realities is the gradually growing investment in European 
Union level structures: those institutions that give visibility and 
some substance to the concept of a Common Security and Defense Policy 
(CSDP), intended as a complement NATO at the low end of the military 
spectrum. CSDP is a positive development endorsed by the United States, 
however it is not without cost.
    Why has Europe invested so little in its own defense over so long; 
a period unprecedented in modern times? Three reasons underlie this 
trend. First, most Europeans do not perceive a major military threat, 
resulting in little appetite for increased defense spending. Since the 
cold war European public concern for defense has lingered at less than 
10 percent and from 2003-2011 eurobarometer polls show only 1-2 percent 
of Europeans select defense or foreign affairs among their uppermost 
concerns. Second, the financial crisis of 2008 that persists across 
Europe puts further pressure on governments to avoid increases in 
defense, especially as recent public protest signal that austerity 
measures may have reached their political limit. Finally, Europeans 
know they can rely on the United States for strategic deterrence and 
defense and for operational crisis response in situations such as 
Libya. From this vantage point, they spend enough to remain credible 
allies in some areas. Beyond this vague threshold, allies are focused 
on domestic priorities.

NDU Assessment of European Defense Cuts
    In summer 2011 NDU undertook an analysis of the impact of national 
cuts in defense spending across Europe. Special attention was given to 
the situations in seven key allied countries. We found that since 2008 
most European cuts were typical of earlier downturns but much deeper. 
We termed these across the board budget reductions ``horizontal cuts.'' 
They affected all national forces through reduced training and 
exercises, gapped personnel billets, diminished stocks of fuel and 
munitions, stretched out maintenance and deferred modernization. 
Transformation initiatives were slowed or ground to a halt.
    More drastic cuts were also observed, where nations eliminated 
whole categories of capability, or most of a capability, in order to 
stay within available budgets. We call these ``vertical cuts.'' One 
example is the Dutch decision to discard all remaining armored forces, 
rather than continue to trim across the board. Once eliminated, 
restoring basic defense capabilities such as armored forces is a long-
term proposition. In essence such cuts redefine national defense 
strategies in a fundamental way. With the Dutch decision six NATO 
members have no armored forces (Estonia, Iceland, Latvia, Lithuania, 
Luxembourg, and the Netherlands). These nations must rely on other 
allies for such capabilities. In recent years, Denmark has eliminated 
submarine forces and the U.K. has retired its carrier-based naval 
aviation for an anticipated period of 10 years.
    The biggest impact to date is on the readiness and sustainability 
of existing forces. Nations focus their spending on deployed or 
deploying forces to the neglect of their wider forces. NATO is at risk 
of having far fewer forces ready and able to deploy. There is a limit 
to how far horizontal cuts can be made before units become untenable as 
a result of inoperable equipment or untrained and missing personnel. It 
would appear these limits are being approached and that the only 
choices that remain are to spend more or cut force structure; i.e, more 
vertical cuts. The number of allies able to maintain their current 
spectrum of capabilities, especially in combat brigades, naval 
combatants and strike aircraft will diminish over the next 10 years 
without additional defense spending by allies.
    European defense spending cuts will therefore soon open 
unacceptable gaps in the capabilities military commanders deem 
essential to perform the alliance's three strategic tasks of collective 
defense, crisis management, and cooperative security. In order to keep 
the risk of that outcome low, NATO has to channel near-term national 
defense spending into efforts that close gaps and provide the optimum 
capability for each nation's investment.
    There is some good news in this otherwise dim picture of 
conventional European defense capabilities. Taken as a whole, NATO 
Europe is still the second strongest military power in the world. They 
are willing to use their power; for example, 90 percent of all 
ordinance dropped on Libya was delivered by Europeans. And some 
progress has been made on ``high end enablers'' such as air to ground 
surveillance, joint intelligence surveillance and reconnaissance, the 
decision to broaden AWACS to all NATO allies, and the European Union 
initiative on refueling tankers. This will shift some of the burden 
from the United States since we usually supply these high-end enablers 
to the alliance. The problem is that the European firepower that these 
enablers support is being cut by perhaps 20-30 percent or more.

The Upcoming NATO Summit--Opportunities for Solutions
    The Chicago summit provides an important opportunity for NATO to 
help members realize the most from their defense investments. In so 
doing, it will generate the optimum collective return from limited 
national investments.
    First, NATO must agree at the summit on a core set of required 
capabilities commanders really must have to perform the three strategic 
tasks cited above. This will likely be something less than what NATO 
commanders consider the minimum requirement for all stated goals yet it 
has to establish what NATO needs to remain credible to its members; and 
to any possible adversary across the spectrum of military missions. At 
the summit, NATO heads of state and government should endorse a pledge 
not to reduce any of these required core capabilities if forced to 
further cut defense spending.
    Second, NATO should define at the summit an aspirational goal 
force, what some are already calling NATO Force 2020. This should 
describe what a future NATO force should look like when the current 
financial crisis passes and defense spending recovers. This force 
should be capable of performing the full level of ambition in terms of 
the continuous and concurrent NATO operations agreed by nations in 2006 
and reaffirmed in 2011. NATO has not been capable of this level of 
operations for several years. At Chicago it must set a longer term goal 
of providing the forces to match its political aims.
    Third, the Chicago summit must reaffirm the 11 critical capability 
commitments agreed by heads of state and government at their last 
summit in 2010 at Lisbon. Significant progress has been made since then 
on all 11 in spite of the financial crisis. That is laudable and 
encouraging. Chicago has to maintain momentum on these critical 
programs, all of which were carefully weighed and selected at a summit 
also framed by the pressures of financial constraints. Follow through 
at this next summit is an important political signal.
    Fourth, NATO leaders must press the alliance to move ahead with 
command structure and agency reforms approved at Lisbon. These are 
already being vigorously pursued. They will cut costs and streamline 
NATO institutions for the management of alliance political, military 
and administrative business. It is essential that overhead costs be 
controlled and, wherever possible, reduced. NATO has a good plan to 
achieve these goals, but it will take several more years of strong top-
down emphasis to put all reforms in place.
    Fifth, Secretary General Rasmussen's 2011 concept of Smart Defense, 
NATO's new capabilities initiative, should be endorsed and put into 
action. Allied Command Transformation has already identified about 20 
specific Smart Defense projects aimed at greater efficiencies through 
multinational cooperation. More are anticipated. This year the 
Secretary General announced a related initiative called the Connected 
Forces Initiative. This initiative concentrates on deepening 
interoperability among NATO members and partners, through greater 
emphasis on education and training, more effective exercises--
especially for the NATO Response Force, and more adaptive technological 
interface among existing systems.
    Both Smart Defense and the Connected Forces Initiative should 
include strong links to the EU's parallel initiatives of pooling and 
sharing defense capabilities, being steered by the European Defense 
Agency. The NATO and EU initiatives are complementary and define 
cooperative efforts intended to get more capability out of what nations 
invest.

Steps Beyond Smart Defense
    NATO's Smart Defense concept opens a new horizon in multinational 
cooperation that should be pushed beyond the initial steps described 
above. As European cuts continue, we will need Smart Defense on 
steroids. Agreements to date are concentrated on cooperation in the 
areas of procurement, logistics, and training infrastructure--with a 
few operational exceptions. These will cut costs and promise real 
savings; hence they must be completed in the near term.
    A bolder goal should then be set. Clusters of NATO nations should 
be asked to agree to take on greater role specialization and focus on 
specific missions. Similarly equipped and like-minded allies and 
partners would form informal, core clusters of nations interested in 
honing specific capabilities relative to some of NATO's missions, both 
article 5 and non-article 5. NDU has called these Mission Focus Groups.
    This phenomenon has existed informally for a long time in the 
alliance in select areas and to great effect. NATO has standing 
maritime groups that refined operational capabilities over more than 10 
years in the Mediterranean (Operation Allied Endeavor). These forces 
are now committed to the antipiracy mission Operation Ocean Shield 
where much of the same skills are being applied. Another select group 
of allies focus on NATO nuclear mission expertise and capabilities and 
still another provides seasoned multinational capacity for air policing 
missions over the Baltic States. NATO defines many specific missions 
within the strategic tasks of collective defense and crisis management 
that are performed initially by a cluster of allies with the best 
capabilities and often proximate to the mission area.
    Allies are not prepared to accept this bolder concept of mission 
focused groups at Chicago. It requires a high degree of trust that 
allied nations will provide capabilities another nation has given up to 
specialize in other missions. However, as the budget crisis persists 
and allies are forced to cut deeper into existing capabilities, much 
can be gained by working with allies to identify mission capabilities 
they will hold as their highest resource priorities. NATO should build 
on informal mission clusters already in being, and adopt the concept in 
other mission areas based on military advice, harmonization with the 
NATO Defense Planning Process and members' resource constraints.

The Chicago Summit Focus on a Future Role of the U.S. European Command 
        (EUCOM)
    In the future EUCOM becomes vital to U.S. operations worldwide as 
the strongest link to America's most capable and seasoned military 
allies and partners. At the Chicago summit the United States should 
emphasis its continuing commitment to NATO through EUCOM in light of 
announced force drawdowns in 2012 and 2013.
    NATO has 28 members: 32 formal partners and 9 informal partners 
participating or having participated in International Security 
Assistance Force (ISAF) operations in Afghanistan. By far most of these 
partners are in NATO and/or the Europe Union. Yet even the seven NATO 
partners in the Pacific region have come to adopt many NATO standards, 
tactics, and procedures over the past 10 years of ISAF operations. 
Maintaining this perishable reservoir of interoperable partners should 
be a primary mission of EUCOM as ISAF operations draw down.
    The core of EUCOM's efforts at partner engagement will be the new 
U.S. commitment to participate in the NATO Response Force (NRF) with 
elements of a brigade combat team (BCT) based in the United States and 
deployed annually to Europe for exercises with allies. The details of 
this commitment are yet to be worked out. However, EUCOM, DOD and the 
Congress should take a very broad view of partner engagement and build 
a strong transatlantic bridge that will sustain allied support for the 
U.S. worldwide. EUCOM should be the engine for engagement with all NATO 
members and partners. It should make its training areas available for 
allies. Deploying U.S. forces--air and maritime as well as land--should 
be programmed for engagement with forces of multiple allies and not 
limited to the NRF. It should study investing in forward command 
elements of a brigade and or corps in-theater to plan with allies and 
periodically exercise as part of the NRF's tactical and operational 
joint command structure.
    In order to reduce the impact of the withdrawal of the final two 
heavy Brigade Combat Teams from Europe by the end of 2013, the forces 
rotating to Europe to meet the U.S. commitment to the NRF should be 
heavy forces as often as possible. While the current trend is toward 
lighter forces, heavy forces are a reality in Europe where there are 
almost 10,000 main battle tanks among allies and partners. In contrast, 
the U.S. will soon have no main battle tanks in Europe for the first 
time since June 1944. That could have a negative effect on the 
confidence of some allies in the U.S. commitment to NATO, especially in 
Central and Eastern Europe where the main interest remains article 5 
preparedness.
    A wise investment would be to provide EUCOM with a prepositioned 
heavy BCT set of equipment, visibly maintained and exercised in theater 
as a political symbol of military resolve. Moreover, U.S. force 
deployments to exercises in Europe would be more affordable and 
therefore would be more likely to be sustained over the long term, as 
envisioned by the U.S. commitment.
    Given the global value of interoperable partners, Congress should 
consider establishment of an interoperability line in the DOD budget 
specific to EUCOM. This budget line should fund NRF participation, plus 
the maintenance and deepening of interoperability across all NATO 
members, partners, and future partners. The risk in requiring the 
funding of interoperability activities to come out of Service budgets 
is that it will be perpetually vulnerable to higher priorities and 
limited resources. EUCOM should be designated the global coordinator 
for U.S. interoperability, responsible to reach out to other COCOMs to 
ensure standards and agreements are consistent for all U.S. forces 
worldwide.
    EUCOM should look innovatively at a host of other initiatives that 
will nurture transatlantic interoperability, especially as the drawdown 
of forces under ISAF curtails operational multinational experience.

Partner Initiatives at the NATO Summit
    Given the vast numbers of partners in various organizational 
geometries, NATO needs to find ways to differentiate among partner 
levels of engagement with the alliance. A least common denominator 
approach is no longer the best, neither for NATO or its wealth of 
partners. Indications are that as many as 13 NATO partners will be 
present in Chicago, an ideal opportunity for the alliance to take steps 
to reshape its formal partnership programs along more functional and 
substantive lines. Partners could be invited to signal their 
willingness to work with the alliance more closely in operational 
areas. If mutually agreed, NATO would then design a concentrated 
program aimed at honing greater interoperability with these allies and 
establish an appropriate certification process. In turn, NATO would 
consult more closely with these partners when considering operations 
that affect their interests.

                 THE EUROPEAN PHASED ADAPTIVE APPROACH

    The threat that is driving U.S. (and NATO) missile defense efforts 
originates from the Middle East, primarily from Iran. In 2007, the Bush 
administration proposed creating a ``Third Site'' in Europe consisting 
of 10 long-range mid-course interceptors in Poland and a radar system 
in the Czech Republic. The Obama administration replaced that plan with 
a more flexible and responsive plan called the European Phased Adaptive 
Approach (EPAA). EPAA is based on the SM3 interceptor, deployed in four 
phases through 2020, on land and at sea. Throughout all four phases, 
increasingly capable versions of the SM3 will be introduced. The EPAA 
is designed to adapt in response to the evolution of the ballistic 
missile threat and BMD technology.
    The United States plans to make the EPAA its national contribution 
to the NATO missile defense plan. The United States is not alone 
fielding the capabilities or in bearing the costs for missile defense 
in Europe. There is a strong consensus in the alliance in support of a 
NATO-wide territorial missile defense capability, in addition to its 
already agreed position of defending deployed troops against missile 
threats. Getting this expanded consensus has been a political and 
technical achievement
    Major milestones include the following:

  <bullet> Agreement by the Turks to host a U.S. BMD radar. That 
        critical radar was deployed in December 2011.
  <bullet> Agreement by the Romanians and the Poles to host land-based 
        Aegis Ashore SM interceptor sites, in the 2015 and 2018 
        timeframes respectively.
  <bullet> Agreement by the Spanish to home-port four U.S. Aegis ships 
        with SM3 Interceptors, starting in 2014.
  <bullet> Deployment of the first U.S. Aegis BMD-capable ship (March 
        2011) to the Mediterranean Sea in support of EPAA.
  <bullet> Agreement by the alliance to fund the so-called ALT BMD 
        command and control program for territorial BMD. NATO now has a 
        BMD command and control center at Ramstein Air Base in Germany.
  <bullet> Agreement by the Dutch and potentially others to upgrade 
        radar systems for BMD use on their frigates.
  <bullet> Integration of several other national missile defense 
        systemsinto the NATO BMD effort, such as German and Dutch 
        Patriots, or future French early warning sensors.

    At the NATO summit in Chicago, the alliance plans to announce that 
it has an operational ``interim capability'' for command and control 
for NATO missile defense. This will be common-funded and represents the 
first step in implementing NATO's 2010 decision to pursue territorial 
missile defense. The interim capability for command and control will 
allow U.S. EPAA assets to operate under a NATO mission.
    While there is good news regarding EPAA implementation and NATO 
BMD, Russia continues to oppose missile defense in Europe and is 
refusing to cooperate. That is why President Putin will not attend the 
Chicago summit. Russia was opposed to the mid-course interceptors 
proposed by the Bush administration and after a brief pause they have 
also opposed the Obama administration's EPAA. They are concerned about 
deployments in Poland and Romania, their former Warsaw Pact Allies. 
They are concerned about Phase III and IV when more capable Standard 
Missiles will be deployed; they say they fear a threat to their second 
strike capability. They remain bitter about the abrogation of the ABM 
Treaty.
    In the negotiations on BMD cooperation, the Russians have tried 
multiple tactics to seek limitations or even a veto over NATO BMD 
deployments and use. They have also sought to intimidate host nations 
for EPAA assets.
    Per President Obama's direction, U.S. and NATO negotiators have not 
agreed to such limitations, and have made clear such limitations are 
unacceptable. The worldwide ballistic missile threat is real and 
growing, hence the U.S. needs these capabilities for defense of our 
population, forces, allies, and partners. But there is still a great 
deal of scope for meaningful and mutually beneficial cooperation with 
Russia. This is a high-priority effort. We have made numerous proposals 
and have adapted some Russian ideas, such as the concept for two NATO-
Russian centers that might be created for operational coordination and 
data-sharing.
    Progress has been slow. To find a breakthrough, the United States 
has been building a detailed case for why the EPAA and NATO missile 
defense are not a threat to Russia's strategic deterrent. Last week 
Assistant Secretary of Defense Madelyn Creedon spoke at a conference in 
Moscow, presenting a strong argument. She pointed out that even the 
SM3-IIB is not designed or positioned to catch sophisticated Russian 
ICBMs. Furthermore she highlighted the quantitative argument. Russia 
has hundreds of ICBMs, while the EPAA will employ only a few dozen 
interceptors. Simply by looking at a globe, one can see that facilities 
in Poland, Romania, and Turkey are optimally positioned to defend NATO 
from the Middle East, not counter Russia launches toward the United 
States.
    It remains in the U.S. interest to seek an agreement with Russia on 
BMD cooperation. But the U.S. can not agree to the ``legally binding'' 
assurances that Russia seeks. NATO Secretary General Rasmussen has 
suggested ``political assurances'', along the lines of the NATO 
consensus on EPAA, but Russia does not seem interested. Nonetheless, 
cooperation is ultimately in Russia's interest. They are testing the 
alliance. Once their test fails, the hope is that they will recognize 
that the transparency and real missile defense benefits they would gain 
with cooperation will outweigh their other concerns.

               THE DETERRENCE AND DEFENSE POSTURE REVIEW

    The NATO Strategic Concept, agreed at the Lisbon summit, contains a 
carefully worked out compromise on the role of nuclear deterrence in 
Europe. On the one hand it stated that as long as nuclear weapons 
exist, NATO will remain a nuclear alliance, and that NATO will retain 
the appropriate mix of nuclear and conventional weapons. On the other 
hand, it stated that NATO's broad goal is to reduce the role and number 
of nuclear weapons and to create the conditions for a nonnuclear world. 
To square this circle, it agreed that nations would not take unilateral 
action to withdraw nuclear assets and that in negotiating future 
nuclear reductions the aim should be to seek Russian agreement to 
increase nuclear transparency and to relocate their weapons away from 
NATO territory.
    This puts the focus in the right place. The nuclear problem in 
Europe is Russia. They have 10 times the nonstrategic nuclear weapons 
that NATO has in Europe. The Russian doctrine is first use. And they 
have used nuclear weapons to intimidate their neighbors. But they have 
refused to talk about either nonstrategic nuclear weapons transparency 
or reductions. An agreement on missile defense cooperation could change 
their attitude.
    But several European countries, with Germany in the lead, have 
sought to modify that NATO consensus. They have concerns about the 
safety of U.S. nuclear weapons on their soil. And so those nations 
initiated a Deterrence and Defense Posture review, which has recently 
been completed. That so-called DDPR assessed NATO's conventional, 
nuclear, and BMD capabilities. The main protagonists were the Germans 
and the French.
    The U.S. interest here is to retain the Strategic Concept consensus 
and to put the burden of nuclear reductions in Europe where it belongs, 
on Russia. While the DDPR has not yet been made public, I anticipate 
that its basic conclusion will be that the current mix of defenses is 
sound.
    A major issue during the deliberations focused on NATO's 
declaratory policy. The U.S. sought to bring NATO's declaratory policy 
for nuclear use closer to that of the United States. U.S. declaratory 
policy has a so-called ``negative security assurance'' which says it 
will not threaten or use nuclear weapons against nonnuclear states who 
are a party to the Non-Proliferation Treaty, with a possible 
reconsideration of this policy if biological weapons are used against 
the United States. France and the U.K. have their own declaratory 
policies. Several nations sought to exclude discussion of declaratory 
policies from the DDPR.

                REASSURANCE ON THE ARTICLE 5 COMMITMENT

    Several years ago some of our Eastern European allies raised 
concerns about the continuing validity of the article 5 (all for one) 
commitment. This became a central issue in the study undertaken by 
former Secretary of State Madeleine Albright and the Group of Experts. 
That group highlighted the importance of article 5 and that emphasis 
made its way into NATO's new Strategic Concept.
    Cuts in defense spending and belligerent Russian comments have 
reawakened some of those concerns. The alliance and the United States 
have taken several steps to make clear that the article 5 commitment 
remains rock solid. A few examples include the following:

  <bullet> Defense plans have been refocused on article 5.
  <bullet> Exercises have been planned to test that new including 
        ``Steadfast Jazz'' in 2013.
  <bullet> Baltic Air Policing will be continued until at least 2018.
  <bullet> The NATO Response Force will be revitalized and focused more 
        on article 5 missions.
  <bullet> The United States will conduct F-16 training in Poland.
  <bullet> A United States base will be retained in Romania.

    More can be done, for example, to make sure that NATO's core 
military capabilities retain a robust article 5 capability.

                               CONCLUSION

    There are downward pressures on both NATO's conventional defense 
capabilities and on the willingness for European nations to host U.S. 
nuclear deterrent assets. The Chicago summit is poised to take useful 
steps to mitigate those pressures and retain a useful military 
capability for the alliance. The summit will also take another 
important step to protect the alliance against the potential nuclear 
and missile threat from Iran. The cost for that may be a deteriorating 
relationship with Russia. While the summit will be a success with 
regard to these issues, this committee will need to continually monitor 
the situation to assure that those downward pressures on defense 
budgets do not create the ``dim if not dismal'' situation that 
Secretary Robert Gates envisioned.

    Senator Shaheen. Thank you all very much.
    I want to start, Dr. Binnendijk, with your comments around 
missile defense. As Mr. Brzezinski mentioned earlier, this 
month we heard Russia suggest that they might use preemptive 
force against missile installations if there is not a 
cooperative agreement reached with NATO. Do you think this is 
just posturing? Do you think this represents a heightened 
threat on the part of Russia to oppose the missile defense 
installations, or should we just expect more rhetoric and 
continue? You suggested that we have been operating in a way 
that is sufficient to continue to have some sort of a 
relationship with Russia that allows us to move forward.
    Dr. Binnendijk. I think we are being tested by the 
Russians. There is a long history to this, of course. During 
the cold war, essentially the United States convinced the 
Russians of the importance of a second strike capability, and 
that notion was accepted by both sides and kept the peace 
during the cold war. I think the Russians were quite upset when 
the ABM Treaty was abrogated because it tended to challenge 
that cold-war notion of mutual assured destruction. When the 
Bush administration put forward the notion of the so-called 
third missile defense site, which was different in composition 
but a similar purpose, the Russians opposed that. When the 
Obama administration decided to go with another option, the 
Phased-Adaptive Approach based on the Standard Missile 3, the 
Russians were quite. They thought it might be a good deal. Then 
they started looking at it. They started looking at phase III 
and IV and thought, well, maybe that is a threat.
    So I think they are testing us. They are uncomfortable with 
where the EPA might go. They would like to set limits. I think 
actually if you look at the consensus in Europe, the consensus 
in Europe really is about creating missile defenses to deal 
with an Iranian threat, not to deal with a Russian threat. If 
you look at the capabilities that we are talking about, these 
missile interceptors are slow. They are not going to catch an 
ICBM. We have been telling the Russians that. They want greater 
assurances. They want legally binding assurances. I am not sure 
that a legally binding assurance would be ratified. So 
Secretary General Rasmussen is prepared to give political 
assurances.
    I do not think we need to give in, though. I think we need 
to understand where the redlines are. There is a real threat 
coming from the Middle East. This is a serious proposal that 
has consensus, and I do not think we should let the Russians 
move us from the direction in which we are headed. But we ought 
to seek to give them as many reassurances as we can within the 
scope of the plan that we have.
    Senator Shaheen. Let me just ask the other two panelists. 
Do you all agree with that analysis?
    Mr. Brzezinski. I agree with the analysis. I think Hans is 
spot on.
    I would add that I think Russian motivations behind their 
opposition to those defense plans are really more geopolitical 
than they are technical. They are more upset over the fact the 
United States will have military installations on the 
territories of Poland and Romania.
    The only thing that I would add concerns the conditionality 
of U.S. missile defense plans. Allow me to quote the President, 
he stated--President Obama--``as long as a threat from Iran 
persists, we will go forward with a missile defense system that 
is cost-effective and proven. If the Iranian threat is 
eliminated, we will have a stronger basis for security and the 
driving force for missile defense construction in Europe will 
be removed.''
    Now, that has been hanging like a dark cloud over Central 
Europe, undercutting Central European confidence in America's 
commitment to this plan. I do not think there is high 
confidence in Warsaw, in Bucharest, and elsewhere that these 
facilities are going to be built in 2018. In fact, Poland's 
Foreign Minister Radek Sikorski when reporting on the state of 
Polish foreign policy to his Parliament just this spring, said 
``we stand ready to implement the Poland-United States 
agreement on the missile defense base even though we are aware 
of the fact that United States plans may be subject to 
modification, for example, if agreement is reached on Iran's 
nuclear program.'' So they are not confident at all that these 
plans are going to go forward.
    I personally think these plans are justified whether or not 
we make progress with Iran because we have a basic fact. 
Weapons of mass destruction and missile technologies are 
proliferating. Missile defense is going to become a required 
part of any major nation's or alliance's complement of military 
capabilities, including NATO's complement of defense 
capabilities.
    Senator Shaheen. Thank you.
    Dr. Kupchan.
    Dr. Kupchan. I would associate myself with Dr. Binnendijk's 
analysis. I think that the dispute over missile defense is 
really part of a broader lack of confidence and trust that 
exists between NATO and Russia. I would agree with what Ian 
just said that it is not a technical issue. It is much broader 
than that.
    I am someone who is broadly supportive of the Obama 
administration's reset policy toward Russia. It has had good 
days and bad days, but I think the glass is more half full than 
half empty. And I believe that we should continue to press on 
United States-Russian relations and NATO-Russian relations, 
realizing that we have differences over Georgia, that we have 
differences over missile defense, but continue to pocket those 
areas where we have agreement because if we can build greater 
trust, if we can get the Russians to see that NATO means them 
no harm, then I actually think we will be able to reach 
agreement on missile defense and perhaps on Georgia. I do not 
want to minimize the difficulties of doing that, but I think 
the outreach to Russia is correct and we should push hard on 
that front.
    One quick comment on what Mr. Brzezinski said about 
conditionality. I do not see Obama's commitment to missile 
defense as conditional. I think it is conditional in the sense 
that it is being adapted to the nature of the threat, and that 
is why there was a revision to begin with to move toward a sea-
based structure that would better deal with the threat from 
Iran. So I think that both sides of the house are moving 
forward on missile defense. What remains to be determined is 
the exact nature of that system, and that will depend upon the 
nature of the threat.
    Senator Shaheen. But I assume you would agree with his 
analysis that there is still some concern in Eastern European 
capitals about the commitment of our missile defense efforts.
    Dr. Kupchan. I think there is still some broad discomfort 
in Central Europe about the degree to which they do not enjoy 
the same pride of place that they did in the alliance 10 years 
ago. During the first decade after the fall of the Berlin Wall, 
they were the apple's eye. They had a sort of door-open policy 
in Washington. They do not enjoy quite as much access and pride 
of place as they used to. I do not think that is because the 
Obama administration is neglecting them or going over their 
heads or working on Russia at their expense. I think it is what 
one could call the ``new normal,'' a NATO alliance in which 
Poland starts to enjoy the same kind of status as an Italy and 
a Spain. That requires adjustment, but it is actually very good 
news for Poland.
    Senator Shaheen. Given what you said about the Russian 
reset, do you share what we heard earlier from Secretary Gordon 
that we should not read anything more ominous into Putin's not 
coming to the G8 summit other than that he has work at home?
    Dr. Kupchan. I find it regrettable that President Putin has 
decided not to come. I think that it is a mistake on Russia's 
part. Who knows exactly why he made that decision? But there is 
no question that his initial decision not to go to Chicago and 
now his decision not to show up at the G8 suggests that he is 
keeping a certain distance. I am confident that over time 
Russia is going to orient itself westward, and that is because 
I am not sure geopolitically speaking they have a lot of other 
options. Union with Belarus and Kazakhstan is not a bright 
future for Russia. It is in my mind just a question of when 
Russian domestic politics works itself out. It could take a 
very long time, but I think Putin is smart enough to know that 
the arrow points westward and that the markets, the 
institutions of the European Union and NATO provide a better 
future for Russia than the alternatives.
    Senator Shaheen. You said in your statement that--I am not 
quoting you exactly, but you suggested that as the circle 
widens, preserving the rules-based system, as you said, that 
has really been established by the United States and Europe and 
the transatlantic relationship will be difficult if the United 
States and Europe do not move forward together. Is there some 
reason to believe that we will not be moving forward together? 
Are you suggesting that because of the current fiscal crisis, 
because of some of the domestic issues that you identified, 
that we should worry about this as a future challenge?
    Dr. Kupchan. I worry about two different dimensions of that 
challenge. One is the bigger question of the degree to which 
the Chinas, the Indias, the Brazils of the world will embrace a 
rules-based system, and if so, will it be our rules-based 
system. And I think that is a conversation that will be 
increasingly important in the years ahead. It has already 
started.
    My second concern is that we cannot manage that task on our 
own. The West as a going concern has really been about 
partnership between the United States and Europe and between 
the United States and Japan and other allies in the Pacific. 
And I do worry that the European Union's foreseeable future is 
perhaps introverted and fragmented. So it is not that they will 
diverge from us on the need to sustain a rules-based system. It 
is they might not be in the game due to their economic and 
political weakness, and that I think would leave us in an 
exposed position. The United States and Europe should together 
do what they can to refurbish and revitalize the West as an 
anchor of liberal values, open markets, and democratic 
institutions; they are now under threat. Rising powers do not 
share these same commitments, and that is why we need to make 
sure that our model is strong and serves as an example for the 
rest of the world.
    Senator Shaheen. You know, we had a panel in the European 
Affairs Subcommittee last fall on the European fiscal crisis, 
and virtually all of the panelists agreed that one of the most 
important things we could do to support Europe in addressing 
their fiscal crisis was to address our own at home. So I would 
certainly support your analysis.
    Let me just go to an issue that I think has been brought up 
several times, and that is, as we look at the summit, as we 
look at the future of NATO, that the partnerships is one way 
for us to expand the influence and the ability to work in the 
global environment that we are now in. Do you think that offers 
an opportunity? And I guess I would ask Mr. Brzezinski and Dr. 
Binnendijk if you have views on this as well. Do you think this 
offers the opportunity to expand the circle in a way that 
allows that influence to continue to happen as you look at the 
partnerships that have been developed and that are being looked 
at in the future? Is this a way for NATO to continue to have 
some influence and work with those countries with rising 
economies?
    Mr. Brzezinski. Absolutely. I think partnerships are the 
way of the future for the alliance. The fact is that the most 
urgent challenges and most surprising, unpredictable challenges 
are most likely going to come from outside the North Atlantic 
area. It is going to be the Middle East. It is going to be 
Asia. I think it is eventually going to be Africa also because 
of the systemic challenges these regions are facing. NATO is 
going to be drawn into them just the way we have been drawn 
into Afghanistan because those changes, when they are 
particularly negative, can directly affect our own security. We 
experienced that on September 11, 2011.
    Partnerships provide an opportunity not only to bring more 
capability to the table, but they also provide an opportunity 
to bring to the table countries, regions, players, sometimes 
nongovernmental organizations that really understand the 
situation because they live there. They have the relationships. 
They have the diplomatic clout, the diplomatic legitimacy. They 
have the intelligence. They can provide the nuance that 
countries from the North Atlantic area do not have. We are 
going to need more of those relationships. I think it is smart 
to think about NATO as a community of like-minded democracies 
serving as a hub that can participate with a wider set of 
players, be it Brazil, be it India, be it Japan, Australia, 
most of whom already have these relationships. We need to 
deepen them and leverage them more.
    Senator Shaheen. Thank you.
    Dr. Binnendijk.
    Dr. Binnendijk. Let me answer your last two questions 
together because I think they do fit together.
    If you look at American grand strategy today and you look 
at the so-called pivot to Asia or the rebalancing to Asia, I 
think that is probably the right thing to do. That is where the 
long-term security challenges lie. Shorter term challenges 
still remain in the greater Middle East. So that is the second 
part. And we are looking to our European allies to help us in 
that second endeavor, otherwise we are not going to have the 
capacity to do it. The question is, are the European allies 
willing and able to do that? There is Afghanistan fatigue in 
Europe, as there is here, but it is even worse in Europe. And 
you have got the financial problems that we discussed.
    So as you look at that strategy, the question is: Are the 
European allies willing to go along with this strategy. Some 
have talked about not pivoting away from Europe, but rather 
pivoting with Europe, and that notion of pivoting with Europe 
requires partners who are willing and able to do it. And that 
is the test. Will they be able to do that? So that is the first 
part of the answer.
    The second part has to do with partnership, and here I 
agree with Ian. We are going to have 13 or so partners meeting 
with NATO in Chicago, and there is a real opportunity there.
    If you look at so-called partnerships for the alliance 
today, you have got the Partnership for Peace, which was 
initially a waiting chamber for membership. Now you have some 
very capable countries and some very less capable countries in 
the PEP. It is not really functional anymore. You have got the 
Med Dialogue. You have the Istanbul Cooperation Initiative and 
others. But they do not make much sense anymore.
    We really need to rethink partnerships in general for the 
alliance. It does not mean you cannot keep those dialogues 
going, but to me it is about capabilities and will. And you 
need to find those ``functional partners,'' who can be with us, 
and they can be global: Australia, Japan, South Korea, India, 
potentially others. How do you partner with them, and how can 
they be useful to the alliance and to the United States? Where 
you have to start, in addition to the political elements, is 
military interoperability so that we can operate together when 
agreed. And there are standards within NATO. We should be using 
those NATO standards to apply to these other countries so that 
when we come together in an operation, we are interoperable and 
we should be able to certify that. And these countries should 
get something for that, which is greater consultation.
    So I think there is a lot that can be done with this notion 
of partnership that will help that grand strategy to be able to 
work.
    Senator Shaheen. You know, I think you all have mentioned 
the pivot toward Asia and what the European reaction has been 
in some quarters. I liked your comment, Dr. Binnendijk, about 
the idea that this is really--what is happening in Asia is of 
equal interest to Europe and there is an opportunity to pivot 
together.
    And I wonder if any of you have thoughts about to what 
extent that kind of message will come out of the summit in 
Chicago and whether there is an opportunity to make that point 
in a way that has not been made to date anyway?
    Dr. Kupchan. You know, I think the Europeans are beginning 
to understand the importance of global engagement. They are 
beginning to understand that the future of our partnership with 
them depends on their readiness to do things that are well 
beyond their normal purview. But I think that is going to be a 
long-term process in the sense that the Europeans at this point 
simply do not have the equities or the capabilities to be 
players in Asia in the same way we are. That does not mean they 
cannot be helpful. That does not mean that they cannot invest 
in the kind of capabilities that will get them there.
    But I do think--and this comes back to the discussion we 
were just having about partnerships--that that conversation 
should not just be about what partners can do for NATO to 
increase NATO capability, it is also about what NATO can do for 
others in the sense that--as I suggested in my opening remarks, 
I am not sure that NATO is going to be sending out the fire 
trucks every few months whenever there is a problem out there. 
Who is going to be sending out the fire trucks? Probably 
groupings that are local. So if I were to guess at what the 
most important security institutions of the coming decades will 
be, they are going to be regional institutions like ASEAN in 
Southeast Asia, the Gulf Cooperation Council, the African 
Union, and UNASUR, which is a defense union emerging in Latin 
America. And so I think that NATO's engagement with these 
groups should be partly about interoperability, as Hans was 
just saying, but also teaching them to do for themselves what 
NATO has done for itself. NATO is the most successful 
multinational, operational, integrated military/political 
institution in history. So, if NATO is not always able to 
address crises, it should invest in making sure that others 
will be ready to fill the gap.
    Senator Shaheen. Thank you.
    Yes, Mr. Brzezinski.
    Mr. Brzezinski. I would hope that would be the message that 
comes from Chicago, that we will be pivoting together to the 
new challenges of the 21st century. That is the essence of the 
transatlantic bargain.
    I think global partnerships are a way to do that because it 
would be the United States, Canada, and our European allies 
reaching out to the Brazils, to the Indias, the Australias and 
deepening the transatlantic community's ties to them. That is 
Europe and North America pivoting together to these new 
regions.
    But I am concerned about our ability to pivot militarily 
together as we reduce the U.S. force presence in Europe. We are 
reducing two of four BCT's, brigade combat teams. We are 
pulling out prepositioned ships from the Mediterranean and we 
are pulling out an A-10 squadron, among other elements. I think 
it does raise, because it has not been adequately addressed by 
the administration, the important issue of how in the long term 
we will maintain interoperability between United States and 
European forces so that they can pivot together to these new 
regions.
    To get a sense of the implications the administration's 
decisions to reduce U.S. presence in Europe portend for 
engagement between United States and European forces, lets take 
a closer look at their plans for future engagement. They have 
decided to remove or eliminate two brigade combat teams now 
deployed in Europe. To make up for that loss of presence, the 
administration has committed a United States brigade combat 
team to the NATO Response Force. Fantastic, that is a first-
rate decision. We should have done it a long time ago.
    The administration has also said it will ensure that two 
brigade combat team equivalents will rotate to Europe each 
year, which sounds good. When you start scratching the surface 
of that, those rotations are only 6 to 8 weeks long per year. 
That comes nowhere close to the kind of engagement that a 
permanently based unit in Europe can provide. That comes 
nowhere close to the kind of level of joint training that a 
unit based in Europe can do with the Italians, with the Poles, 
with the Norwegians and such. And so I think there is a real 
question out there of what is going to happen to all the great 
interoperability we have developed over the last decade.
    Remember when Europeans started first flowing into 
Afghanistan and into Iraq also, we had real interoperability 
problems. It was not smooth. As the battlefield becomes more 
complex, more technologically demanding interoperability is 
more difficult to develop and more difficult to sustain. It 
requires more engagement rather than less engagement. So that 
is the question mark I bring to the table concerning these 
reductions of U.S. military presence in Europe.
    Senator Shaheen. Yes, Dr. Binnendij.
    Dr. Binnendijk. I would hope that the message from Chicago 
is that we face global challenges together, that this group of 
nations, this group of democracies needs to work together to 
meet those global challenges. That is what the message should 
be.
    And I think if you look at Libya and what happened there, 
it does demonstrate that if an issue is in the interest of our 
allies to engage in, they will do it. It did not require all 
European allies to engage in that. Enough engaged. Ninety 
percent of the ordnance dropped on Libya was European ordnance. 
So that demonstrates that when there is an interest, there can 
be a will. So I would not write off the Europeans as quickly as 
some others might.
    Now, they are in a near existential crisis today over the 
future of the euro, and we see that with developments in 
Greece. So that will complicate it.
    Let me just say a final word about what Ian just raised 
which is the sort of narrower issue of brigade combat teams and 
the American presence there.
    As Ian suggested that this was a very sound decision to 
have these brigade combat teams--to have at least one U.S.-
based brigade combat team deploy battalions to Europe to do 
joint training with the NATO Response Force. That ought to be a 
model. It ought to be a model for what we do to maintain 
military interoperability between the United States and our 
allies post-ISAF.
    And we need to find many other examples. And this actually 
may be a place where the committee could play a constructive 
role to try to urge the administration to find other places 
because interoperability is very precious and it is very 
fragile, and we need to be able to sustain that if we are going 
to sustain the alliance over time post-ISAF.
    Senator Shaheen. Thank you all very much. I know we 
promised to have folks out by about 12:30.
    So let me just close with one question that is a little 
more parochial for me. I am planning to attend the summit in 
Chicago, and one of the programs that I am going to be 
participating in is the Atlantic Council's Young Atlanticist 
Program. Obviously, it is aimed at trying to engage more young 
professional leaders and future decisionmakers in policy 
questions and particularly in the importance of NATO. So do you 
all have thoughts about what we can do to better engage 
upcoming leaders on NATO and on what the next generation should 
look like for NATO and for our future leaders? You professors 
ought to have some really good ideas about this.
    Mr. Brzezinski. We are thrilled to have you at the Atlantic 
Council conference there, Senator Shaheen. The fact that you 
are attending this event and some of the NATO events in Chicago 
is important because you represent this institution and that 
communicates a lot. It communicates a lot of commitment.
    With that said, I would reinforce that message. They need 
to hear that that America is interested in Europe's security 
interests.
    And second, I would encourage our European allies to think 
globally and to recognize that they and their countries have a 
lot at stake globally, and they have to start looking beyond 
their immediate financial crises and thinking about how their 
interests are affected by developments in Asia, Africa, Latin 
America.
    And then third, I would remind them, just as Charlie did 
today, that by working with the United States, we are together 
stronger and are going to be more influential and better able 
to shape and drive events beyond the North Atlantic area in 
Asia, in Africa, in the Middle East together than if we try to 
do that separately.
    Senator Shaheen. Thank you.
    Any other thoughts?
    Dr. Kupchan. I would concur that it is not just important 
but more and more important over time in the sense that I think 
on both sides of the Atlantic we are going through generational 
changes that are to some extent--``eroding'' would be too 
strong a word, but diminishing the social foundations of the 
partnership in the sense that--I guess you and I, Ian--we sort 
of represent the last generation of people in this game who 
entered professional life when the cold war was still alive. 
Not so for younger generations. The students I teach at 
Georgetown are growing up in a world in which Atlantic 
Partnership, the cold war, the Berlin Wall are very remote. 
That is why it is especially important to get younger Americans 
and Europeans to engage in these issues, to be educated on 
these issues.
    And also for Europeans, I think the other thing I worry 
about is their own commitment to the European project. One of 
the issues that polling data is beginning to show is that they 
do not have the same emotional attachment to Europe as the 
older generation. What Angela Merkel has been doing with the 
euro--moving reluctantly and cautiously--Helmet Kohl would have 
never done because the European project was sacred ground for 
him. And that is particularly why I think investing in the 
emerging generation is so critical.
    Senator Shaheen. Thank you.
    Dr. Binnendijk, you have the last word.
    Dr. Binnendijk. Thank you.
    First, I think it is great that you are going for that 
purpose, and Fran Burwell has just done a great job with that 
program. And it is a problem. I mean, I go to meetings on NATO, 
and everybody looks like me and my generation. And we need to 
fix that problem.
    I have taken one small step. I have my daughter, Anika, now 
engaged in NATO affairs. So that is a personal contribution.
    Senator Shaheen. So if I bring my daughter, that would help 
probably. Right?
    Dr. Binnendijk. I think the message is that we are really 
faced with global challenges, global problems that cannot be 
solved by the United States or a small group of nations alone. 
They have to be solved globally. For all of the faults that the 
Europeans have, they still are our best partners in dealing 
with those global challenges. And it is not just military 
stuff. It is energy. It is climate. It is cyber. All of these 
new challenges. And actually that is where the latest 
generation is focusing. They understand those problems. And so 
I would focus on those as well.
    Senator Shaheen. Well, thank you all very much. This has 
been very enlightening.
    At this time, I will close the hearing.
    [Whereupon, at 12:29 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Response of Assistant Secretary of State Philip Gordon to Question 
                  Submitted by Senator James M. Inhofe

    Question. At the 2008 NATO Bucharest summit, member states agreed 
that Georgia would become a future NATO member. This decision has been 
reaffirmed by NATO on numerous subsequent occasions. Georgia has been 
making impressive progress in its democratic transformation which I 
believe facilitates Georgia's NATO accession process. Georgia has also 
made extraordinary contributions to the International Security 
Assistance Force mission in Afghanistan.
    The NATO summit in Chicago is an important moment to recognize 
Georgia's progress and advance its prospects for membership in the 
alliance. U.S. leadership is essential for this. Could you please 
elaborate further on how the administration will use the summit to 
ensure not only that Georgia's progress and its contributions to NATO 
are recognized, but that it is also given a clear roadmap and 
benchmarks for achieving full NATO membership?

    Answer. The United States continues to support Georgia's 
aspirations for integration into Euro-Atlantic institutions, including 
NATO. In order to be considered for NATO membership, Georgia must make 
further progress on the range of reforms required to meet NATO's 
standards for membership. Georgia's Annual National Program (ANP) and 
the NATO--Georgia Commission (NGC) continue to guide Georgia's reform 
efforts in this regard.
    While the Chicago summit is not an enlargement summit, we have 
worked hard with allies to secure a strong signal of support for 
Georgia's candidacy. Specifically, Georgia has been invited to attend 
an aspirants meeting at the level of Foreign Ministers along with 
Macedonia, Bosnia and Herzegovina, and Montenegro. This meeting will 
highlight NATO's open door policy and support for these countries Euro-
Atlantic aspirations. Georgia continues to be an important NATO partner 
and significant contributor to ISAF operations in Afghanistan and will 
be represented at the ISAF summit meeting. Additionally, at the summit 
we are going to highlight those partners who have made significant 
contributions to NATO operations and activities by holding a heads of 
state meeting with 13 of these partners, including Georgia.
                                 ______
                                 

 Responses of Assistant Secretary Philip Gordon to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. To advance the bipartisan agenda of NATO enlargement, 
Congress has passed several bills to authorize security assistance 
geared toward NATO enlargement, the most recent of which is the NATO 
Enhancement Act. Do you support passage of the NATO Enhancement Act, 
which is pending before the committee?

    Answer. Yes. We appreciate the bill's strong support for NATO, 
which continues the long tradition of Senate advocacy. The bill's 
support for NATO enlargement reflects the administration's policy that 
Euro-Atlantic integration is critical to achieving a Europe whole, 
free, and at peace. We particularly appreciate the continuation of 
programs to assist NATO aspirants to meet the standards for NATO 
membership, which are helpful to our efforts to hasten their entry.

    Question. What effect has the recent ICJ decision concerning the 
Macedonia-Greece name dispute issue had on moving the parties closer to 
a compromise? Has this decision had any impact on U.S. policy toward 
the issue?

    Answer. The United States looks to the leaders of both countries to 
use the ICJ judgment as an opportunity to renew their efforts toward 
finding a solution that benefits both Greece and Macedonia. The U.S. 
position on the name dispute is longstanding. We strongly support the 
ongoing U.N. effort, led by Matthew Nimetz, to resolve this issue and 
will support any mutually acceptable solution. We regularly engage both 
countries at a high level on this issue and continue to urge Athens and 
Skopje to reach agreement on the name issue as soon as possible.

    Question. Please list all European military assets that have been 
expressly assigned to the NATO missile defense mission in terms of 
radars, sensors, and air/missile defense interceptors.

    Answer. While Turkey, Romania, Poland, and Spain have agreed to 
host U.S. missile defense assets in support of the European Phased 
Adaptive Approach (EPAA) to missile defense, NATO allies are just 
beginning to capitalize upon the alliance's decision to develop a NATO 
missile defense capability. The alliance has, and continues to develop, 
a command and control system paid for with NATO common funding. Allies 
have committed over $1 billion in common funding toward the NATO 
missile defense command and control architecture.
    At the Chicago NATO summit, heads of state and government noted the 
potential opportunities for cooperation on missile defense, and 
encouraged allies to explore possible additional voluntary 
contributions, including though multinational cooperation, to provide 
relevant capabilities, as well as to use potential synergies in 
planning, development, procurement, and deployment.
    Allies are stepping up as contributors to the NATO missile defense 
effort. For example, the Netherlands has agreed to contribute their 
deployable Patriot air and missile defense systems as needed. In 
September, the Netherlands announced that it would upgrade the SMART-L 
radars aboard its air defense frigates so as to be able to contribute 
sensor missile defense data to NATO. France is further developing the 
SAMP/T system, which has capabilities similar to those of the Patriot 
and is continuing to explore the development of a space-based early 
warning radar system.
    Discussions between allies and the NATO organization, as well as 
bilateral discussions between the United States and our NATO allies, on 
their possible future contributions to European missile defense are 
ongoing.

    Question. What steps has the Department taken to ensure greater 
European contributions to the missile defense mission?

    Answer. The Departments of State and Defense work closely together 
to engage European allies continuously both bilaterally and at NATO on 
NATO missile defense. Through bilateral and NATO working groups, as 
well as senior level policy and defense discussions, the United States 
strongly advocates for additional European contributions to NATO 
missile defense. We believe the alliance has a number of opportunities 
for national and multinational contributions to bring additional 
capability to NATO's missile defense mission. For example, a number of 
allies possess maritime assets that could be upgraded for missile 
defense capabilities. In September 2011, the Netherlands announced 
plans for the upgrade of the SMART-L radars on its four air defense 
frigates in order to contribute to NATO missile defense at a cost of 
approximately 250 million euro. The Departments of State and Defense 
will continue to engage allies to deepen our bilateral and collective 
missile defense cooperation.
                                 ______
                                 

  Responses of Deputy Assistant Secretary James Townsend to Questions 
                 Submitted by Senator Richard G. Lugar

    Question. To advance the bipartisan agenda of NATO enlargement, 
Congress has passed several bills to authorize security assistance 
geared toward NATO enlargement, the most recent of which is the NATO 
Enhancement Act. Do you support passage of the NATO Enhancement Act, 
which is pending before the committee?

    Answer. Yes. We appreciate the bill's strong support for NATO. The 
bill's support for NATO enlargement reflects recognition that Euro-
Atlantic integration is critical to achieving a Europe that is whole, 
free, and at peace. We particularly appreciate the continuation of 
programs to assist NATO aspirants to meet the standards for NATO 
membership, which are helpful to our efforts to support their entry.

    Question. What effect has the recent ICJ decision concerning the 
Macedonia-Greece name dispute issue had on moving the parties closer to 
a compromise? Has this decision had any impact on U.S. policy toward 
the issue?

    Answer. The United States looks to the leaders of both countries to 
use the ICJ judgment as an opportunity to renew their efforts toward 
finding a solution acceptable to both Greece and Macedonia. The United 
States continues to support the ongoing U.N. effort, led by Matthew 
Nimetz, to resolve this issue and will support any mutually acceptable 
solution. We regularly engage both countries at a high level on this 
issue and continue to urge Athens and Skopje to reach agreement as soon 
as possible.

    Question. Please list all European military assets that have been 
expressly assigned to the NATO missile defense mission in terms of 
radars, sensors, and air/missile defense interceptors.

    Answer. While Turkey, Romania, Poland, and Spain have agreed to 
host U.S. missile defense assets in support of the European Phased 
Adaptive Approach (EPAA) to missile defense, NATO allies are just 
beginning to capitalize upon the alliance's decision to develop a NATO 
missile defense capability. The alliance is developing a command-and-
control system paid for with NATO common funding.
    At the Chicago NATO summit, heads of state and government will note 
the potential opportunities for cooperation on missile defense, and 
encourage allies to explore possible additional voluntary 
contributions, including though multinational cooperation, to provide 
relevant capabilities, as well as to use potential synergies in 
planning, development, procurement, and deployment.
    Allies are stepping up as contributors to the NATO missile defense 
effort. In September 2011, the Netherlands announced that it would 
upgrade the SMART-L radars aboard its air defense frigates so as to be 
able to contribute sensor missile defense data to NATO. France is 
further developing the Surface-to-Air Missile Platform/Terrain (SAMP/T) 
system, which has capabilities similar to those of the Patriot, and is 
continuing to explore the development of a space-based early warning 
radar system. The Netherlands and Germany could contribute their 
deployable Patriot air and missile defense systems as needed. 
Discussions between allies and the NATO organization, as well as 
bilateral discussions between the United States and our NATO allies, on 
their possible future contributions to European missile defense are 
ongoing.

    Question. What steps has the Department taken to ensure greater 
European contributions to the missile defense mission?

    Answer. The Departments of State and Defense work closely together 
to engage European allies both bilaterally and at NATO on NATO missile 
defense. Through bilateral and NATO working groups, as well as senior-
level policy and defense discussions, the United States strongly 
advocates for additional European contributions to NATO missile 
defense. We believe the alliance has a number of opportunities for 
national and multinational contributions to bring additional capability 
to NATO's missile defense mission. For example, a number of allies 
possess maritime assets that could be upgraded for missile defense 
capabilities. In September 2011, the Netherlands announced plans for 
the upgrade of its air defense frigates in order to contribute to NATO 
missile defense. The Departments of State and Defense will continue to 
engage allies to deepen our bilateral and collective missile defense 
cooperation.

    Question. Please describe all steps that are being taken to 
reassure allies as two Brigade Combat Teams are being withdrawn from 
Europe.

    Answer. European allies remain vitally important to the United 
States, and the new strategic guidance calls Europe ``our principal 
partner in seeking global and economic security.'' We consulted with 
allies in advance of the decision on the brigade combat teams (BCT), 
and we continue to reassure them that we have strong, enduring 
interests in supporting peace and prosperity in Europe and in 
bolstering the strength and vitality of NATO.
    Although our posture in Europe will evolve with the strategic 
landscape, we will maintain our Article 5 commitments to allied 
security and promote enhanced capacity and interoperability for 
coalition operations. We will maintain a substantial presence in 
Europe--with capable military forces focused on combined training, 
exercises, and military cooperation--and provide new capabilities, 
including missile defense, that address the evolving threats to Europe 
and the United States. The U.S. European Command assesses that the two 
remaining BCTs represent an adequate ground combat maneuver force for 
assigned missions, including partner capacity-building activities. 
Additionally, there are meaningful improvements in U.S. air and naval 
posture that will enable security cooperation activities consistent 
with the new strategic guidance.
    To reassure allies further, we will allocate a U.S.-based BCT to 
the NATO Response Force and rotate elements of this U.S.-based BCT to 
Europe in order to bolster the training and exercising we conduct with 
allies to ensure strong links and interoperability. We will continue to 
implement the European Phased Adaptive Approach to missile defense. We 
deployed a radar in Turkey and an Aegis ship in the eastern 
Mediterranean, and we plan to station land-based SM-3 missiles in 
Romania and Poland and forward deploy four Aegis multimission ships to 
Spain. We will continue to support a framework for the NATO Special 
Operations Forces (SOF) Headquarters. We will establish an aviation 
detachment in Poland later this year and plan to rotate aircraft to it 
on a quarterly basis beginning in 2013. We also plan to enhance 
readiness training at combat training centers in Germany.

    Question. What is the schedule for sending U.S. forces to Europe to 
train with their European counterparts? Which forces will be part of 
these missions?

    Answer. The Office of the Secretary of Defense for Policy, in 
coordination with the U.S. European Command and the U.S. Army, 
continues to plan for a fiscal year 2014 implementation of a 
reinvigorated contribution to the NATO Response Force (NRF). As part of 
committing an Army Brigade Combat Team (BCT) to the NRF on an annual 
basis, the vision is that that BCT will rotate elements (up to a 
battalion task force and BCT Headquarters) up to twice a year to Europe 
to conduct interoperability-focused training. The Department will make 
a final decision on how to implement this concept later this year.

    Question. What concrete commitments will be made by allies under 
the Smart Defense Initiative?

    Answer. ``Smart Defense,'' a term initially introduced by Secretary 
General Rasmussen in March 2011, describes a framework that assists 
nations to build greater security through multinational collaboration, 
coordination, coherence, and efficiency. At the Chicago summit, heads 
of state are expected to agree to a Defense Package that will help NATO 
develop and deliver the capabilities that our missions and operations 
require, a package that paves the way ahead whereby NATO, in 2020, will 
continue to have the capabilities necessary to address the threats and 
the challenges that may be anticipated. The following are highlights of 
the Defense Package:

    Missile Defense: Leaders will declare they have an interim NATO 
ballistic missile defense capability. NATO will now have an 
operationally meaningful ballistic missile defense mission.

  --The United States has agreements with four countries--Spain, 
        Turkey, Romania, Poland--to host U.S. missile defense assets.
  --Allies themselves have committed to invest more than $1 billion in 
        command and control and communications infrastructure needed to 
        support the ballistic missile defense system.
  --U.S. missile defense ships are already in the Mediterranean, and 
        they are able to operate under NATO command.

    Alliance Ground Surveillance (AGS): At Chicago, it is anticipated 
that NATO will sign a contract to acquire the AGS system (five Global 
Hawk drones and associated command and control ground stations).

  --Thirteen allies (Bulgaria, Czech Republic, Estonia, Germany, Italy, 
        Latvia, Lithuania, Luxembourg, Norway, Romania, Slovakia, 
        Slovenia, and the United States) are undertaking to acquire the 
        system, and all allies will contribute to the operational 
        costs.
  --Two additional allies have pledged a desire to become additional 
        acquisition partners.

    Baltic Air Policing: At Chicago, it is anticipated that allies will 
agree to extend the Baltic air policing mission.

  --Various allies take turns in patrolling air space, thus allowing 
        the Baltic allies to focus their investment efforts in other 
        critical areas, such as deployable forces for Afghanistan.

    Smart Defense Multinational Projects: There are approximately 20 
smaller scale initiatives (categories including improvements in 
sustainment, force protection, intelligence, and engagement) underway 
to acquire NATO capabilities efficiently. This list is continually 
evolving.

  --Each project is led by a specific ally and supported by one or more 
        additional allies.
  --Lead nations for individual nations include Germany, the United 
        States, Canada, France, Italy, the U.K., Denmark, Portugal, the 
        Czech Republic, Turkey, and the Netherlands.
  --Nearly every other NATO member is supporting one or more 
        multinational projects.

    Question. What is the schedule for the F-16 detachment in Poland 
and how many aircraft will be involved?

    Answer. The 10 full-time personnel for the Aviation Detachment at 
Poland's Lask Airbase are scheduled to begin arriving in October 2012, 
with an official ceremony scheduled for the following month. Aircraft 
rotations are planned to begin in the first quarter of calendar year 
(CY) 2013 and to occur quarterly thereafter, lasting approximately 2 
weeks at a time. Aircraft type and numbers for each rotation will vary, 
but they are projected to be composed of at least four F-16 or two C-
130 aircraft (both of which Poland possesses) to enhance U.S. Air Force 
and Polish Air Force cooperation most effectively. A unit has not yet 
been identified for the initial C-130 unit rotation in the first 
quarter of CY13, so specific dates and aircraft numbers are not yet 
firm; F-16 unit rotations are anticipated for the second and third 
quarters of CY13.
                                 ______
                                 

   Response of Deputy Assistant Secretary James Townsend to Question 
                     Submitted by Senator Tom Udall

    Question. In the state of New Mexico, the German Air Force flies 
aircraft out of Holloman Air Force Base. They are extremely 
professional, and a very welcome part of the Holloman community and 
nearby Alamogordo. This joint training is crucial for strengthening the 
alliance, but also for improving the interoperability of U.S. and NATO 
forces. Working together, before there is conflict, is a crucial part 
of preparation for NATO. What can we do to expand NATO training in the 
United States, are there countries interested in expanding joint 
training, and what is preventing this from occurring?

    Answer. Joint, multinational training is indeed critical to 
sustaining and improving interoperability, and something NATO takes 
very seriously. Each year, the alliance develops and publishes the NATO 
Military Training and Exercise Program, which covers a 5-year period 
and focuses on preparing multinational headquarters and forces for 
operations. The program addresses training and certification exercises 
for land, maritime, and air units, as well as for joint and 
multinational headquarters.
    The United States also participates in bilateral training with many 
newer NATO allies through the National Guard Bureau-administered State 
Partnership Program. National Guard personnel often travel overseas to 
train with their Partners, and on several occasions, Partners have 
traveled to the United States for small unit training.
    The United States also participates in several officer exchange 
programs where allied officers attend U.S. professional military 
education courses, are embedded in U.S. staffs, and in some cases 
deploy to operations with U.S. units. During the April 2012 NATO 
Defense Ministerial, Secretary Panetta invited ministers from the other 
27 allies to explore opportunities to send their forces to the United 
States for training. To date, none have accepted the offer. We believe 
this is due primarily to the costs associated with deploying forces and 
equipment to the United States and the desire of most allies to train 
on their home soil.
                                 ______
                                 

  Responses of Deputy Assistant Secretary James Townsend to Questions 
               Submitted by Senator Robert P. Casey, Jr.

    Question. Ensuring the capabilities, independence and 
professionalism of the ANSF over the next few years will be critical to 
the stability of Afghanistan in the future. However, the lack of 
southern Pashtun officers and enlisted personnel in the ANSF 
jeopardizes the cohesion needed to ably represent the ethnic makeup of 
the country and address ongoing security challenges in the south. In 
addition, there is currently a shortfall of 440 training positions that 
has an adverse impact on NATO's ability to adequately train Afghans in 
a timely manner. ``What is NATO doing to improve the ethnic makeup of 
the ANSF, specifically by increasing the proportion of ANSF officers 
and enlisted personnel that are southern Pashtuns?'' What is NATO doing 
to address the shortfall of ANSF trainers and encourage its members to 
fill the open positions?

    Answer. At the upcoming Chicago summit, NATO is expected to 
reaffirm its commitment to support the Government of Afghanistan in its 
responsibility to develop Afghan forces that are capable of assuming 
full lead for security in Afghanistan by the end of 2014 and of 
maintaining security after transition is complete. Afghan forces that 
are inclusive and representative of all Afghan people will be better 
able to meet those requirements; however, allies and non-NATO partner 
nations recognize that ANSF recruiting is an Afghan responsibility. The 
Afghan National Army Recruiting Command and Afghan National Police 
Recruiting agencies continue to focus on recruiting officer and 
enlisted candidates from the southern Pashtun regions of Afghanistan. 
Southern Pashtuns average approximately 12 percent of Afghans 
recruited.
    Regarding your question on trainers, Supreme Headquarters Allied 
Powers Europe actively manages NATO and ISAF partner nation force 
contributions in relation to the Commander ISAF-validated Combined 
Joint Statement of Requirements. This force generation process 
maximizes the utility of allied and partner nation troop contributions 
throughout the ongoing transition from combat to support of the ANSF. 
The most recent joint manning conference, held in May 2012, helped 
address ISAF's shifting requirements from institutional trainers to 
security force assistance teams as the ANSF's internal training 
capacity continues to expand and Afghan training institutions continue 
to transition to ANSF lead.

    Question. NATO's support for Afghan women has been key to raising 
the profile of women's rights and emphasizing the important role that 
women can play in conflict resolution and peace building. Although 
there has been progress on these issues, many continue to be concerned 
that the ongoing political reconciliation process with the Taliban 
could result in backsliding on key protections for women. ``What 
specific steps does NATO plan to take to ensure that women's rights are 
protected during the security transition, including in areas where the 
ANSF has assumed primary responsibility for security, and after 2014?'' 
How can NATO ensure that the ANSF are prepared to respond to incidents 
of violence against women and other rights violations? What is being 
done to increase the number of women recruited for the ANSF?

    Answer. At the upcoming Chicago cummit, NATO is expected to 
reaffirm its commitment to support the Government of Afghanistan in its 
responsibility to develop Afghan forces that are capable of assuming 
full lead for security by the end of 2014 and of maintaining security 
in Afghanistan after transition is complete. NATO and the Government of 
Afghanistan also recognize that a political process involving 
successful reconciliation with the Taliban is integral to peace and 
stability. This process must be Afghan-led to succeed, and NATO stands 
ready to support that process as long as the Government of Afghanistan 
remains resolved to deliver on its commitment to a democratic society 
where the human rights and fundamental freedoms of its citizens are 
respected--including the equality of men and women and the active 
participation of both in Afghan civil society.
    It is the case, however, that recruiting women into the ANSF 
continues to be a challenge. NATO Training Mission -Afghanistan is 
working at the ministerial level to increase the opportunities 
available for women within the ANSF and to improve acceptance of women 
across the force.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
